No. _________
In The

Supreme Court of the United States
RAIN COMPUTING, INC.,
Petitioner,
v.

SAMSUNG ELECTRONICS AMERICA, INC.,
SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG RESEARCH AMERICA, INC.,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

_____________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

_____________________

Stephen Yee Chow
Counsel of Record
Hsuanyeh Chang
HSUANYEH LAW GROUP, PC
11 Beacon Street, Suite 900
Boston, Massachusetts 02108
(617) 886-9088
Stephen.Y.Chow@hsuanyeh.com
Hsuanyeh@hsuanyeh.com
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ P.O. Box 1460 (23218) ♦ Richmond, VA
804-249-7770 ♦
www.gibsonmoore.net

23219

TABLE OF CONTENTS
Appendix
Page:
Opinion (Doc. 45)
U.S. Court of Appeals for the Federal Circuit
entered March 3, 2021 ...................................................................................... 1a
Memorandum and Order (Doc. 43)
U.S. District Court for the District of Massachusetts
entered February 12, 2020 ............................................................................. 10a
Judgment (Doc. 48)
U.S. District Court for the District of Massachusetts
entered March 12, 2020 .................................................................................. 39a
Docket Entries - Electronic Order 46
U.S. District Court for the District of Massachusetts
(PACER May 4, 2020)
entered February 24, 2020 ............................................................................. 41a
U.S. Patent No. 9,805,349 (Doc. 1-1)
dated October 31, 2017 ................................................................................... 53a
Appellant’s Response and Reply Brief (Doc. 26)
U.S. Court of Appeals for the Federal Circuit
filed September 21, 2021 ................................................................................ 64a
Judgment (Doc. 46)
U.S. Court of Appeals for the Federal Circuit
entered March 3, 2021 .................................................................................. 129a
Mandate (Doc. 47)
U.S. Court of Appeals for the Federal Circuit
issued April 8, 2021....................................................................................... 130a
Rain Computing, Inc. v. Samsung Electronics Co.,
989 F.3d 1002 (Fed. Cir. 2021) ..................................................................... 131a

Case: 20-1646

Document: 45

Page: 1

Filed: 03/02/2021

United States Court of Appeals
for the Federal Circuit
______________________

RAIN COMPUTING, INC.,
Plaintiff-Appellant
v.
SAMSUNG ELECTRONICS AMERICA, INC.,
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
RESEARCH AMERICA, INC.,
Defendants-Cross-Appellants
______________________
2020-1646, 2020-1656
______________________
Appeals from the United States District Court for the
District of Massachusetts in No. 1:18-cv-12639-RGS, Judge
Richard G. Stearns.
______________________
Decided: March 2, 2021
______________________
STEPHEN YEE CHOW, Hsuanyeh Law Group, PC, Boston, MA, argued for plaintiff-appellant. Also represented
by HSUANYEH CHANG.
MICHAEL J. MCKEON, Fish & Richardson PC, Washington, DC, argued for defendants-cross-appellants. Also represented by CHRISTOPHER DRYER.
______________________
Before LOURIE, DYK, and MOORE, Circuit Judges.

1a

Case: 20-1646

Document: 45

Page: 2

Filed: 03/02/2021

MOORE, Circuit Judge.
Rain Computing, Inc. appeals a final judgment of
noninfringement of the asserted claims of U.S. Patent No.
9,805,349 and Samsung Electronics America, Inc.;
Samsung Electronics Co., Ltd.; and Samsung Research
America, Inc. (collectively Samsung) cross-appeal the final
judgment that the asserted claims of the ’349 patent are
not invalid as indefinite. For the reasons below, we reverse
the district court’s judgment on indefiniteness and dismiss
Rain’s appeal.
BACKGROUND
Rain sued Samsung for infringement of claims of the
’349 patent. The ’349 patent is directed to delivering software application packages to a client terminal in a network
based on user demands. See ’349 patent at Abstract, 1:59–
2:14. The claimed invention purports to deliver these packages more efficiently by using an operating system in a client terminal rather than a web browser. ’349 patent at
1:49–55, 1:59–2:14. Claim 1 is representative:
1. A method for providing software applications
through a computer network based on user demands, the method comprising:
accepting, through a web store, a subscription of one or more software application
packages from a user;
sending, to the user, a user identification
module configured to control access of said
one or more software application packages,
and coupling the user identification module
to a client terminal device of the user;
a server device authenticating the user by
requesting subscription information of the
user from the user identification module
through the computer network;

2a

Case: 20-1646

Document: 45

Page: 3

Filed: 03/02/2021

upon authentication of the user, the server
device providing, to the client terminal device of the user, a listing of one or more software application packages subscribed
through the web store in accordance with
the subscription information;
the server device receiving, from the client
terminal device and through the computer
network, a selection of a first software application package from said listing of one or
more software application packages;
the server device transmitting the first
software application package to the client
terminal device through the computer network; and
executing the first software application
package by a processor of the client terminal device using resources of an operating
system resident in a memory of the client
terminal device.
In a February 12, 2020 order, the district court construed various claim terms. Relevant here, it construed
“executing the [first/second] software application package
. . . in a memory of the client terminal device” and “user
identification module configured to control access of . . .
software application packages.” Rain Computing, Inc. v.
Samsung Elecs. Co., No. 18-12639-RGS, 2020 WL 708125,
at *3–7 (D. Mass. Feb. 12, 2020). The district court determined “user identification module” was a means-plus-function term subject to 35 U.S.C. § 112 ¶ 6 and was not
indefinite. Id. at *3–5. Following that order, the district
court entered judgment, based on the parties’ joint stipulation, that the asserted claims were neither infringed nor
invalid for indefiniteness. Rain appeals and Samsung
cross-appeals. We have jurisdiction under 28 U.S.C.
§ 1295(a)(1).

3a

Case: 20-1646

Document: 45

Page: 4

Filed: 03/02/2021

DISCUSSION
Rain challenges the district court’s construction of the
“executing” term. Samsung challenges the court’s determination that “user identification module” does not render
the claims indefinite. Because we agree with Samsung
that “user identification module” renders the claims indefinite, we do not reach the merits of Rain’s appeal.
I
Whether claim language invokes 35 U.S.C. § 112 ¶ 6 is
a question of law we review de novo. Williamson v. Citrix
Online, LLC, 792 F.3d 1339, 1346 (Fed. Cir. 2015). We review any underlying findings of fact for clear error. Id. Under § 112 ¶ 6, a patentee may draft claims “as a means or
step for performing a specified function without the recital
of structure, material, or acts in support thereof.” But such
claims are construed to cover only “the structure, materials, or acts described in the specification as corresponding
to the claimed function and equivalents thereof.” Williamson, 792 F.3d at 1347.
To determine whether § 112 ¶ 6 applies to a claim limitation, we must inquire “whether the words of the claim
are understood by persons of ordinary skill in the art to
have a sufficiently definite meaning as the name for structure.” Id. at 1349. If those words lack a sufficiently definite meaning, § 112 ¶ 6 applies. If the limitation uses the
word “means,” there is a rebuttable presumption that § 112
¶ 6 applies. Id. at 1348–49. If not, there is a rebuttable
presumption that the provision does not apply. Id. But
that “presumption can be overcome and § 112 para. 6 will
apply if the challenger demonstrates that the claim term
fails to recite sufficiently definite structure or else recites
function without reciting sufficient structure for performing that function.” Id. at 1348 (quotations and brackets
omitted).

4a

Case: 20-1646

Document: 45

Page: 5

Filed: 03/02/2021

We first determine whether “user identification module” is a means-plus-function term. Because the term does
not include the word “means,” there is a rebuttable presumption that § 112 ¶ 6 does not apply. “‘Module’ is a wellknown nonce word that can operate as a substitute for
‘means.’” Id. at 1350. In Williamson, we held that the word
“module” in the claim term “distributed learning control
module” “does not provide any indication of structure because it sets forth the same black box recitation of structure . . . as if the term ‘means’ had been used.” Id.
Likewise, “module” here does not provide any indication of
structure, and Rain fails to point to any claim language
providing any structure for performing the claimed function of being configured to control access. Nor does the prefix “user identification” impart structure because it merely
describes the function of the module: to identify a user. See
id. at 1351 (“The prefix ‘distributed learning control’ does
not impart structure into the term ‘module.’”). Thus, the
claim language fails to provide any structure for performing the claimed functions.
The parties do not dispute that “user identification
module” has no commonly understood meaning and is not
generally viewed by one skilled in the art to connote a particular structure. In Media Rights Technologies, Inc. v.
Capital One Financial Corp., we held that the written description of a “copyright compliance mechanism,” including
how it was connected to various parts of the system, how it
functioned, and its potential functional components, was
not enough to provide sufficient structure to the claimed
“compliance mechanism.” 800 F.3d 1366, 1372–73 (Fed.
Cir. 2015). Here, the specification does not impart any
structural significance to the term; in fact, it does not even
mention a “user identification module.” “Without more, we
cannot find that the claims, when read in light of the specification, provide sufficient structure for the [] term.” Id.
at 1373. Accordingly, we hold “user identification module”
is a means-plus-function term subject to § 112 ¶ 6.

5a

Case: 20-1646

Document: 45

Page: 6

Filed: 03/02/2021

Rain argues an amendment made during prosecution
of “a user identification module for accessing . . .” to “a user
identification module configured to control access of
. . .” prevents “user identification module” from being a
means-plus-function term. Appellant Resp. & Reply Br. at
12–13, 56–57 (emphases added). According to Rain, replacing “for” with “configured to” removed the means-plusfunction language. Id. But the purely functional claim language reciting what the “user identification module” is configured to do provides no structure. See MTD Prods. Inc. v.
Iancu, 933 F.3d 1336, 1343 (Fed. Cir. 2019) (construing “a
mechanical control assembly . . . configured to actuate . . .”
as a means-plus-function limitation).
Rain also argues that an appellate brief filed by Patent
Office examiners defending a final rejection of the applicant’s claims supports its position that the term is not a
means-plus-function term. The examiners’ brief states, in
relevant part:
Additionally, as claim 20 is directed to a method
rather than an apparatus, the limitation “user
identification module configured to control access
of said one or more software application packages,”
does not invoke 112, 6th paragraph, or 112(f).
J.A. 531. To the extent the examiners or the Patent and
Trademark Office understood that a means-plus-function
term cannot be nested in a method claim, they were incorrect. Applicants are free to invoke § 112 ¶ 6 for a claim
term nested in a method claim. We have never held otherwise. See, e.g., Media Rights, 800 F.3d at 1374 (holding
“compliance mechanism” nested in a method claim was a
means-plus function term); On Demand Machine Corp. v.
Ingram Indus., Inc., 442 F.3d 1331, 1340 (Fed. Cir. 2006)
(holding “providing means for a customer to visually review” nested in a method claim was a means-plus-function
term).

6a

Case: 20-1646

Document: 45

Page: 7

Filed: 03/02/2021

II
Having concluded “user identification module” is a
means-plus-function term, we must consider the term’s
construction, which occurs in two steps. The first step in
construing a means-plus function claim is to “identify the
claimed function.” Williamson, 792 F.3d at 1351. After
identifying the function, we then “determine what structure, if any, disclosed in the specification corresponds to the
claimed function.” Id. “Under this second step, structure
disclosed in the specification is corresponding structure
only if the specification or prosecution history clearly links
or associates that structure to the function recited in the
claim.” Sony Corp. v. Iancu, 924 F.3d 1235, 1239 (Fed. Cir.
2019) (citation omitted).
If the function is performed by a general-purpose computer or microprocessor, then the second step generally further requires that the specification disclose the algorithm
that the computer performs to accomplish that function.
Aristocrat Techs. Austl. Pty Ltd. v. Int’l Game Tech., 521
F.3d 1328, 1333 (Fed. Cir. 2008). However, “in the rare
circumstances where any general-purpose computer without any special programming can perform the function
. . . an algorithm need not be disclosed.” Ergo Licensing,
LLC v. CareFusion 303, Inc., 673 F.3d 1361, 1365 (Fed. Cir.
2012). For means-plus-function claims “in which the disclosed structure is a computer, or microprocessor, programmed to carry out an algorithm,” we have held that “the
disclosed structure is not the general purpose computer,
but rather the special purpose computer programmed to
perform the disclosed algorithm.” WMS Gaming, Inc. v.
Int’l Game Tech., 184 F.3d 1339, 1349 (Fed. Cir. 1999).
And finally, if the patentee fails to disclose adequate
corresponding structure, the claim is indefinite. Williamson, 792 F.3d at 1352. We review the district court’s indefiniteness determination de novo and any underlying

7a

Case: 20-1646

Document: 45

Page: 8

Filed: 03/02/2021

factual questions for clear error. Media Rights, 800 F.3d at
1371.
The parties do not dispute that the function of “user
identification module” is “to control access to one or more
software application packages to which the user has a subscription,” as determined by the district court. We agree.
Next, we must identify the structure in the specification that is clearly linked with this function, controlling access. The district court found that the structural examples
linked to the function of the “user identification module”
are all “computer-readable media or storage device[s].”
Rain Computing, 2020 WL 708125, at *5; see e.g., ’349 patent at 4:28–31 (“a SIM card, an IC card, a flash memory
drive, a memory card, a CD-ROM, and the like”). The district court erred, however, in concluding that the disclosure
of computer-readable media or storage devices provided
sufficient structure for the “control access” function. Id.
These computer-readable media or storage devices amount
to nothing more than a general-purpose computer. See,
e.g., HTC Corp. v. IPCom GmbH & Co., KG, 667 F.3d 1270,
1280 (Fed. Cir. 2012) (the disclosed “processor and transceiver amount[ed] to nothing more than a general-purpose
computer”). And “control[ling] access to one or more software application packages to which the user has a subscription” requires more “than merely plugging in a general
purpose computer.” Ergo Licensing, 673 F.3d at 1365. Rather, some special programming, i.e., an algorithm, would
be required to control access to the software application
packages. Rain even agrees that the “user identification
module” should include software algorithms. See, e.g., Appellant’s Resp. & Reply Br. at 22, (“the module would . . .
be configured to . . . respond to requests for information
(using common software algorithms)”), id. at 27 n.17 (“the
user identification module should include software implementations”). And the inventor agreed that “there are certain algorithms out there” such as “open source software
that can implement” the user identification module. J.A.

8a

Case: 20-1646

Document: 45

Page: 9

Filed: 03/02/2021

297–99. Under these circumstances, where a general purposes computer is the corresponding structure and it is not
capable of performing the controlling access function absent specialized software, an algorithm is required.
Nothing in the claim language or the written description provides an algorithm to achieve the “control access”
function of the “user identification module.” When asked
at oral argument to identify an algorithm in the written
description, Rain could not do so. Oral argument at 32:54–
34:40,
available
at
http://oralarguments.cafc.uscourts.gov/default.aspx?fl=201646_02022021.mp3. Without an algorithm to achieve the
“control access” function, we hold the term “user identification module” lacks sufficient structure and renders the
claims indefinite. 1 As this term appears in all of the claims
relating to Rain’s appeal, our decision moots the noninfringement appeal.
CONCLUSION
Because we hold “user identification module” renders
the asserted claims indefinite, we reverse the district
court’s judgment that the asserted claims of the ’349 patent
are not invalid as indefinite and dismiss Rain’s appeal as
moot.
REVERSED-IN-PART, DISMISSED-IN-PART
COSTS
No costs.

We recently held, in a separate proceeding involving a different patent, that the failure to provide an algorithm for the recited function of a “user identification
module” rendered the challenged claims indefinite. See
Synchronoss Techs., Inc. v. Dropbox, Inc., Nos. 2019-2196,
2019-2199, slip op. at 15 (Fed. Cir. Feb. 12, 2021).
1

9a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 1 of 29

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CIVIL ACTION NO. 18-12639-RGS
RAIN COMPUTING, INC.
v.
SAMSUNG ELECTRONICS CO., LTD.; SAMSUNG ELECTRONICS
AMERICA, INC.; and SAMSUNG RESEARCH AMERICA, INC.
MEMORANDUM AND ORDER ON
CLAIM CONSTRUCTION
February 12, 2020
STEARNS, D.J.
In this intellectual property dispute, plaintiff Rain Computing, Inc.
(Rain) accuses defendants Samsung Electronics Co., Ltd.; Samsung
Electronics America, Inc.; and Samsung Research America, Inc. (collectively
Samsung) of infringing U.S. Patent No. 9,805,349 (the ’349 patent). Before
the court are the parties’ briefs construing the disputed claim terms of the
asserted patent. The court heard argument, pursuant to Markman v.
Westview Instruments, Inc., 517 U.S. 370 (1996), on January 30, 2020.
BACKGROUND
The ’349 patent is titled “Method and System for Delivering
Application Packages Based on User Demands,” and lists Hsuan-Yeh

10a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 2 of 29

Chang as the sole inventor. 1 The ’349 patent was issued on October 31,
2017, from an application dated April 18, 2013, itself a continuation of an
abandoned application filed on November 22, 2007.
The invention of the ’349 patent is directed to “delivering application
packages based on user demands.” ’349 patent, col. 1, ll. 15-16.
Normally, the purchase of an application package means the
purchase of a license which allows a user to use that application
package on a single machine with an unlimited time period.
However, the purchase of such a license may be very costly.
Accordingly, many other types of licenses have been developed
recently.
Among the recently developed licenses, an on-demand license
has attracted much attention. The on-demand license allows the
user to pay a fee only when the licensed application package is
subscribed and/or used. The user will not need to pay anything
if the application package is unsubscribed and/or not in use.
Currently, the on-demand license type is applicable mostly to
web applications. However, running a web application, i.e.,
under a web browser, may be several times slower than running
the application directly under an OS. Accordingly, there is a need
to develop a method and a system that can more efficiently
deliver application packages based on user demands.
Id. col. 1, ll. 36-55.
To effectuate its stated goal, the ’349 patent envisions a service
provider including a server that is connected to a wide area network or a
local area network. See id. Figs. 1 and 2. Installed on the server, among

1

Chang, a member of plaintiff’s law firm, also prosecuted the patent.

11a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 3 of 29

other features, are a number of application packages, such as OpenOffice
or Office 2007. See id. col. 2, ll. 53-57. Using a client terminal, a “user
may [] visit a web store of the service provider, and subscribe the services
of the service provider through the web store.” Id. col. 4, ll. 24-26. The
service provider then “issue[s] a user identification device, such as a SIM
card, an IC card, a flash memory drive, a memory card, a CD-ROM, and the
like, which may record subscription information of the user.” Id. col. 4, ll.2831.
Figure 3 is illustrative of the patented application delivery method.

12a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 4 of 29

After powering up the client terminal (S300), associating with a
network (S310), and finding and establishing a connection with the server
(S320), the “server 100 may need to authenticate the user” before the client
terminal initiates a booting process. Id. col. 5, ll. 2-4. In the booting process,
the client terminal “transfer[s] from server 100 the operating system
subscribed by the user.” Id. col. 4, l. 66 – col. 5, l. 2. “In Step [S]330, after
performing the network booting process, client terminal 200 may request
server 100 to send a list of application packages installed in AP server 120.
Server 100 may then provide the list of application packages to client
terminal 200.” Id. col. 5, ll. 36-40. The user is licensed to use one or more
of the applications on the list based on the subscription information recorded
on the user identification device.

“Because the subscribed application

packages are installed in server 100, client terminal 200 does not require the
application packages be installed in mass storage device 260 of client
terminal 200.” Id. col. 5, ll. 44-47.
In Step S340, in order to execute or run a subscribed application
package on client terminal 200, the user may select the
subscribed application package from the list of application
packages, and send a request for the selected application package
to server 100. In one embodiment, server 100 may need to verify
the user’s subscription of the selected application package before
activating the selected application package. Once the user’s
subscription is verified, client terminal 200 then begin
transferring the selected application package and execute the
selected application package on client terminal 200, using

13a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 5 of 29

resources of the operating system resident in RAM [(random
access memory)] 220 of client terminal 200.
Id. col. 5, ll. 51-63. In Steps 350 and 360, the user may “terminate the
execution of the selected application package,” id. col. 6, l. 10, or “change his
subscription of services,” id. col. 6, l. 17-18. Finally, in step 370, “the service
provider may charge the user a fee for the services that are subscribed.” Id.
col. 6, ll. 51-52.
The ’349 patent sets out 27 method claims, including independent
claims 1, 5, and 8. Claim 1 is representative.
1. A method for providing software applications through a
computer network based on user demands, the method
comprising:
accepting, through a web store, a subscription of one or more
software application packages from a user;
sending, to the user, a user identification module configured
to control access of said one or more software application
packages, and coupling the user identification module to
a client terminal device of the user;
a server device authenticating the user by requesting
subscription information of the user from the user
identification module through the computer network;
upon authentication of the user, the server device providing,
to the client terminal device of the user, a listing of one or
more software application packages subscribed through
the web store in accordance with the subscription
information;

14a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 6 of 29

the server device receiving, from the client terminal device
and through the computer network, a selection of a first
software application package from said listing of one or
more software application packages;
the server device transmitting the first software application
package to the client terminal device through the
computer network; and
executing the first software application package by a
processor of the client terminal device using resources of
an operating system resident in a memory of the client
terminal device.
The parties dispute the construction of the following terms, listed here
in the order they are presented in the Joint Claim Construction Statement.
• “a user identification module configured to control access of said one
or more software application packages” (all independent claims)
• “executing the [first/second] software application package by a
processor of the client terminal device using resources of an operating
system resident in a memory of the client terminal device” (“first
software application”: all independent claims; “second software
application”: dependent claims 3, 19, 24)
• “sending, to the user, a user identification module” (all independent
claims)
• “a subscription of one or more software application packages” (all
independent claims) and “a subscription of a storage unit”
(independent claim 5)
• “web store” (all independent claims)
• “providing software applications through a computer network based
on user demands” (preamble of all independent claims except claim 5)
and “providing software applications over a through a computer
network based on user demands” (preamble of independent claim 5)

15a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 7 of 29

• “update request” (dependent claims 2, 3, 18, 19, 23, 24)
DISCUSSION
Claim construction is an issue of law. See Markman, 517 U.S. at 388389. Claim terms are generally given the ordinary and customary meaning
that would be ascribed by a person of ordinary skill in the art in question at
the time of the invention. 2 See Phillips v. AWH Corp., 415 F.3d 1303, 13121313 (Fed. Cir. 2005) (en banc). In ascertaining how a person of ordinary
skill in the art would have understood the claim terms, the court looks to the
specification of the patent, its prosecution history, and, where appropriate,
extrinsic evidence such as dictionaries, treatises, or expert testimony. Id. at
1315-1317.

Ultimately, “[t]he construction that stays true to the claim

language and most naturally aligns with the patent’s description of the
invention will be, in the end, the correct construction.” Id. at 1316 (citation
omitted).

According to Rain, “[a] person of ordinary skill in the art [] would
possess a bachelor’s degree in computer science or computer engineering, or
an equivalent degree, or possess equivalent academic and/or industry
experience.” Rain Br. (dkt # 33) at 3. Samsung’s expert opines that such a
person would have, additionally, “two years of experience working in
distributed computing systems” or a graduate education equivalent.
Chatterjee Decl. (dkt # 31-1) ¶ 34.
2

16a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 8 of 29

• a user identification module configured to control access of said one
or more software application packages
At the threshold, the parties dispute whether this term is subject to
means-plus-function analysis. Rain denies that it is, and maintains that to
the extent a construction is necessary, the subphrase “a user identification
module” refers to “a logical unit capable of recording subscription
information and that identifies a user.” For its part, Samsung contends that
the term itself does not denote structure, and that because the specification
fails to disclose a corresponding algorithm, the term is indefinite. In the
alternative, Samsung argues that the function of the term is “to control access
to one or more server-based software application packages to which the user
has a subscription,” and that the corresponding structure is “a hardware
device.”
Under 35 U.S.C. § 112, para. 6,
[a]n element in a claim for a combination may be expressed as a
means or step for performing a specified function without the
recital of structure, material, or acts in support thereof, and such
claim shall be construed to cover the corresponding structure,
material, or acts described in the specification and equivalents
thereof.
Section 112 permits purely functional claiming on the condition that the
scope of such claim language is “restrict[ed] . . . to the structure disclosed
in the specification and equivalents thereof.” Greenberg v. Ethicon Endo-

17a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 9 of 29

Surgery, Inc., 91 F.3d 1580, 1582 (Fed. Cir. 1996). In identifying meansplus-function terms, the absence of the signal phrase “means,” as is the case
here, creates a rebuttable presumption that Section 112, para. 6 does not
apply. Advanced Ground Info. Sys., Inc. v. Life360, Inc., 830 F.3d 1341,
1347 (Fed. Cir. 2016), citing Williamson v. Citrix Online, LLC, 792 F.3d
1339, 1348 (Fed. Cir. 2015).
The standard is whether the words of the claim are understood
by persons of ordinary skill in the art to have a sufficiently
definite meaning as the name for structure. Greenberg [v.
Ethicon Endo-Surgery, Inc.], 91 F.3d [1580,] 1583 [(Fed. Cir.
1996)]. When a claim term lacks the word “means,” the
presumption can be overcome and § 112, para. 6 will apply if the
challenger demonstrates that the claim term fails to “recite
sufficiently definite structure” or else recites “function without
reciting sufficient structure for performing that function.” Watts
[v. SL Systems, Inc.], 232 F.3d [877,] 880 [(Fed. Cir. 2000)].
Williamson, 792 F.3d at 1349 (Fed. Cir. 2015). 3
The term “module” is not terra incognita. “‘Module’ is a well-known
nonce word that can operate as a substitute for ‘means’ in the context of §
112, para. 6.” Id. at 1350. In Williamson, the Court held that a claimed
“distributed learning control module” did not recite sufficient structure
because “the word ‘module’ . . . sets forth the same black box recitation of

In Williamson, the Federal Circuit overruled a line of cases
characterizing as “strong” the presumption that a limitation without the
phrase “means” does not fall under Section 112. Id.
3

18a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 10 of 29

structure for providing the same specified function as if the term ‘means’ had
been used.” Id. at 1350. The “distributed learning control” prefix also did
not contribute discernible structure to the term – “[a]lthough the
‘distributed learning control module’ is described in a certain level of detail
in the written description, the written description fails to impart any
structural significance to the term.” Id. at 1351; see also Grecia v. Samsung
Elecs. Am., Inc., 780 F. App’x 912, 914-916 (Fed. Cir. 2019) (“customization
module” subject to Section 112, para. 6); Synchronoss Techs., Inc. v.
Dropbox Inc., 2017 WL 6059302, at *6-*8 (N.D. Cal. Dec. 7, 2017) (“user
identifier module” subject to Section 112, para. 6).
Here too, “module” is a doppelganger for “means.” In Rain’s own
words, “[m]odule has a plain meaning of a component unit that serves a
function, in the context of digital electronics, a logical function, thus a logical
unit.”

Rain Br. (dkt # 33) at 6 (emphasis added).

Rain’s expansive

suggestion that a “module” in the context of the ’349 patent may be “(1)
software, (2) hardware, and (3) either/both,” Rain Br. at 6 n.3, confirms that
the word “sets forth [a] black box recitation of structure.” Like the prefix in
Williamson, the modifier “user identification” supplies no additional
structure. The term “user identification module” does not designate any
structure – indeed, the term does not appear at all in the specification. As

19a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 11 of 29

reflected in Rain’s proposed construction, the “user identification” prefix
simply states the objective of the “module,” namely, to “identif[y] a user.”4
Having determined that the phrase “user identification module”
triggers Section 112, para. 6, following Williamson, the proper claim
limitation is “a user identification module configured to control access of said
one or more software application packages.” See Williamson, 792 F.3d at
1350 (“This passage, as lengthy as it is, is nonetheless in a format consistent
with traditional means-plus-function claim limitations.”). Construction of
means-plus-function claim terms proceeds in two steps. “First, we must
identify the claimed function, staying true to the claim language and the
limitations expressly recited by the claims. Once the functions performed by
the claimed means are identified, we must then ascertain the corresponding
structures in the written description that perform those functions.” Omega

Contrary to Rain’s suggestion, that “a user identification module”
appears in a method rather than in an apparatus claim does not alter the
conclusion that it is a means-plus-function term. See, e.g., Media Rights
Techs., Inc. v. Capital One Fin. Corp., 800 F.3d 1366, 1372-1374 (Fed. Cir.
2015) (holding that the phrase “compliance mechanism” – recited in the
method step of “activating a compliance mechanism in response to receiving
media content by a client system, said compliance mechanism coupled to
said client system, said client system having a media content presentation
application operable thereon and coupled to said compliance mechanism” –
is a means-plus-function limitation).
4

20a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 12 of 29

Eng’g, Inc. v. Raytek Corp., 334 F.3d 1314, 1321 (Fed. Cir. 2003) (citations
omitted).
The function of the “user identification module” is self-evident in the
claim language – “to control access of said one or more software application
packages.”

“Said one or more software application packages” finds its

antecedent in the prior step in the method – “accepting, through a web store,
a subscription of one or more software application packages from a user.”
Thus, the function of a “user identification module” is “to control access to
one or more software application packages to which the user has a
subscription.”5
According to the claimed methods, access to the application package(s)
is controlled by requesting a user’s subscription information from the “user
identification module.”

See ’349 patent, Claim 1 (“a server device

authenticating the user by requesting subscription information of the user
from the user identification module through the computer network,”); Claim

Samsung proposes to qualify the “software application packages” as
“server-based.” That a server transmits a software application package to a
user’s client terminal is a requirement of another claim limitation, see ’349
patent claim 1 (“the server device transmitting the first software application
package to the client terminal device through the computer network”), but is
not inherent in this limitation.
5

21a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 13 of 29

5 (same); and Claim 8 (same). The only source of subscription information
disclosed in the specification is a “user identification device.”
After the user subscribes the services, the service provider may
then issue a user identification device, such as a SIM card, an IC
card, a flash memory drive, a memory card, a CD-ROM, and the
like, which may record subscription information of the user. The
user identification device may be connected with client terminal
200 via EP 250. . . . In one embodiment, the user identification
device may be integrated with ROM 230 of client terminal 200.
For example, the subscription information may be recorded in
ROM 230 of client terminal 200, if client terminal 200 is
provided to the user by the service provider.
Id. col. 4, ll. 27-40. In the detailed description, the user and the user’s
license(s) are authenticated by requesting and verifying subscription
information from the “user identification device” (via the client terminal).
See id. col. 5, ll. 4-6 (“server 100 may authenticate the user by requesting, for
example, the subscription information from client terminal 200”); id. col. 5,
ll. 40-44 (“According to the subscription information recorded in the user
identification device, the user is licensed to use one or more application
packages in the list. For those application packages not subscribed by the
user, the user is not licensed to use them.”). The patent discloses no other
mechanism – in the form of software or an algorithm – that performs the
access control function.
Because the sole access control mechanism is the request and retrieval
of a user’s subscription information from a “user identification device,” the

22a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 14 of 29

court agrees with Samsung that the structure of the claimed “user
identification module” is a hardware device. However, the structure is not
an undifferentiated “hardware device” as suggested by Samsung.

As

Samsung’s own expert notes, consistent with the disclosure that “a user
identification device . . . record subscription information of the user,” id. col.
4, ll. 30-31, the exemplars cited in the patent are all “computer-readable
media or storage device.” Chatterjee Decl. ¶ 67. Accordingly, the structure
of the “user identification module” is “a hardware device capable of recording
a user’s subscription information.”6

Samsung contends that because the patent does not explain how a
“user identification module” is “configured to control access,” the claim term
is invalid for indefiniteness. “[A] patent is invalid for indefiniteness if its
claims, read in light of the specification delineating the patent, and the
prosecution history, fail to inform, with reasonable certainty, those skilled in
the art about the scope of the invention.” Nautilus, Inc. v. Biosig
Instruments, Inc., 572 U.S. 898, 901 (2014). Like other invalidity defenses,
indefiniteness must be proven by clear and convincing evidence. Biosig
Instruments, Inc. v. Nautilus, Inc., 783 F.3d 1374, 1377 (Fed. Cir. 2015).
Here, the structure of “a user identification module” is not a general
computer performing a specialized function requiring a disclosure of the
function’s algorithm. Cf. Aristocrat Techs. Australia Pty Ltd. v. Int’l Game
Tech., 521 F.3d 1328, 1333 (Fed. Cir. 2008). Recording and retrieving a
user’s subscription information is precisely the intended and ordinary
function of “a hardware device capable of recording a user’s subscription
information.”
6

23a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 15 of 29

• executing the [first/second] software application package by a
processor of the client terminal device using resources of an operating
system resident in the memory of the client device
For this term, Samsung proposes the construction of “executing, with
local processing and operating system resources, the [first/second] software
application package without installing it on the client terminal device.” Rain
objects to the “without installing it on the client terminal device” aspect of
Samsung’s proposal, and otherwise contends that that term should be given
its plain and ordinary meaning.
While the claim language makes no reference to installation, the court
agrees with Samsung that the “executing” step proceeds without installing
the software application on the user’s client terminal. 7
Although the construction of a claimed term is usually controlled
by its ordinary meaning, we will adopt an alternative meaning “if
the intrinsic evidence shows that the patentee distinguished that
term from prior art on the basis of a particular embodiment,
expressly disclaimed subject matter, or described a particular
embodiment as important to the invention.

Installation of software, in the words of Rain’s counsel at the
Markman hearing, refers to the software application residing “in what is
called ‘non-volatile memory,’ something [that] is a little bit more long term
than random access memory.” This is consistent with the patent’s use of the
term. See ’349 patent, col. 5, ll. 44-60 (equating non-installation on the
user’s client terminal with not using any capacity of the client terminal’s
mass storage device).
7

24a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 16 of 29

Edwards Lifesciences LLC v. Cook Inc., 582 F.3d 1322, 1329 (Fed. Cir.
2009), quoting CCS Fitness, Inc. v. Brunswick Corp., 288 F.3d 1359, 13661367 (Fed. Cir. 2002). We carefully survey the intrinsic evidence. First, the
’349 patent sets out to improve upon the traditional method of software
delivery, where “the user . . . purchase[s] a special application package . . .
and install[s] the purchased special application in the [user’s] data processor
before use.” ’349 patent, col. 1, ll. 32-35. Part and parcel of the traditional
method is “the purchase of a license which allows a user to use that
application package on a single machine with an unlimited time period.
However, the purchase of such a license may be very costly.” Id. col. 1, ll. 3840.
The solution offered by the patent is a species of an on-demand license,
where “the user [pays] a fee only when the licensed application package is
subscribed and/or used. The user will not need to pay anything if the
application package is unsubscribed and/or not in use.” Id. col. 1, ll. 45-48.
In contrast to the traditional method, the patent emphasizes that its claimed
invention operates by installing the software applications on the server. See
id. Abstract and Summary (“executing in the client terminal a subscribed
application package installed in the server using resources of the operating
system resident in the client terminal.”) (emphasis added); Summary (“the

25a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 17 of 29

application packages being installed in the server”); col. 3, ll. 57-60 (“The
service provider provides licenses for a client terminal 200 to use the
operating systems installed in OS server 110 and the application packages
installed in AP server 120.”).
The user indicates a demand for a particular software package through
a subscription.

See id. col. 6, ll. 39-43 (“When the user demands an

application package, the user may simply subscribe it from the service
provider. On the other hand, when the user no longer demands a certain
application package, the user may simply unsubscribe it.”).

To use a

subscribed software application, “the user may select the subscribed
application package from the list of application packages, and send a request
for the selected application package to server 100.” Id. col. 5, ll. 52-55. “Once
the user’s subscription is verified, client terminal 200 then begin[s]
transferring the selected application package and execute[s] the selected
application package on client terminal 200, using resources of the operating
system resident in RAM 220 of client terminal 200.” Id. col. 5, ll. 58-63.
“[W]hen the user is to terminate the execution of the selected application
package, client terminal 200 may inform server 100 that the selected
application package is to be terminated. Client terminal 200 may then

26a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 18 of 29

release the running application package from RAM 220 of client terminal
200.” Id. col. 6, ll. 10-13.
As is clear from the above description, a software application is
transferred from a server to a user terminal’s RAM for execution, and
released from the client terminal’s RAM upon the termination of execution.
Nowhere in the specification does the patent indicate that a software package
may be installed on any non-volatile memory of the user’s client terminal for
execution.8 Indeed, a persistent installation is contrary to the invention’s

Rain asserts that the patent discloses the installation of the software
application on the user’s client terminal because the specification describes
saving dynamic data to non-volatile memory for hibernation.
8

If the user wants to power off client terminal 200 to save energy,
but does not want to spend time on the network booting process
when powering on client terminal 200 again, dynamic data in
RAM 220 of client terminal 200 may be transferred to the nonvolatile memory when powering off, so as to allow client terminal
200 to enter a hibernation mode.
’349 patent, col. 5, ll. 18-27; see also, e.g., claim 12 (“prior to powering off the
client terminal device, hibernating the client terminal device by transferring
dynamic data in the memory of the client terminal device to a non-volatile
memory of the client terminal device”). Hibernation mode, as limned in the
specification, is an off state where the user’s client terminal powers down
(and does not execute any software). When the user powers on again to
resume execution of the program, the data must then be reloaded into the
RAM. See id. col. 5, ll. 24-27 (“When the user powers on client terminal 200
again, the dynamic data stored in the non-volatile memory module may be
loaded back to RAM 220.”). Accordingly, the patent does not disclose that a
software application may be installed in non-volatile memory during
execution.

27a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 19 of 29

stated objective and the patent’s title, i.e., “Delivering Application Packages
Based on User Demand.” (emphasis added). The patent touts the benefits of
non-installation on the user’s client terminal.
Because the subscribed application packages are installed in
server 100, client terminal 200 does not require the application
packages be installed in mass storage device 260 of client
terminal 200. Accordingly, if client terminal 200 includes mass
storage device 260, the user may use the entire capacity of mass
storage device 260 to store user data.
Id. col. 5, ll. 44-50. Likewise, during prosecution, the patentee distinguished
prior art (Kirkland) on the basis that the software applications of the ondemand media streaming system were resident on the client device, and were
not “streamed” from the server. See, e.g., Jun. 18, 2014 Amendment and
Response to Office Action, dkt # 33-4 at RAIN-000180 (arguing that
modifying Kirkland to include software applications in the media library
“would render Kirkland’s system unsatisfactory for its intended purpose, at
least because Kirkland’s software applications . . . are all resident on the
client device 410, not in media library 435, and Kirkland does not intend to
stream software applications and does not disclose that any software
applications could be streamed from Kirkland’s media server device (or
media library 435) to Kirkland’s receiving device (or client device 410).”)
(emphasis in original).

28a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 20 of 29

In light of the compelling weight of the intrinsic evidence, the court is
persuaded to adopt Samsung’s proposed construction of “executing, with
local processing and operating system resources, the [first/second] software
application package without installing it on the client terminal device.”
• sending, to the user, a user identification module
Samsung asserts that the “sending” step necessarily occurs after the
preceding “accepting, through a web store, a subscription of one or more
software application packages from a user” step, while Rain argues that the
steps may occur in either sequence. “Unless the steps of a method actually
recite an order, the steps are not ordinarily construed to require one.
However, such a result can ensue when the method steps implicitly require
that they be performed in the order written.” Altiris, Inc. v. Symantec Corp.,
318 F.3d 1363, 1369 (Fed. Cir. 2003), quoting Interactive Gift Express, Inc.
v. Compuserve Inc., 256 F.3d 1323, 1342-1343 (Fed. Cir. 2001).

To

determine whether steps of a method must be executed in the order in which
they are written, “[f]irst, we look to the claim language to determine if, as a
matter of logic or grammar, they must be performed in the order written.”
Id. “If not, we next look to the rest of the specification to determine
whether it directly or implicitly requires such a narrow construction. If not,

29a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 21 of 29

the sequence in which such steps are written is not a requirement.” Id. at
1370 (emphasis in original).
The court agrees with Samsung that the claim language requires that
the “accepting step” occur prior to the “sending step.” In the “accepting”
step, a user subscribes to “one of more software packages.” The “sending”
step provides the user with “a user identification module configured to
control access of said one or more software application packages.”
(emphasis added). “Subsequent use of the definite articles ‘the’ or ‘said’ in a
claim refers back to the same term recited earlier in the claim.” Wi-Lan, Inc.
v. Apple, Inc., 811 F.3d 455, 462 (Fed. Cir. 2016). In Wi-Lan, the Federal
Circuit held that a step that “combine[s] the modulated data symbols” must
occur subsequent to a step that “produce[s] modulated data symbols
corresponding to an invertible randomized spreading” because “[t]he term
‘the modulated data symbols’ refers back to the randomized data symbols
produced by the computing means in the second claim element.”

Id

(emphasis in original). So it is here. The object of the access control function
– “said one or more software application packages” – refers back to the “one

30a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 22 of 29

or more software packages” that the user has subscribed in the “accepting”
step.9
• a subscription of one or more software application packages & a
subscription of a storage unit remote from a client terminal device of
the user
In Samsung’s view, a “subscription” is an “on-demand license . . . for a
predetermined and finite period of time;” “a subscription of one or more
software application packages” is “an on-demand license to one or more
server-based software application packages for a predetermined and finite
period of time;” and “a subscription of a storage unit remote from a client
terminal device of the user” is “an on-demand license to use a remote storage
unit for a predetermined and finite period of time.” Rain, for its part,
disputes Samsung’s constructions and proposes that the terms be given their
plain and ordinary meaning.

Rain contends that because the specification contemplates that “the
user may already have a client terminal,” ’349 patent col. 4, l. 11, and “the
user identification device may be integrated with ROM 230 of client terminal
200,” id. col. 4, ll. 36-37, the user may be in possession of the user
identification device (as part of the client terminal) before subscribing any
application packages. Having determined that the claim language was
determinative of the order of the “accepting” and “sending” steps, it is
unnecessary to proceed to the second step of the Altiris test. See 318 F.3d at
1370 (“If not, we next look to the rest of the specification to determine
whether it directly or implicitly requires such a narrow construction.”)
(emphasis added).
9

31a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 23 of 29

Although a subscription is a condition-precedent to a user having a
license to use a software package application, see ’349 patent, col., 5, ll. 4344 (“For those application packages not subscribed by the user, the user is
not licensed to use them.”), the court agrees with Rain that a subscription is
not itself equivalent to a license. The asserted claims recite a step for
“accepting, through a web store, a subscription of one or more software
application packages from a user.” Replacing the “a subscription” with “a
license” results in a nonsensical reading of this step – in the ’349 patent, the
user is a recipient, and not a source, of a license to use a subscribed software
application package. 10
Nothing in the patent suggests that the word “subscription” is used in
any other than its usual sense of a revocable agreement to receive or to
participate in something (often in exchange for a payment). As reflected by
the title of the patent and the preamble of the claims, the object of the patent
is to provide software application packages “based on user demand.” A
subscription is the vehicle for a user’s demand – “[w]hen the user demands
an application package, the user may simply subscribe it from the service

Claim 5 includes the parallel limitation of “accepting, through the
web store, a subscription of a storage unit remote from a client terminal
device of the user,” which is susceptible to the same incongruence under the
“license” reading.
10

32a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 24 of 29

provider. On the other hand, when the user no longer demands a certain
application package, the user may simply unsubscribe it.” Id. col. 6, ll. 3943; cf. id. col. 1, ll. 36-40 (contrasting prior methods where a user paid a
potentially costly fee for an unlimited single-machine license “with an
unlimited time period”).

Nothing in the patent restricts the user to a

subscription of a predetermined or limited duration. Because the terms use
common words in their common sense, the court agrees with Rain that “a
subscription of one or more software application packages” and “a
subscription of a storage unit remote from a client terminal device of the
user” be given their plain and ordinary meaning.
• web store
While the parties agree that a “web store” is an e-commerce entity, they
disagree on its parameters. According to Rain, in the context of the ’349
patent, the plain meaning of “web store” is “an e-commerce location offering
software application packages for download and that is accessed via a
computer network.” Samsung proposes the construction of “an e-commerce
web site installed on the service provider’s server.”
The court agrees with Samsung that Rain’s requirements – that the
web store offer software application packages for download and be accessed
through a computer network – are redundant of other claim limitations. See,

33a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 25 of 29

e.g., ’349 patent claim 1 (“[a] method for providing software applications
through a computer network,” “accepting, through a web store, a
subscription of one of more software application packages from a user,” and
“the server transmitting the first software application package to the client
terminal device through the computer network”). The court also agrees with
Rain that nothing in the intrinsic record requires that a “web store” (as
opposed to software application packages) be “installed on the service
provider’s server.” What remains at the heart of the dispute is whether a
“web store” is an “e-commerce web site,” or more broadly, an “e-commerce
location.”
The specification’s discussion of a “web store” is barebones and does
not describe any attribute other than that it accepts a user’s subscription. See
id. col. 4, ll. 23-26 (“[I]f the user already ha[s] a client terminal, the user may
then visit a web store of the service provider, and subscribe the services of
the service provider through the web store.”).

The court agrees with

Samsung that the prosecution history reveals the definition of a “web store.”
In distinguishing a prior art reference (Cover), the patentee stated that
“Cover clearly discloses that streaming application manager 116 is a software
application installed in the client system 102. Cover does not disclose that
streaming application 116 could constitute a web store or an e-commerce

34a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 26 of 29

web site, as would be understood by one of ordinary skill in the art.” Feb. 14,
2014 Response to Office Action, dkt # 33-5 at RAIN-000289 (emphasis
added). As is clear from the context, the patentee equated “a web store” with
“an e-commerce web site.”11 Neither party has provided the court with
extrinsic evidence, such as a dictionary definition, of how a person of
ordinary skill in the art would have understood “web store” at the time of the
invention. Accordingly, the court construes a “web store” to be an “ecommerce web site.”
• providing software applications through a computer network based
on user demands12
The parties first dispute whether the preamble of the claims is limiting.
Preamble language that merely states the purpose or intended
use of an invention is generally not treated as limiting the scope
of the claim. However, [w]hen limitations in the body of the
claim rely upon and derive antecedent basis from the preamble,
then the preamble may act as a necessary component of the
claimed invention.

Rain argues that a “web store” cannot be confined to a “web site”
because the specification discloses that a server of the service provider may
be located in a local area network as well as in a wide area network. Being
familiar with intranet web sites, the court does not understand a web site to
be limited to a wide area network.
11

The parties agree that the preamble of claim 5 – “providing software
applications over a through a computer network based on user demands” –
should be construed identically.
12

35a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 27 of 29

Pacing Techs., LLC v. Garmin Int’l, Inc., 778 F.3d 1021, 1023-1024 (Fed. Cir.
2015) (internal quotation marks and citations omitted). Here, “a computer
network” in the preamble provides the antecedent to “the computer network”
in the limitation reciting “a server device authenticating the user by
requesting subscription information of the user from the user identification
module through the computer network” limitation.
Further, a preamble is limiting if “it states a necessary and defining
aspect of the invention.” Computer Docking Station Corp. v. Dell, Inc., 519
F.3d 1366, 1375 (Fed. Cir. 2008). To overcome the examiner’s section 101
rejection during prosecution, the patentee relied on the recitation of a
“computer network” in the preamble as evidencing that the invention utilizes
a particular machine.
For example, claim 20 recites a “computer network” in both the
preamble and the body of the claim. One of ordinary skill in the
art would readily understand that the claimed “computer
network” includes one or more electrical and/or optical devices
(e.g., electrical and/or optical cable for wired computer network
or antenna for wireless computer network, switches, etc.) that
performs telecommunication (e.g., the receiving and
transmitting steps) with the claimed client terminal device, so as
to achieve the claimed on-demand provision of software
applications. Without tying to a “computer network,” no
software applications can possibly be provided to a client
terminal device as required by claim 20. Accordingly, the
method claims of this application involve and integrally use at
least a particular machine, namely a computer network, so as to
achieve performance of the claimed methods.

36a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 28 of 29

June 19, 2014 Amendment and Response to Office Action, dkt # 33-4 at
RAIN-000172.

In response, the examiner withdrew the section 101

objection. June 30, 2014 Advisory Action, dkt # 33-3 at RAIN-000154.
Accordingly, the court agrees with Samsung that the preamble is limiting.
The parties next dispute the appropriate scope of the preamble.
Samsung’s construction is “providing on-demand use of server-based
software applications through a computer network,” while Rain relies on the
plain and ordinary meaning. The court agrees with Rain that Samsung’s
proposed definition confuses rather than clarifies.

First, the claimed

methods are concerned with providing software applications based on a
user’s subscription, not the “on demand use” of the application. Second,
characterizing the software applications as “server-based” muddies the water
– although the software applications are installed on the server, as claimed,
they are “transmitt[ed] . . . to the client terminal device through the
computer network” for execution. Because the preamble uses common
terms in their usual sense, the court agrees with Rain that it should be
accorded the plain and ordinary meaning.
• update request
Samsung proposes to construe an “update request” as “a request to
change the user’s subscription,” while Rain relies again on the plain and

37a

Case 1:18-cv-12639-RGS Document 43 Filed 02/12/20 Page 29 of 29

ordinary meaning. The court agrees with Rain that it is redundant to define
“update request” in terms of a user’s subscription, as this is clear from the
context of the claim element. See, e.g., ’349 patent claim 2 (“the server device
receiving an update request from the client terminal device and updating
said subscription of one or more software application packages in response
the update request by removing the first software application package from
said listing of one or more software application packages”). Because the term
uses common words in their usual sense, the court agrees with Rain that it
should be accorded the plain and ordinary meaning.
ORDER
The disputed claim terms will be construed for the jury and for all
other purposes in the pending litigation in a manner consistent with the
above rulings of the court.
SO ORDERED.
/s/ Richard G. Stearns
UNITED STATES DISTRICT JUDGE

38a

Case 1:18-cv-12639-RGS Document 48 Filed 03/12/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
EASTERN DIVISION
RAIN COMPUTING, INC.,
Plaintiff,
V.

SAMSUNG ELECTRONICS CO., LTD.;
SAMSUNG ELECTRONICS AMERICA,
INC.; AND SAMSUNG RESEARCH
AMERICA, INC.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)

39a

Case No. l:18-cv-12639-RGS

ORDER
APPROVING JOINT
STIPULATION OF DISMISSAL
AND FOR ENTRY OF FINAL
JUDGMENT

Case 1:18-cv-12639-RGS Document 48 Filed 03/12/20 Page 2 of 2

Based upon the parties' Joint Stipulation for Entry of Final Judgment and Order, IT IS
HEREBY ORDERED AND ADJUDGED:
1.

That this Final Judgment of Non-Infringement of U.S. Patent No. 9,805,349 is

entered against Plaintiﬀ Rain Computing, Inc. ("Rain") and for Defendants Samsung Electronics
Co., Ltd., Samsung Electronics America, Inc. and Samsung Research America, Inc. (collectively,
"Samsung") on Rain's claims for patent infringement;
2.

That this Final Judgment that asserted claims of the '349 patent are not invalid for

indeﬁniteness relating to the term "a user identiﬁcation module conﬁgured to control access of
said one or more software application packages" is entered against Samsung and for Rain;
3.

That all other claims, counterclaims, defenses, or other matters which have been

asserted-and have not been previously dismissed-are dismissed without prejudice with the
speciﬁc reservation of rights to later raise all such other claims, counterclaims, defenses, or other
matters in the event this action is once again before this Court; and
4.

That determinations of costs and fees in accordance with Fed. R. Civ. P. 54(d)

concerning the non-infringement judgment that is the subject of the parties' stipulation shall be
delayed until 21 days after the appellate court's issuance of the mandate regarding any appeal of
the Court's judgment, or if Rain later chooses to abandon the appeal, the deadlines shall be
delayed until 21 days after Rain provides notice that it is abandoning the appeal.

IT IS SO ORDERED.

Dated:

0-/� -�(J.

The Honora e Richard G. Stearns
United States District Court Judge

40a

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

APPEAL,PATENT

United States District Court
District of Massachusetts (Boston)
CIVIL DOCKET FOR CASE #: 1:18-cv-12639-RGS
Rain Computing, Inc. v. Samsung Electronics Co., Ltd. et al
Assigned to: Judge Richard G. Stearns
Case in other court: USCA for the Federal Circuit, 20-01646
USCA for the Federal Circuit, 20-01656
Cause: 28:1338 Patent Infringement

Date Filed: 12/26/2018
Date Terminated: 03/12/2020
Jury Demand: Both
Nature of Suit: 830 Patent
Jurisdiction: Federal Question

Plaintiff
Rain Computing, Inc.

represented by Peter C. Yi
Hsuanyeh Law Group, P.C.
11 Beacon Street
Suite 900
Boston, MA 02108
(202) 780-7668
Email: peter.yi@hsuanyeh.com
LEAD ATTORNEY
PRO HAC VICE
ATTORNEY TO BE NOTICED
Stephen Y. Chow
Hsuanyeh Law Group
11 Beacon Street
Boston, MA 02108
617-886-9088
Email: stephen.y.chow@hsuanyeh.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Douglas E. Chin
Hsuanyeh Law Group
11 Beacon Street
Suite 900
Boston, MA 02108
(617) 886-9088
Email: douglasechin@gmail.com
ATTORNEY TO BE NOTICED

V.

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

41a

Page 1 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

Defendant
Samsung Electronics Co., Ltd.

represented by Bethany Mihalik
Fish & Richardson P.C.
1000 Maine Avenue
SW
Suite 1000
Washington, DC 20024
Email: mihalik@fr.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael J. McKeon
Fish & Richardson P.C.
1000 Maine Avenue SW
Suite 1000
Washington, DC 20024
202-783-5070
Email: mckeon@fr.com
LEAD ATTORNEY
PRO HAC VICE
ATTORNEY TO BE NOTICED
Stephen A. Marshall
Fish & Richardson, P.C.
1000 Maine Ave SW
Suite 1000
Washington, DC 20024
202-626-6414
Email: smarshall@fr.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Alexander M. Pechette
Fish & Richardson, P.C. (Bos)
One Marina Park Drive
Boston, MA 02210-1878
617-542-5070
Email: pechette@fr.com
ATTORNEY TO BE NOTICED

Defendant
Samsung Electronics America, Inc.

represented by Bethany Mihalik
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael J. McKeon

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

42a

Page 2 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

(See above for address)
LEAD ATTORNEY
PRO HAC VICE
ATTORNEY TO BE NOTICED
Stephen A. Marshall
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Alexander M. Pechette
(See above for address)
ATTORNEY TO BE NOTICED
Defendant
Samsung Research America, Inc.

represented by Bethany Mihalik
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael J. McKeon
(See above for address)
LEAD ATTORNEY
PRO HAC VICE
ATTORNEY TO BE NOTICED
Stephen A. Marshall
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Alexander M. Pechette
(See above for address)
ATTORNEY TO BE NOTICED

Counter Claimant
Samsung Research America, Inc.

represented by Bethany Mihalik
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael J. McKeon
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Stephen A. Marshall

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

43a

Page 3 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Alexander M. Pechette
(See above for address)
ATTORNEY TO BE NOTICED
Counter Claimant
Samsung Electronics America, Inc.

represented by Bethany Mihalik
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael J. McKeon
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Stephen A. Marshall
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Alexander M. Pechette
(See above for address)
ATTORNEY TO BE NOTICED

Counter Claimant
Samsung Electronics Co., Ltd.

represented by Bethany Mihalik
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael J. McKeon
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Stephen A. Marshall
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Alexander M. Pechette
(See above for address)
ATTORNEY TO BE NOTICED

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

44a

Page 4 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

V.
Counter Defendant
Rain Computing, Inc.

represented by Peter C. Yi
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Stephen Y. Chow
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Douglas E. Chin
(See above for address)
ATTORNEY TO BE NOTICED

Date Filed

#

Docket Text

12/26/2018

1 COMPLAINT against Samsung Research America, Inc., Samsung Electronics
America, Inc., Samsung Electronics Co., Ltd. Filing fee: $ 400, receipt number 01017469770 (Fee Status: Filing Fee paid), filed by Rain Computing, Inc.. (Attachments: # 1
Exhibit 1, # 2 Civil Cover Sheet)(Chow, Stephen) (Entered: 12/26/2018)

12/26/2018

2 REPORT ON THE FILING OF AN ACTION REGARDING PATENT OR
TRADEMARK. (Chow, Stephen) (Entered: 12/26/2018)

12/26/2018

3 Civil Cover Sheet & Category Form re 1 Complaint, by Rain Computing, Inc..
(Attachments: # 1 Category Form)(Chow, Stephen) (Documents replaced on
12/27/2018 to correct fillable PDF formatting) (Kinsella, Devan). (Entered: 12/26/2018)

12/26/2018

4 CORPORATE DISCLOSURE STATEMENT by Rain Computing, Inc.. (Chow,
Stephen) (Entered: 12/26/2018)

12/27/2018

5 ELECTRONIC NOTICE of Case Assignment. Judge Richard G. Stearns assigned to
case. If the trial Judge issues an Order of Reference of any matter in this case to a
Magistrate Judge, the matter will be transmitted to Magistrate Judge Marianne B.
Bowler. (Finn, Mary) (Entered: 12/27/2018)

12/27/2018

6 Summons Issued as to Samsung Electronics America, Inc., Samsung Electronics Co.,
Ltd., Samsung Research America, Inc.. Counsel receiving this notice electronically
should download this summons, complete one for each defendant and serve it in
accordance with Fed.R.Civ.P. 4 and LR 4.1. Summons will be mailed to plaintiff(s)
not receiving notice electronically for completion of service. (Kinsella, Devan)
(Entered: 12/27/2018)

03/22/2019

7 NOTICE of Appearance by Douglas E. Chin on behalf of Rain Computing, Inc. (Chin,
Douglas) (Entered: 03/22/2019)

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

45a

Page 5 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

03/22/2019

8 SUMMONS Returned Executed Samsung Electronics America, Inc. served on
3/20/2019, answer due 4/10/2019. (Chin, Douglas) (Entered: 03/22/2019)

03/22/2019

9 SUMMONS Returned Executed Samsung Research America, Inc. served on 3/20/2019,
answer due 4/10/2019. (Chin, Douglas) (Entered: 03/22/2019)

03/26/2019

10 Status Letter/request (non-motion) from Stephen Chow re: Service of Process on Defts.
(Chin, Douglas) (Entered: 03/26/2019)

04/02/2019

11 Assented to MOTION for Extension of Time to May 20, 2019 to File Answer by Rain
Computing, Inc.. (Attachments: # 1 Exhibit 1: Declaration of Daniel Girdwood, # 2
Text of Proposed Order)(Chin, Douglas) (Entered: 04/02/2019)

04/02/2019

12 WAIVER OF SERVICE Returned Executed by Rain Computing, Inc.. Samsung
Electronics Co., Ltd. waiver sent on 3/20/2019, answer due 6/18/2019. (Chin, Douglas)
(Entered: 04/02/2019)

04/03/2019

13 Judge Richard G. Stearns: ELECTRONIC ORDER entered granting 11 Motion for
Extension of Time to Answer Samsung Electronics America, Inc. answer due
5/20/2019; Samsung Research America, Inc. answer due 5/20/2019. (Tang, Danni)
(Entered: 04/03/2019)

05/20/2019

14 MOTION TO DISMISS FOR FAILURE TO STATE A CLAIM by Samsung
Electronics America, Inc., Samsung Electronics Co., Ltd., Samsung Research America,
Inc.. (Attachments: # 1 Text of Proposed Order)(Marshall, Stephen) (Entered:
05/20/2019)

05/20/2019

15 MEMORANDUM in Support re 14 MOTION TO DISMISS FOR FAILURE TO
STATE A CLAIM filed by Samsung Electronics America, Inc., Samsung Electronics
Co., Ltd., Samsung Research America, Inc.. (Marshall, Stephen) (Entered: 05/20/2019)

05/20/2019

16 CORPORATE DISCLOSURE STATEMENT by Samsung Electronics America, Inc.,
Samsung Electronics Co., Ltd., Samsung Research America, Inc.. (Marshall, Stephen)
(Entered: 05/20/2019)

05/20/2019

17 MOTION for Leave to Appear Pro Hac Vice for admission of Michael McKeon Filing
fee: $ 100, receipt number 0101-7693330 by Samsung Electronics America, Inc.,
Samsung Electronics Co., Ltd., Samsung Research America, Inc.. (Attachments: # 1
Exhibit 1)(Marshall, Stephen) (Entered: 05/20/2019)

05/20/2019

18 NOTICE of Appearance by Alexander M. Pechette on behalf of Samsung Electronics
America, Inc., Samsung Electronics Co., Ltd., Samsung Research America, Inc.
(Pechette, Alexander) (Entered: 05/20/2019)

05/21/2019

19 Judge Richard G. Stearns: ELECTRONIC ORDER entered granting 17 Motion for
Leave to Appear Pro Hac Vice. Added Michael McKeon. Attorneys admitted Pro Hac
Vice must register for electronic filing if the attorney does not already have an
ECF account in this district. To register go to the Court website at
www.mad.uscourts.gov. Select Case Information, then Electronic Filing (CM/ECF)
and go to the CM/ECF Registration Form. (Pacho, Arnold) (Entered: 05/21/2019)

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

46a

Page 6 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

05/30/2019

20 MOTION for Leave to Appear Pro Hac Vice for admission of Peter Yi Filing fee: $
100, receipt number 0101-7708296 by Rain Computing, Inc.. (Attachments: # 1 Exhibit
Certification of P. Yi)(Chin, Douglas) (Entered: 05/30/2019)

05/30/2019

21 Judge Richard G. Stearns: ELECTRONIC ORDER entered granting 20 Motion for
Leave to Appear Pro Hac Vice. Added Peter C. Yi. Attorneys admitted Pro Hac Vice
must register for electronic filing if the attorney does not already have an ECF
account in this district. To register go to the Court website at
www.mad.uscourts.gov. Select Case Information, then Electronic Filing (CM/ECF)
and go to the CM/ECF Registration Form. (Pacho, Arnold) (Entered: 05/30/2019)

06/03/2019

22 Opposition re 14 MOTION TO DISMISS FOR FAILURE TO STATE A CLAIM filed
by Rain Computing, Inc.. (Chin, Douglas) (Entered: 06/03/2019)

06/04/2019

23 Judge Richard G. Stearns: ORDER entered denying 14 Motion to Dismiss for Failure to
State a Claim. The court agrees with Rain Computing that its patent infringement
complaint is sufficient to satisfy the Iqbal and Twombly "plausibility" standard. A patent
plaintiff "need not prove its case at the pleading stage. The complaint must place the
potential infringer... on notice of what activity... is being accused of infringement."
Nalco Co. v. Chem-Mod, LLC, 883 F.3d 1337, 1350 (Fed. Cir. 2018) (quotation marks
and citations omitted). According to the Complaint, the asserted patent is directed to
"methods and systems for delivering software packages to client terminals based on a
subscription service by which a user is charged for specific applications that the user is
subscribed to use." Compl. para 11. The Complaint alleges that Samsung infringes by
delivering software applications (such as the Smart Home App) to Samsung devices
(such as the Galaxy phones) via app stores (such as the Galaxy App Store), and
Samsung "controls access to the app stores by requiring the user to register, subscribe,
and/or agree to certain terms before that user can receive apps offered through the app
stores." Compl. para. 16. Contrary to Samsung's suggestion, "the Federal Rules of Civil
Procedure do not require a plaintiff to plead facts establishing that each element of an
asserted claim is met." Nalco, 883 F.3d at 1350 (citation omitted). Samsung's other
argument, that the asserted claims require a subscription to an application rather to an
app store, is an infringement position that is premature at this stage of the litigation.
Accordingly, Samsung to answer no later than 6/18/2019; Rain Computer to make its
initial disclosures consistent with L.R. 16.6(d)(1) no later than 7/9/2019; parties to
confer consistent with L.R. 16(d)(2) no later than 7/30/2019; Samsung to make its
initial disclosures consistent with L.R. 16.6(d)(4) no later than 8/20/2019; the parties to
exchange claim construction terms no later than 9/10/2019, and meet and confer re
same by 9/17/2019; opening claim construction briefs (of no more than 25 pages
without leave) due 10/8/2019; reply briefs (of no more than 15 pages without leave) due
10/29/2019; joint claim construction statement to the court (including a ranking of the
terms in the parties' estimation of importance to the case in decreasing order) due
11/12/2019; the court to set a Markman hearing at its conveniences, and the parties to
exchange tutorials at least 7 days prior to the hearing. The court will issue a further
scheduling upon the issuance of its claim construction rulings. The parties are reminded
that until such a time the parties seek and obtain a case-specific protective order, the
default protective order of L.R. 16.6 governs. (Entered: 06/04/2019)

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

47a

Page 7 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

06/18/2019

24 ANSWER to 1 Complaint, with Jury Demand , COUNTERCLAIM against Rain
Computing, Inc. by Samsung Research America, Inc., Samsung Electronics America,
Inc., Samsung Electronics Co., Ltd..(Marshall, Stephen) (Entered: 06/18/2019)

07/09/2019

25 ANSWER to Counterclaim by Rain Computing, Inc..(Chin, Douglas) (Entered:
07/09/2019)

08/13/2019

26 REPORT of Rule 26(f) Planning Meeting. (Attachments: # 1 LR 16.1(d)(3)
Certification by Rain Computing, # 2 LR 16.1(d)(3) Certification by Defendants)(Chin,
Douglas) (Entered: 08/13/2019)

08/27/2019

27 Joint MOTION for Protective Order by Samsung Electronics America, Inc., Samsung
Electronics Co., Ltd., Samsung Research America, Inc.. (Attachments: # 1 Text of
Proposed Order)(Marshall, Stephen) (Entered: 08/27/2019)

08/27/2019

28 Judge Richard G. Stearns: ORDER entered granting 27 Motion for Protective Order.
(Tang, Danni) (Entered: 08/27/2019)

10/07/2019

29 Assented to MOTION to Impound by Samsung Electronics America, Inc., Samsung
Electronics Co., Ltd., Samsung Research America, Inc..(Marshall, Stephen) (Entered:
10/07/2019)

10/08/2019

30 Judge Richard G. Stearns: ELECTRONIC ORDER entered reserving ruling on 29
Motion to impound claim construction brief and exhibits. In light of the 10/8/2019
deadline to file opening claim construction briefs, the court will permit Samsung to file,
for the time being, a redacted version of the claim construction brief on the public
docket. The court reserves judgment on the motion to impound pending review of the
proposed sealed materials, noting that claim construction typically involves only
documents of a public nature. (Tang, Danni) (Entered: 10/08/2019)

10/08/2019

31 Markman Brief by Samsung Electronics America, Inc., Samsung Electronics Co., Ltd.,
Samsung Research America, Inc.. (Attachments: # 1 Declaration of Chatterjee, # 2 CV
of Chatterjee)(Marshall, Stephen) (Main Document 31 replaced on 10/8/2019 with
further redaction from counsel) (Pacho, Arnold). (Additional attachment(s) added on
10/10/2019: # 3 Claim Construction Brief (Filed Under Seal)) (Pacho, Arnold).
Modified on 10/10/2019 to add sealed version, per court order dkt.34 (Pacho, Arnold).
Modified on 4/24/2020 to unseal documents per court order (dkt # 58). (Pacho,
Arnold). (Entered: 10/08/2019)

10/08/2019

32 DECLARATION re 31 Markman Brief Declaration of Stephen Marshall In Support of
Samsung's Opening Claim Construction Brief by Samsung Electronics America, Inc.,
Samsung Electronics Co., Ltd., Samsung Research America, Inc.. (Attachments: # 1
Exhibit 1, # 2 Exhibit 2, # 3 Exhibit 3, # 4 Exhibit 4, # 5 Exhibit 5, # 6 Exhibit 6, # 7
Exhibit 7, # 8 Exhibit 8, # 9 Exhibit 9, # 10 Exhibit 10, # 11 Exhibit 11, # 12 Exhibit
12, # 13 Exhibit 13)(Marshall, Stephen) (Attachment 4 replaced on 10/10/2019) (Pacho,
Arnold). (Attachment 5 replaced on 10/10/2019) (Pacho, Arnold). (Attachment 6
replaced on 10/10/2019) (Pacho, Arnold). (Attachment 7 replaced on 10/10/2019)
(Pacho, Arnold). (Attachment 8 replaced on 10/10/2019) (Pacho, Arnold). (Attachment
9 replaced on 10/10/2019) (Pacho, Arnold). (Attachment 10 replaced on 10/10/2019)
(Pacho, Arnold). Modified on 10/10/2019 to attach sealed versions, per court order

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

48a

Page 8 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

dkt.34 (Pacho, Arnold). Modified on 4/24/2020 to unseal documents per court order
(dkt # 58). (Pacho, Arnold). (Entered: 10/08/2019)
10/08/2019

33 BRIEF by Rain Computing, Inc. Opening Claim Construction Brief. (Attachments: # 1
Declaration of Douglas E. Chin, # 2 Exhibit A-1, # 3 Exhibit A-2, # 4 Exhibit A-3, # 5
Exhibit A-4, # 6 Exhibit A-5, # 7 Exhibit A-6, # 8 Exhibit A-7, # 9 Exhibit A-8, # 10
Exhibit B-1, # 11 Exhibit B-2, # 12 Exhibit B-3, # 13 Exhibit B-4, # 14 Exhibit B-5, #
15 Exhibit B-6, # 16 Exhibit B-7)(Chin, Douglas) (Entered: 10/08/2019)

10/09/2019

34 Judge Richard G. Stearns: ELECTRONIC ORDER entered granting 29 Motion to
impound claim construction brief and exhibits, as the proposed impounded
portions/exhibits reflect and/or comprise documents that Rain Computing has
designated as confidential (without deciding whether they are confidential, as the
designation is not challenged), noting however that an inventor's subjective
understanding or intent is "irrelevant to the issue of claim construction." Howmedica
Osteonics Corp. v. Wright Med. Tech., Inc., 540 F.3d 1337, 1347 (Fed. Cir. 2008).
(Tang, Danni) (Entered: 10/09/2019)

10/29/2019

35 Markman Brief by Rain Computing, Inc.. (Yi, Peter) (Entered: 10/29/2019)

10/29/2019

36 Response by Samsung Electronics America, Inc., Samsung Electronics Co., Ltd.,
Samsung Research America, Inc. to 33 Brief, Responsive Claim Construction Brief of
the Samsung Defendants. (Marshall, Stephen) (Entered: 10/29/2019)

10/29/2019

37 DECLARATION re 36 Response Declaration of Stephen Marshall In Support of
Samsung's Responsive Claim Construction Brief by Samsung Electronics America, Inc.,
Samsung Electronics Co., Ltd., Samsung Research America, Inc.. (Attachments: # 1
Exhibit)(Marshall, Stephen) (Entered: 10/29/2019)

11/12/2019

38 Joint Claim Construction and Prehearing Statement by Rain Computing, Inc.. (Chow,
Stephen) (Entered: 11/12/2019)

01/15/2020

39 Set Hearings: Claim Construction Hearing set for 1/30/2020 10:30 AM - 12:30 PM in
Courtroom 21 before Judge Richard G. Stearns. (Maynard, Timothy) (Entered:
01/15/2020)

01/22/2020

40 MOTION for Leave to Appear Pro Hac Vice for admission of Bethany Mihalik Filing
fee: $ 100, receipt number 0101-8067324 by Samsung Electronics America, Inc.,
Samsung Electronics Co., Ltd., Samsung Research America, Inc.. (Attachments: # 1
Exhibit 1)(Marshall, Stephen) (Entered: 01/22/2020)

01/23/2020

41 Judge Richard G. Stearns: ELECTRONIC ORDER entered granting 40 Motion for
Leave to Appear Pro Hac Vice. Added Bethany Mihalik. Attorneys admitted Pro Hac
Vice must register for electronic filing if the attorney does not already have an
ECF account in this district. To register go to the Court website at
www.mad.uscourts.gov. Select Case Information, then Electronic Filing (CM/ECF)
and go to the CM/ECF Registration Form. (Pacho, Arnold) (Entered: 01/23/2020)

01/30/2020

42 Electronic Clerk's Notes for proceedings held before Judge Richard G. Stearns:
Markman Hearing held on 1/30/2020. The court has taken the matter under advisement.
(Court Reporter: James Gibbons at jamesgibbonsrpr@gmail.com.)(Attorneys present:

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

49a

Page 9 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

Chow for pl., McKeon, Milhalik, and Marshall for defs.) (Tang, Danni) (Entered:
01/30/2020)
02/12/2020

43 Judge Richard G. Stearns: ORDER entered. MEMORANDUM AND ORDER
construing claims. "The disputed claim terms will be construed for the jury and for all
other purposes in the pending litigation in a manner consistent with the above rulings of
the court." Fact discovery to conclude 6/12/2020; opening expert reports to be
exchanged by 7/10/2020, rebuttal reports 8/7/2020; expert discovery closes 9/4/2020.
Summary judgment motions to be filed no later than 10/2/2020; oppositions due
10/23/2020; replies of no more than 10 pages by 11/6/2020.(Tang, Danni) (Entered:
02/12/2020)

02/19/2020

44 MOTION for Reconsideration re 43 Memorandum & ORDER,, by Rain Computing,
Inc..(Chow, Stephen) (Entered: 02/19/2020)

02/19/2020

45 MEMORANDUM in Support re 44 MOTION for Reconsideration re 43 Memorandum
& ORDER,, filed by Rain Computing, Inc.. (Chow, Stephen) (Entered: 02/19/2020)

02/24/2020

46 Judge Richard G. Stearns: ELECTRONIC ORDER entered denying 44 Motion for
Reconsideration. (Tang, Danni) (Entered: 02/24/2020)

03/11/2020

47 STIPULATION of Dismissal Joint Stipulation of Dismissal and for Entry of Final
Judgment and Order by Samsung Electronics America, Inc., Samsung Electronics Co.,
Ltd., Samsung Research America, Inc.. (Attachments: # 1 Text of Proposed Order)
(Marshall, Stephen) (Entered: 03/11/2020)

03/12/2020

48 Judge Richard G. Stearns: ORDER entered re 47 Joint Stipulation of Dismissal.
Order Approving Joint Sipulation of Dismissal and for Entry of Final Judgment.
(Pacho, Arnold) (Entered: 03/12/2020)

03/25/2020

49 NOTICE OF APPEAL as to 43 Memorandum & ORDER,, 46 Order on Motion for
Reconsideration by Rain Computing, Inc. Filing fee: $ 505, receipt number 01018170138 Fee Status: Not Exempt. NOTICE TO COUNSEL: A Transcript Report/Order
Form, which can be downloaded from the First Circuit Court of Appeals web site at
http://www.ca1.uscourts.gov MUST be completed and submitted to the Court of
Appeals. Counsel shall register for a First Circuit CM/ECF Appellate Filer
Account at http://pacer.psc.uscourts.gov/cmecf. Counsel shall also review the First
Circuit requirements for electronic filing by visiting the CM/ECF Information
section at http://www.ca1.uscourts.gov/cmecf. US District Court Clerk to deliver
official record to Court of Appeals by 4/14/2020. (Chow, Stephen) (Entered:
03/25/2020)

03/25/2020

50 NOTICE OF APPEAL to the Federal Circuit as to 43 Memorandum & ORDER,, 46
Order on Motion for Reconsideration, 48 Order: Filing fee: $ 505, receipt number 01018170138: by Rain Computing, Inc. US District Court Clerk to deliver official record to
Court of Appeals by 4/14/2020. (Paine, Matthew) (Entered: 03/25/2020)

03/25/2020

51 Notice of correction to docket made by Court staff. Correction: Docket Entry 49 Notice
of Appeal to the Federal Circuit Corrected Because: The Notice of Appeal to the
Federal Circuit (Patent Case) Was Filed Under the Wrong Appellate Event in CM/ECF

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

50a

Page 10 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

by Counsel Stephen Y. Chow. The Notice of Appeal to the Federal Circuit Was ReDocketed Under the Correct Appellate Event in CM/ECF as Entry 50 (Paine, Matthew)
(Entered: 03/25/2020)
03/25/2020

52 Certified and Transmitted Abbreviated Electronic Record on Appeal to US Court of
Appeals for the Federal Circuit re 50 Notice of Appeal to the Federal Circuit, (Paine,
Matthew) (Entered: 03/25/2020)

03/26/2020

ELECTRONIC NOTICE of Duplicate Filing Fee and Credit for Refund, for $505.00
paid on 03/25/2020, receipt number 0101-8170048. (Tran, Henry) (Entered:
03/26/2020)

03/27/2020

53 NOTICE OF CROSS-APPEAL to the Federal Circuit as to 43 Memorandum &
ORDER,, 48 Order by Samsung Electronics America, Inc., Samsung Electronics Co.,
Ltd., Samsung Research America, Inc. Filing fee: $ 505, receipt number 0101-8173146
Fee Status: Filing Fee paid. US District Court Clerk to deliver official record to Court
of Appeals by 4/16/2020. (Marshall, Stephen) (Modified on 3/29/2020 to Correct
Docket Text) (Paine, Matthew). (Entered: 03/27/2020)

03/30/2020

54 Certified and Transmitted Abbreviated Electronic Record on Appeal to US Court of
Appeals for the Federal Circuit re 53 Notice of Cross-Appeal to the Federal Circuit.
(Paine, Matthew) (Entered: 03/30/2020)

04/02/2020

55 USCA Case Number 20-1646 for 50 NOTICE OF APPEAL to the Federal Circuit by
Rain Computing, Inc.. (Paine, Matthew) (Modified on 4/2/2020 to Correct Docket Text)
(Paine, Matthew). (Entered: 04/02/2020)

04/06/2020

56 USCA Case Number 20-1656 for 53 Cross Notice of Appeal to the Federal Circuit,
filed by Samsung Electronics Co., Ltd., Samsung Research America, Inc., Samsung
Electronics America, Inc.. (Paine, Matthew) (Entered: 04/06/2020)

04/23/2020

57 STIPULATION re 34 Order on Motion for Miscellaneous Relief,, 32 Declaration,,,, 31
Markman Brief,, 28 Order on Motion for Protective Order To Release from
Impoundment for Appeal Compilation Due May 4, 2020 by Rain Computing, Inc..
(Chow, Stephen) (Entered: 04/23/2020)

04/24/2020

58 Judge Richard G. Stearns: ELECTRONIC ORDER entered re 57 Joint Stipulation.
The stipulation is SO ORDERED. The docket entries are hereby and forthwith
unsealed. (Pacho, Arnold) (Entered: 04/24/2020)

04/28/2020

59 Transcript of Hearing Re: Claim Construction held on January 30, 2020, before Judge
Richard G. Stearns. COA Case No. 20-1646 and 20-1656. The Transcript may be
purchased through the Court Reporter, viewed at the public terminal, or viewed through
PACER after it is released. Court Reporter Name and Contact Information: James
Gibbons at jamesgibbonsrpr@gmail.com Redaction Request due 5/19/2020. Redacted
Transcript Deadline set for 5/29/2020. Release of Transcript Restriction set for
7/27/2020. (Scalfani, Deborah) (Entered: 04/28/2020)

04/28/2020

60 NOTICE is hereby given that an official transcript of a proceeding has been filed by the
court reporter in the above-captioned matter. Counsel are referred to the Court's

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

51a

Page 11 of 12

CM/ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

5/4/20, 3 02 PM

Transcript Redaction Policy, available on the court website at
http://www.mad.uscourts.gov/attorneys/general-info.htm (Scalfani, Deborah) (Entered:
04/28/2020)

PACER Service Center
Transaction Receipt
05/04/2020 15:00:47
PACER
Login:

dc9109x1:3529415:0 Client Code:

Description:

Docket Report

Search
Criteria:

1:18-cv-12639RGS

Billable
Pages:

10

Cost:

1.00

https://ecf.mad.uscourts.gov/cgi-bin/DktRpt.pl?742340355046767-L_1_0-1

52a

Page 12 of 12

KUIN TAITEIT VAN DE OROCLIMATTA DIUNTUK

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 1 of 11

US009805349B1

(12) United
States Patent
Chang

( 10 ) Patent No.:

(45) Date of Patent:

(54 ) METHOD AND SYSTEM FOR DELIVERING

6, 918, 113 B2

DEMANDS

6 , 954,852
6 , 954 ,853
6 ,959,320
7 ,017,162
7 , 035, 874
7 , 036, 040

( 71 ) Applicant: Hsuan - Yeh Chang , Chestnut Hill, MA
(US )
@
(72 ) Ž
Inventor: Hsuan - Yeh Chang, Chestnut Hill, MA

(US )

Notice:

Subject to any disclaimer, the term of this
patent is extended or adjusted under 35

B2
B2
B2
B2
B1
B2

8 /2006 Birse et al.

7 / 2006

Toft

6 /2007 Hahn et al.

10 /2007 Davis et al.

1/2008 Zimmerman et al .

2/ 2008 Burokas et al.
4 / 2008 Le et al.

(Continued )

@

OTHER PUBLICATIONS

“ Diskless Clients for Ubuntu ,” Linux Magazine , Issue 69, p . 12 ,
Aug . 2006 ( 1 page).

(63 ) Continuation of application No . 11 /944, 456 , filed on

(Continued )

Nov . 22, 2007, now abandoned .

Primary Examiner — Mohammad A . Nilforoush
APAT
ABSTRACT
(57)
A method and a system are provided for delivering on
demand software packages . In one aspect, the method may
include subscribing services of a service provider operating

(51) Int. CI.

G06Q 20/ 12
( 2012 .01)
(52 ) U . S . CI.
CPC ....... G06Q 20 / 1235 (2013.01); G06Q 20 / 123
(2013 .01) ; G06Q 20 /127 (2013 .01)
(58 ) Field of Classification Search
CPC ....... GO6Q 20 /00 – 20 /425 ; G06Q 30 /00 – 30 /08
. .......... 705/ 1. 1 - 500
USPC .....
See application file for complete search history.
References Cited
(56 )

a server , the server including an operating system and

several application packages installed therein , initiating a

client terminal by performing a network booting process

using the operating system installed in the server, and
executing in the client terminal a subscribed application
package installed in the server using resources of the oper

U . S . PATENT DOCUMENTS
5 , 765,205 A
6 / 1998 Breslau et al.
A
8/ 1998
B1 10 / 2001
B14 / 2003
B2 6 / 2004

3 / 2006 Smith et al .
4 / 2006 Reed et al.
4 / 2006 Nicholson et al.

7 , 089, 300 B1

7,321, 936 B2
7,334,122 B2
7 , 356 ,679 B1

(21) Appl. No.: 13 / 865 , 217
(22 ) Filed : Apr. 18 , 2013
Ž
Related U .S . Application Data

10 /2005 Shah et al.

6 /2006 Benitez et al.

7 , 233 ,985 B2

............. 705/52

7 /2005 Patel et al .
10 /2005 Burokas et al.
10 / 2005 Wang et al.

7 ,062,567 B2
7 ,072,950 B2

7 ,281,068 B2

U . S . C . 154 (b ) by 873 days.

5 ,790, 753
6 ,311, 221
6 ,546 , 547
6 ,754 ,896

Oct. 31 , 2017

6 , 826 ,546 B1 * 11 /2004 Shuster ....
6 , 854 ,009 B1 2 / 2005 Hughes

APPLICATION PACKAGES BASED ON USER

@
(* )

US 9 ,805, 349 B1

ating system resident in the client terminal. The method may
further include charging the user a fee according to the
application packages and the operating system subscribed by

Krishnamoorthy et al.
Raz et al.
Runyan et al.
Mishra et al.

the user.

27 Claims, 3 Drawing Sheets
200

Client
Terminal

14

Communication

Network

100

Server

Power ON

$ 300

Network

Associate with Network
Associated

Boot -up

Download Operating System

S310

Request Operating System

S320

. . . .. .. ..

List
Application

Packages

Request a List of Application Packages
Provide the List of Application Packages

8330

Request the Selected Application Package
Select and
Run an
Application

Package K

Terminate

Update
Bill

Download the Selected Application Package
Communicate between Client Terminal and Server
- - - - - - Store/Retrieve /Output Data Files

Terminate the Application Package
Update the List of Application Packages
Bill the User of the Client Terminal

53a

S340

$ 350

$ 360
5370

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 2 of 11

US 9,805
,349 B1
Page 2
(56 )

2007/0208834
2008/0109876
2008/0319910
2009 /0119458
2009/0119644

References Cited
U . S . PATENT DOCUMENTS
7 ,451, 196 B1 11/ 2008 de Vries et al.
7 ,475 , 186 B2
1/2009 Diehl
7 ,516 , 147 B2 4 / 2009 Kranz et al.

2 /2010 Keith , Jr .
709 / 220
B2 1 / 2013 Rotman et al.
B2 * 9 /2013 Jogand- Coulomb ......... 715 /204
AL 11/ 2001 Moore et al.
A1 6 /2002 Pujare et al.
Al 7 / 2002 Wohlgemuth et al.

2002 /0157089 A

10 / 2002 Patel et al.

2002 /0159089 A

10 / 2002 Patel et al.

2003/0004882 AL

2004 /0260806
2005/ 0033850
2005 /0044433
2005/0144431
2006 /0013393

2006 /0015931
2006 /0031547
2006 /0048136
2006 /0090069
2006 /0106770
2006 /0123185
2006 /0136389
2006 /0168294

8 / 2004 Benco

Al 12 / 2004 Martin et al.
A1 2 / 2005 Kirkland
AL 2 / 2005 Dunstan
A1
6 / 2005 Lin et al.
A1 * 1/ 2006 Ferchichi et al. ............ 380 / 247

A1 1/ 2006
AL 2 /2006
Al 3/ 2006
Al 4 / 2006
A1 5 /2006
Al 6 / 2006
A1 6 /2006
AL 7/ 2006
2006 /0230175 Al 10 /2006

Davis et al.
Tsui et al.
Vries et al.
Burokas et al.
de Vries
de Vries et al.
Cover et al.
de Vries et al.
de Vries

2006 /0294019 A1 12/ 2006 Dayan et al.

2007 /0112899 Al

5/ 2007 Edwards et al.

Nanamura et al .
Hitomi et al.
Duffus et al .
de Vries et al.
de Vries et al.

OTHER PUBLICATIONS
Frank Tuzi, “ DRBL : A Quick and Easy Thin Client Server,"

http ://www . linux .com /articles/57273 , Oct. 2 , 2006 (2 pages ).
Danny Sabbah , “ The Future of Software Delivery,” White Paper,
IBM Software Group , Feb . 2007 ( 28 pages ).
Axel Schultze , “ Channels for the New SaaS Industry," SIIA Soft

ware as a Service Executive Council Channel Committee White

1/ 2003 Holler et al.

2003/ 0009538 A1 1/ 2003 Shah et al.
2003/0120740 A16 / 2003 Beeman et al.
2004 /0153908 A1 * 8/ 2004 Schiavone et al. ........... 714 /712

2004 /0163131 AL

9 /2007
5 / 2008
12 /2008
5 /2009
5 / 2009

2012 /0303479 A1 11/2012 Derks et al.

7 ,664 ,834 B2 *

8 , 352 ,357
8 ,543, 899
2001/0039546
2002/ 0083183
2002/0087883

AL
A1
Al
Al
A1

Paper, Mar. 2007 ( 15 pages ).

Bert Armijo, “ How Utility Computing Benefits SaaS," SIIA Soft
ware as a Service Executive Council Channel Committee White
Paper, Apr. 2007 ( 9 pages ).

Catherine Spence, “ Software On-Demand - OS/Application
Streaming Client Study,” IT @ Intel Technical Brief, 2008 ( 4 pages ) .

Catherine Spence et al., “ Better Together: Rich Client PCs and
Cloud Computing," IT @ Intel Brief, Mar. 2009 ( 4 pages ).
Catherine Spence et al., “ Streaming and Virtual Hosted Desktop
Study — Benchmarking Results,” IT @ Intel White Paper, Jan . 2008
(8 pages).
Catherine Spence et al., “ Streaming and Virtual Hosted Desktop
Study: Phase 2 ," IT @ Intel White Paper, Apr. 2010 (8 pages) .

Robert L . Mitchell, “ Streaming the Desktop,” ComputerWorld ,

Nov. 21, 2005 (4 pages ).

Non -final Office Action dated Aug . 6 , 2013 in co -pending U .S .
Appl. No. 11/ 944 ,456 ( 46 pages).

* cited by examiner

54a

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 3 of 11

atent

Oct . 31, 2017

US 9 ,805 , 349 B1

Sheet 1 of 3

100

555 *
- 110

130 SERVER

120

(WAN )

UD
LAP TUD

OS

many company recommend
140
BILLING

MODULE

160

150

OUTPUT
UNIT

BACKUP

MODULE

WAN

20
200

4263
SOS
230 TERMINAL
CLIENT

c210 C 220

CPU

RAM

260

270

250

- 240

VO

ROM

Mass

Storage

EP

Device

FIG . 1

55a

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 4 of 11

U . S . Patent

Oct. 31, 2017

? US 9,805,349 B1

Sheet 2 of 3

WAN

- 100

???
|
- 110

- 120

- 130 SERVER
(LAN)

| UD

OS

C150

?140

BILLING

MODULE

?160

OUTPUT

BACKUP

UNIT

MODULE

- 200

????
?? ?
210 C220

Mass

SPU

240

IO

- 260

230

- 250 C270

FP

Storage
Device

CLIENT
TERMINAL

FIG . 2

56a

|

- 20

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 5 of 11

U .S . Patent

Oct. 31, 2017

Sheet 3 of 3

- 200

US 9 ,805 , 349 B1

14

Client
Terminal

Communication
Network

100
Server

S300

Power ON
Associate with Network
Network
- - - - - - - - - - - - - - - - - - - - - - -

S310

Associated
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

- - - - - - - - - - - -

- - - - - - - - - - - -

Request Operating System

Boot-up
- - - - - - - - - - - - - - - - - - - - - - -

List
Application

Packages

- - - - - - - - - - - - - - - - - - - - - -

S320

Download Operating System
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

- - - - - - - - - - - - - - - - -

- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

Request a List of Application Packages

Application
Package

S330

Provide the List of Application Packages
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

- - - - - - - - - - - - - - - - - - - - - - - -

Request the Selected Application Package
Select and
Run an

- - - - - - - - - - - -

- - - - - - - - -

'

Download the Selected Application Package
S340

Communicate between Client Terminal and Server

Store /Retrieve /Output Data Files
- - - - - - - - - - - - - - - - - - - - - - -

Terminate
- - - - - - - - - - - - - - - - - - - - - -

- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

- - - -

- - - - - - - -

- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

Terminate the Application Package
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

- - - - - - - -

Bill

S350

- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

Update the List of Application Packages

Update

FIG . 3

57a

- - - - - - - - - - - -

S360
- - - - - - - - - -

Bill the User of the Client Terminal

- - - - - - - - - - - -

- - - - -

S370

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 6 of 11

US 9 ,805 ,349 B1
terminal a subscribed application package installed in the
server using resources of the operating system resident in the
client terminal.

METHOD AND SYSTEM FOR DELIVERING

APPLICATION PACKAGES BASED ON USER
DEMANDS

In another embodiment, the method includes initiating a
This is a continuation of U .S . application Ser . No. 11 /944, 5 client terminal using an operating system installed in a
456 , entitled METHOD AND SYSTEM FOR DELIVER
ING APPLICATION PACKAGES BASED ON USER
DEMANDS, filed on Nov. 22 , 2007 , the entire contents of

which are incorporated herein by reference .

server situated in a communication network , the client
terminal accessing the server via a service provider, provid
ing, to the user, a list of application packages subscribed by
the user , the application packages being installed in the
10 server, selecting an application package from the list, run

ning the selected application package on the client terminal
user a fee by the service provider according to the list of

BACKGROUND

using resources of the operating system , and charging the

The present invention relates to a method and a system for
delivering application packages.More particularly , the pres
ent invention relates to a method and a system for delivering
application packages based on user demands.
In order to normally operate a data processor, such as a
personal computer, it is often required that an operating

subscribed application packages.
BRIEF DESCRIPTION OF THE DRAWINGS

FIG . 1 illustrates a system for delivering application
packages according to an embodiment consistent with the
system (OS ) and some application packages operable under 20 present invention .
the OS be installed in the data processor. The OS may
FIG . 2 illustrates a system for delivering application

provide resources for operating the data processor and

packages according to another embodiment consistent with

manage the sharing of the resources. The application pack
ages may use the resources of the OS to perform specific
tasks.

In certain cases, the data processor may be purchased
including an OS and some basic application packages pre
installed in the data processor. The user of the data processor

the present invention .

FIG . 3 illustrates a method for delivering application
25 packages according to an embodiment consistent with the

present invention .

DETAILED DESCRIPTION
may then obtain a license for the OS and /or the application
packages with or without additional fees. If the user wants 30 Hereinafter, embodiments consistent with the present
the data processor to perform a special task and none of the invention will be described in detail with reference to the

pre - installed application packages can perform the task , the

user will then need to purchase a special application package

accompanying drawings, in which like reference numerals
refer to like elements .
Referring to FIG . 1, there is illustrated a system for

that performs the task and install the purchased special 35
application package in the data processor before use .
Normally , the purchase of an application package means

delivering application packages according to an embodi
ment consistent with the present invention .

the purchase of a license which allows a user to use that

and maintained by a service provider, is connected to a wide
area network (WAN ) 10 . In one embodiment, server 100

As shown in FIG . 1 , a server 100 , which may be operated

application package on a single machine with an unlimited
timeperiod . However, the purchase of such a license may be 40 may include an operating system (OS ) server 110 , an appli
very costly . Accordingly , many other types of licenses have
cation package (AP ) server 120 , and a user data (UD ) server
been developed recently .
130 . Although three different servers 110 , 120 , and 130 have
Among the recently developed licenses , an on - demand been shown and described , it is to be understood that servers
license has attracted much attention . The on -demand license
110 , 120 , and 130 may be realized as one server, two servers ,

allows the user to pay a fee only when the licensed appli - 45 or three different servers . Further, server 100 may include a

cation package is subscribed and/ or used . The user will not billing module 140 and an output unit 150.
need to pay anything if the application package is unsub OS server 110 may include one or more operating systems
installed therein . In one embodiment, the installed operation
scribed and /or not in use .
Currently , the on -demand license type is applicable systems may be open source operating systems, such as
mostly to web applications. However, running a web appli - 50 Linux , BSD , and the like , or proprietary operating systems,
cation , i. e., under a web browser, may be several times such as Windows® of Microsoft Corp ., “ Mac OS X ” of

slower than running the application directly under an OS. Apple Inc ., and the like.
Accordingly, there is a need to develop a method and a
AP server 120 may include a plurality of application
system that can more efficiently deliver application packages packages installed therein . The application packages may be
55 open source software packages , such as “ OpenOffice .org ,"
based on user demands.
or proprietary software packages, such as “ Office 2007” of

SUMMARY

Microsoft Corp .
UD server 130 may include a plurality of storage units .

In light of the above , there is provided a method and a

Each storage unit may correspond to a user account for

system for delivering application packages based on user 60 storing data of the user. Each storage unit has a capacity

quota . For example , the capacity quota may be 100 GB . In
demands.
In one embodiment, the method includes subscribing one embodiment, UD server 130 may include a plurality of
services of a service provider operating a server, the server hard disks, thereby forming a file system under Redundant
including an operating system and a plurality of application
Array of Independent Disks (RAID ) architecture. Accord
packages installed therein , initiating a client terminal by 65 ingly, storing user data in UD server 130 may be better
performing a network booting process using the operating secured than saving them in mass storage device 260 , which

system installed in the server, and executing in the client

does not normally employ a RAID architecture. In addition ,

58a

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 7 of 11

US 9 ,805 ,349 B1
to protect privacy of the user, the user data stored in UD
A user may subscribe services provided by the service
provider. The services may include licenses to use one or
server 130 may be encrypted .

different geographical locations. Further, LAN 12 may be
connected to WAN 10 via an access point 20 .
Referring to FIG . 3, there is illustrated a method for
delivering application packages according to an embodi

more of the operating systems and /or one or more applica - 5 ment consistent with the present invention . Hereinafter, the

tion packages installed in server 100 . The services may
further include rights to use the storage unit of a certain

method consistent with the present invention will be
described in detail with reference to FIG . 3 as well as to

capacity quota . Further , the services may include output

FIGS. 1 and / or 2 .

services . The user who has subscribed the output services
First, the user needs to obtain a client terminal and
may utilize output unit 150 to output, for example , docu - 10 subscribe the services of the service provider. In one
ments, pictures, and the like , or to prepare a recording
example , the user may already have a client terminal.
medium , such as a CD , a DVD , and the like. In one
Accordingly , the user only needs to subscribe the services
embodiment, the output services for preparing the recording

without acquiring a new client terminal. In another example ,

medium may be used to backup data files of the user. The

the user may not already have a client terminal. Accordingly ,

service provider may then ship the documents , pictures , data 15 the user needs to obtain a client terminal first. In certain

CDs, data DVDs, and the like , to the user via courier. Billing

cases , however , the service provide may provide a client

module 140 may issue a bill to charge the user for the
services the user subscribed and /or used .

terminal to the user when the user subscribes their services .

Referring again to FIG . 1 , a client terminal 200 may be

If the user does not yet have a client terminal and desires
to subscribe the services, the user may visit a vendor store

connected to WAN 10 via an access point 20 . In one 20 of the service provider located at, for example , a shopping

embodiment, client terminal 200 may be a data processor,

center close to the user's neighborhood . The user may then

such as a personal computer, a personal digital assistant, and

subscribe the services using a client terminal of the vendor

smart phone, and the like, or a consumer electronic product,

terminal, the user may then visit a web store of the service
25 provider, and subscribe the services of the service provider

the like , a communication apparatus , such as a cell phone, a

such as a television set, a game box , and the like.

Client terminal 200 may include a central processing unit

(CPU ) 210 , a random access memory (RAM ) 220 , a read

only memory (ROM ) 230 , an input/output ( I/O ) unit 240, an
extension port (EP ) 250 ( for example , a universal serial bus

store . On the other hand , if the user already have a client

through the web store .

After the user subscribes the services, the service provider

may then issue a user identification device , such as a SIM
card , an IC card , a flash memory drive, a memory card , a

(USB ) port, or a card reader ), a mass storage device 260 ( for 30 CD -ROM , and the like, which may record subscription

example , a hard disk ), and a network interface (NI) 270 . In

information of the user. The user identification device may

one embodiment, client terminal 200 may not require mass

be connected with client terminal 200 via EP 250 . The

using UD server 130 as a substitute mass storage device ,

code , account information , subscription details , and/or sys

storage device 260 . Client terminal 200 may be operated

subscription information may include user information , pass

with or without mass storage device 260 in client terminal 35 tem configurations of client terminal 200 . In one embodi

200 .

ment, the user identification device may be integrated with

example , a wireless router, a base station , and the like ), or a
wired access point (for example , a cable /DSL modem , an

tion information may be recorded in ROM 230 of client
terminal 200 , if client terminal 200 is provided to the user by

Access point 20 may be a wireless access point (for

ROM 230 of client terminal 200 . For example, the subscrip

optical modem , and the like ). Client terminal 200 uses NI 40 the service provider.
270 to gain access to WAN 10 via access point 20 , so as to
Referring to FIG . 3 , in Step 300 , the user powers on client

communicate with server 100 . In one embodiment, NI 270

terminal 200 . Immediately after powering on client terminal

Referring to FIG . 2 , there is illustrated a system for
delivering application packages according to another
embodiment consistent with the present invention . As
shown, a server 100 is connected to a local area network

a communication network 14 ( for example , WAN 10 or
LAN 12 ) by sending out a request to communication net
work 14 . In one embodiment, communication network 14
may include a wireless communication network , which is

may be a wired network card , such as an Ethernet card , or 200 , client terminal 200 may begin performing a network
a wireless network card , such as a WiMAX or WiFi interface booting process .
device , depending on the type of access point 20 used . 45 In Step 310 , client terminal 200 attempts to associate with

(LAN ) 12 . As discussed above , server 100 may include an 50 accessible to client terminal 200 via a wireless access point,

operating system (OS ) server 110 , an application package

(AP) server 120 , and a user data (UD ) server 130 . In one

embodiment, server 100 may be managed by the service

such as a base station . Once client terminal 200 is associated

with communication network 14 , client terminal 200 may

have access to server 200 . In one embodiment, client ter

provider. However, it is appreciated that server 100 , which
minal 200 may be assigned a network address upon asso
is connected to LAN 12 , may be managed by the adminis - 55 ciation with communication network 14 . Alternatively, cli

trator of LAN 12 , such as a corporate information technol

ent terminal 200 may use a predetermined network address

for a client terminal 200 to use the operating systems

identification device .

ogy ( IT ) department. The service provider provides licenses
installed in OS server 110 and the application packages
installed in AP server 120 .

As shown in FIG . 2, client terminal 200 is connected to

LAN 12 . Client terminal 200 may use NI 270 to access

server 100 via LAN 12 . In one embodiment, LAN 12 may

comprise Ethernet, and NI 270 may comprise an Ethernet

included in the subscription details recorded in the user
In Step 320 , after client terminal 200 is associated with

60 communication network 14 , client terminal 200 may broad

cast a request for finding server 100 that includes an oper

ating system installed therein . In one embodiment, a server

address of server 100 may be included in the subscription

details recorded in the user identification device . In this case ,

card . However, it is to be understood that LAN 12 may 65 client terminal 200 may find server 100 within a short time

comprise an Intranet, which may connect client terminal 200

period . Once server 100 is found , client terminal 200 may

and server 100 under the same domain but located at

begin a booting process (or initiating process ) based on the

59a

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 8 of 11

US 9 ,805 ,349 B1
subscription information by transferring from server 100 the
process , however, server 100 may need to authenticate the
user. In one embodiment, server 100 may authenticate the
operating system subscribed by the user. Before the booting

server of server 100 , and / or to store temporary data into U
D server 130 of server 100 , for example . Further , while
running the selected application package , the user of client
terminal 200 may store a newly created data file into server

user by requesting, for example , the subscription informa- 5 100 and/ or retrieve a previously created data file from server
tion from client terminal 200 . Because the operating system
100. Moreover, the user may output a data file through

is installed in server 100 , client terminal 200 does not

output unit 150 of server 100 . The service provider may then
ship the output material , such as document papers, to the
device 260 of client terminal 200 . If client terminal 200 user
courier.
includes mass storage device 260, the usermay then use the 10 In via
Step S350, when the user is to terminate the execution
entire capacity ofmass storage device 260 to store user data , of the
selected application package, client terminal 200 may
require the operating system be installed in mass storage

without sacrificing storage space for the operating system .
inform server 100 that the selected application package is to
The network booting process described above may be be
terminated . Client terminal 200 may then release the
time consuming, especially when the bandwidth of commu
nication network 14 is narrow . Accordingly , in one embodi- 15 running application package from RAM 220 of client ter
minal 200 .
ment, client terminal 200 may further include a non -volatile

In Step S360 , when the user wants to change his sub
scription of services , the usermay use client terminal 200 to
send a request for subscription update to server 100 . In
want to spend time on the network booting process when 20 response, server 100 may send a list of application packages
powering on client terminal 200 again , dynamic data in
including currently subscribed application packages and
RAM 220 of client terminal 200 may be transferred to the available application packages not currently subscribed .
non -volatile memory when powering off , so as to allow
If the user wants to subscribe a new application package ,

memory module (not shown) having a storage capacity

substantially the same as that of RAM 220 . If the user wants
to power off client terminal 200 to save energy , but does not

client terminal 200 to enter a hibernation mode. When the the user may search for the new application package from
user powers on client terminal 200 again , the dynamic data 25 the available application packages . The user may then select
stored in the non -volatile memory module may be loaded
the new application package found from the available appli

back to RAM 220. In this manner, client terminal 200 may

cation packages. Further, the user may subscribe the new

return to its original state of operation at the time the power

application package by updating the list of application

is turned off. Accordingly, no reboot of client terminal 200

packages, that is , by adding the new application package to

may be necessary . Essentially , client terminal 200 may need 30 the subscribed application packages .

to go through this network booting process only when client
terminal 200 is powered on for the first time. Nevertheless,

If the user wants to unsubscribe a currently subscribed
application package , the user may select the application

client terminal 200 may still need to reboot when certain

package to be unsubscribed from the currently subscribed

In Step 330, after performing the network booting pro cess, client terminal 200 may request server 100 to send a list

cation packages, that is , by removing the selected applica
tion package from the subscribed application packages.

portions of the operating system go crashed and are unre
application packages. Further, the user may unsubscribe the
35 selected application package by updating the list of appli
coverable.
of application packages installed in AP server 120 . Server
100 may then provide the list of application packages to

Accordingly, application packages can be delivered to the
user according to the user' s demands. When the user

client terminal 200 . According to the subscription informa- 40 demands an application package , the user may simply sub

tion recorded in the user identification device , the user is
licensed to use one or more application packages in the list.

scribe it from the service provider. On the other hand , when
the user no longer demands a certain application package ,

For those application packages not subscribed by the user,

the user may simply unsubscribe it. In one embodiment, the

the user is not licensed to use them . Because the subscribed

user may subscribe or unsubscribe the license of the appli

application packages are installed in server 100 , client 45 cation package on a daily basis, a weekly basis , a monthly
terminal 200 does not require the application packages be
basis , and the like . In this manner , the user only pays for the

installed in mass storage device 260 of client terminal 200
Accordingly, if client terminal 200 includes mass storage
device 260, the user may use the entire capacity of mass

license of an application package when he subscribes and /or
uses the application package . Thus , the user does not need
to pay the large fee for purchasing the license of an appli
storage device 260 to store user data .
50 cation package as in the related art.
In Step S340 , in order to execute or run a subscribed
In Step S370 , the service provider may charge the user a

application package on client terminal 200 , the user may

fee for the services that are subscribed . More specifically,

select the subscribed application package from the list of

billing module 140 of server 100 may issue a bill according

application packages, and send a request for the selected

to the user ' s subscription of the services of the service

application package to server 100 . In one embodiment, 55 provider. In one embodiment, billing module 140 may issue
server 100 may need to verify the user's subscription of the a bill to the user periodically , such as monthly, weekly , and
selected application package before activating the selected the like . In one embodiment, the bill may be sent to the user
application package . Once the user 's subscription is verified ,
via an electronic mail.
client terminal 200 then begin transferring the selected
In view of the above, the present invention may provide

application package and execute the selected application 60 a system and a method for delivering application packages

package on client terminal 200, using resources of the

based on user demands . Unlike the delivery method of

operating system resident in RAM 220 of client terminal
200.

does not require the application packages be executed on top

While running the selected application package on client

application packages in the related art, the present invention

of a web browser. Rather, the application packages may be

terminal 200 , client terminal 200 may communicate with 65 executed directly on a client terminal using resources of an
server 100 , and vice versa , to obtain component parts or

add -on modules of the selected application package from AP

operating system resident in the RAM of the client terminal.

Accordingly , the performance of the application packages

60a

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 9 of 11

US 9 ,805 ,349 B1
may be several times better than running the application

packages over a web browser.
Further, because application packages may be executed
directly on the client terminal, not on the server, the mini-

mum system requirement of the server may be largely 5
reduced . The server may fully dedicate to the management

of the application packages and / or the operating systems
without sharing computing time for execution of those

application packages . Accordingly , the same server may

supportmuch more client terminals under the architecture of 10

of the second software application package from said
updated listing of one or more software application
packages;
the server device transmitting the second software appli
cation package to the client terminal device through the
computer network ; and
executing the second software application package by the
processor of the client terminal device using the
resources of the operating system resident in the
memory of the client terminal device .
4 . The method of claim 1, further comprising :
accepting, through the web store , a subscription of the

the present invention than under the architecture of the
related art.
While embodiments consistent with the present invention
operating system installed in the server device; and
have been described in detail, it is to be understood by those
the client terminal device by transmitting the
skilled in the art that various modifications and /or alterations 15 initiating
operating system to the client terminal device through
may be made without departing from the spirit and scope of
the computer network so as to perform a booting
the appended claims. Accordingly, it is intended that the
process .
scope of the present invention be defined in the appended
5 . A method for providing software applications over a
claims and their equivalents.
20 through a computer network based on user demands, the
What is claimed is :
1. A method for providing software applications through method comprising :
a computer network based on user demands, the method
comprising:
accepting, through a web store , a subscription of one or
more software application packages from a user ;

accepting, through a web store , a subscription of one or
more software application packages from a user ;
accepting, through the web store , a subscription of a

storage unit remote from a client terminal device of the

25

sending, to the user, a user identification module config
ured to control access of said one or more software
application packages, and coupling the user identifica
tion module to a client terminal device of the user;
a server device authenticating the user by requesting 30

subscription information of the user from the user

identification module through the computer network ;

user;

sending, to the user , a user identification module config
ured to control access of said one or more software
application packages, and coupling the user identifica
tion module to the client terminal device ;

a server device authenticating the user by requesting

subscription information of the user from the user

upon authentication of the user, the server device provid

ing, to the client terminal device of the user, a listing of
one or more software application packages subscribed 35
through the web store in accordance with the subscrip

identification module through the computer network ;
upon authentication of the user, the server device provid
ing , to the client terminal device ofthe user, a listing of

one or more software application packages subscribed
through the web store in accordance with the subscrip
tion information ;

tion information ;

the server device receiving, from the client terminal

device and through the computer network , a selection
of a first software application package from said listing 40

of one or more software application packages ;

the server device transmitting the first software applica
tion package to the client terminal device through the
computer network ; and

the server device receiving , from the client terminal
device and through the computer network , a selection
of a first software application package from said listing

of one or more software application packages;

processor of the client terminal device using resources

the server device transmitting the first software applica
tion package to the client terminal device through the
computer network ;
executing the first software application package by a

of an operating system resident in a memory of the
client terminal device .

processor of the client terminal device using resources
of an operating system resident in a memory of the

executing the first software application package by a 45

2 . The method of claim 1, further comprising :
the server device receiving an update request from the 50

client terminal device ; and
while executing the first software application package on

client terminal device and updating said subscription of

the client terminal device, saving in the remote storage

one or more software application packages in response

unit a data file generated by the first software applica

tion package.
application package from said listing of one or more
6 . The method of claim 5 , further comprising encrypting
software application packages, and
55 the data file saved in the remote storage unit .
providing to the client terminal device an updated listing
7 . The method of claim 1 , wherein authenticating the user
of one or more software application packages in accor comprises requesting the subscription information including
to the update request by removing the first software

a pass code through the user identification module .
dance with the updated subscription .
3 . The method of claim 1 , further comprising :
8 . A method for providing software applications through
the server device receiving an update request from the 60 a computer network based on user demands , the method

client terminal device and updating said subscription of

comprising :

one or more software application packages in response
to the update request by adding a second software

accepting , through a web store, a subscription of one or
more software application packages from a user ;

application package to said listing of one or more
software application packages ;

the server device receiving, from the client terminal

sending , to the user, a user identification module config
65

device and through the computer network , a selection

61a

ured to control access of said one or more software

application packages, and coupling the user identifica
tion module to a client terminal device of the user ;

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 10 of 11

US 9 ,805, 349 B1
10
application package from said listing of one or more

a server device authenticating the user by requesting
subscription information of the user from the user

identification module through the computer network ;

upon authentication of the user, the server device provid
ing, to the client terminal device of the user, a listing of 5
one or more software application packages subscribed
through the web store in accordance with the subscrip
tion information ;
the server device receiving, from the client terminal
device and through the computer network , a selection
of a first software application package from said listing

of one or more software application packages;

the server device transmitting the first software applica
tion package to the client terminal device through the 15

software application packages; and
providing to the client terminal device an updated listing

of one ormore software application packages in accor
dance with the updated subscription .
19 . The method of claim 5 , further comprising :

the server device receiving an update request from the

client terminal device and updating said subscription of

one or more software application packages in response

to the update request from the client terminal device by

adding a second software application package to said

listing of one or more software application packages;

the server device receiving , from the client terminal

device and through the computer network , a selection

of the second software application package from said

computer network ; and

updated listing of one or more software application

executing the first software application package by a
processor of the client terminal device using resources
of an operating system resident in a memory of the

wherein the method further comprises :

packages ;
the server device transmitting the second software appli
cation package to the client terminal device through the
computer network ; and
executing the second software application package by the

initiating said executing of the first software application 25

memory of the client terminal device.
20 . The method of claim 5 , further comprising :

20
client terminal device ;
20
prior to executing the first software application package ,
the server device verifying a subscription status of the
first software application package ; and

package after the subscription status is verified .

9 . The method of claim 1 , wherein executing the first

software application package comprises executing the first
software application package by the processor without using
30
a web browser application package.

10. The method of claim 1, further comprising accepting

tion of one or more software application packages .

11 . The method of claim 10 , wherein accepting the

resources of the operating system resident in the

accepting, through the web store , a subscription of the
operating system ; and

initiating the client terminal device by transmitting the
operating system to the client terminal device through
the computer network so as to perform a booting

process .

21 . The method of claim 5 , wherein authenticating the
user comprises requesting the subscription information

a payment from the user in accordance with said subscrip

payment comprises accepting the payment periodically .
12 . The method of claim 1, further comprising:

processor of the client terminal device using the

35

prior to powering off the client terminal device, hibernat

including a pass code through the user identification module .

22 . The method of claim 5 , wherein executing the first

software application package comprises:

executing the first software application package by the
processor, while transmitting component parts of the
first software application package to the client terminal

ing the client terminal device by transferring dynamic

data in the memory of the client terminal device to a
non - volatile memory of the client terminal device; and 40

the server device receiving an update request from the
client terminal device and updating said subscription of

client terminal device comprises transferring the dynamic

data in the memory to the non -volatile memory having a
storage capacity same as that of the memory .

device through the computer network .

23 . The method of claim 8 , further comprising:

powering off the client terminal device .
13 . The method of claim 12 , wherein hibernating the

one or more software application packages in response

to the update request by removing the first software

45

14 . The method of claim 1, wherein executing the first
software application package comprises :
executing the first software application package by the
processor, while transmitting component parts of the

application package from said listing of one or more
providing to the client terminal device an updated listing
of one or more software application packages in accor
software application packages ; and

first software application package to the client terminal 50

device through the computer network .
15 . Themethod of claim 1, wherein transmitting the first
software application package comprises transmitting the
first software application package through a wide area
55
network .
16 . Themethod of claim 1 , wherein transmitting the first
software application package comprises transmitting the
first software application package through a wireless net
work .

17 . The method of claim 1, further comprising searching 60
of available software application packages in the web store .

for the first software application package among a plurality

18 . The method of claim 5 , further comprising:
the server device receiving an update request from the
client terminal device and updating said subscription of 65
one or more software application packages in response

dance with the updated subscription .

24 . The method of claim 8 , further comprising:

the server device receiving an update request from the
client terminal device and updating said subscription of
one or more software application packages in response
to the update request by adding a second software
application package to said listing of one or more
software application packages;
the server device receiving, from the client terminal
device and through the computer network , a selection
of the second software application package from said
updated listing of one or more software application
packages ;
the server device transmitting the second software appli
cation package to the client terminal device through the
computer network ; and
executing the second software application package by the

to the update request by removing the first software

62a

processor of the client terminal device using the

Case 1:18-cv-12639 Document 1-1 Filed 12/26/18 Page 11 of 11

US 9 ,805 ,349 B1
resources of the operating system resident in the
memory of the client terminal device .
25 . The method of claim 8 , further comprising :
accepting , through the web store , a subscription of the
operating system ; and
initiating the client terminal device by transmitting the
operating system to the client terminal device through
the computer network so as to perform a booting
process .

26 . The method of claim 8 , wherein authenticating the 10

user comprises requesting the subscription information
including a pass code through the user identification module .

27 . The method of claim 8 , wherein executing the first
software application package comprises :
executing the first software application package by the 15
processor, while transmitting component parts of the

first software application package to the client terminal
device through the computer network .
*

*

*

*

63a

Case: 20-1646

Document: 26

Page: 1

Filed: 09/21/2020

Appeal No. 2020-1646, -1656
THE UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT

RAIN COMPUTING, INC.,
Plaintiff-Appellant,
v.
SAMSUNG ELECTRONICS AMERICA, INC., SAMSUNG
ELECTRONICS CO., LTD., SAMSUNG RESEARCH AMERICA, INC.,
Defendants-Cross-Appellants.

Appeal from the United States District Court for the District of
Massachusetts, Case No. 1:18-cv-12639-RGS, Judge Richard G. Stearns
APPELLANT’S RESPONSE AND REPLY BRIEF
Stephen Y. Chow
Hsuanyeh Chang, PhD
HSUANYEH LAW GROUP, PC
11 Beacon Street, Suite 900
Boston MA 02108
(617) 886-9088
Attorneys for Plaintiff-Appellant

64a

Case: 20-1646

Document: 26

Page: 2

Filed: 09/21/2020

TABLE OF CONTENTS
I.

INTRODUCTION .............................................................................................1

II.

REPLY TO APPELLANTS’ COUNTER-STATEMENT OF THE CASE .....3
A. What the Background and Description Actually Say ...............................3
B. The Parent Application on OS Streaming .................................................7
C. The Application Leading to the ’349 Patent ...........................................10
D. The Proceedings in the District Court .....................................................16
1. Samsung’s Comments About the Complaint ................................16
2. District Court Proceedings on the “Executing” Step ....................18
3. District Court Proceedings on Indefiniteness of the “User
Identification Module.” .................................................................21
4. Samsung Did Not Request Reconsideration of the District Court’s
Determination of Non-Indefiniteness. ..........................................28

III. STANDARD OF REVIEW ............................................................................29
IV. SUMMARY OF ARGUMENT ......................................................................29
V.

ARGUMENT ..................................................................................................30
A. The District Court Erred as a Matter of Law in Rewriting the
“Executing” Step. ....................................................................................30
1. The Specification Makes Clear that Downloaded Applications Are
Executed Under an OS Locally, But Although They May Be
“Installed” in the Server for Such Download, Are Not Precluded
from Local Storage in Non-Volatile Memory. .............................31
2. The Claims Are Clear in Distinguishing Web-Based Execution by
Requiring Execution by the OS in the Client and Do Not Require

65a

Case: 20-1646

Document: 26

Page: 3

Filed: 09/21/2020

Applications To Be Installed or Not Installed at the Server or the
Client. ............................................................................................37
3. Dr. Chang’s Argument that Kirkland’s “Authentication Device”
Could Not Be Added to Cover Is No Disavowal of “Installation”
of a Downloaded Application at the Client Device. .....................39
4. The Interview Regarding the Parent Application on OS Streaming
Resulted in the Recitation of RAM-Residence of the OS that Did
Not and Does Not Preclude “Client-Based Applications.”...........45
5. Dr. Chang’s 2010-11 Business Proposals for OS Streaming Are
Irrelevant to the Scope of the ‘349 Patent. ....................................46
6. The Disclosed Local Non-Transient Storage of the RAM Data Is
an Intrinsic Counter-Example to Samsung’s Arguments. ............47
7. Samsung’s Argument that Continental Circuits Does Not Apply Is
Circular. .........................................................................................49
8. The District Court’s Rewriting of the “Executing” Step Is Wrong
as a Matter of Law.........................................................................50
B. The District Court Correctly Determined that the ‘349 Patent Claims Are
Not Indefinite Under Nautilus. ................................................................52
1. Samsung Ignores the Controlling Law. ........................................52
2. The Full Claims, Read in Light of the Specification, Do Not
Leave Uncertain the Scope of the Invention. ................................54
3. Samsung’s Insistence on an Algorithm Was Met. ........................56
VI.

CONCLUSION ...................................................................................58

66a

Case: 20-1646

Document: 26

Page: 4

Filed: 09/21/2020

TABLE OF AUTHORITIES
CASES
AIA Eng’g Ltd. v. Magotteaux Int’l S/A, 657 F.3d 1264 (Fed. Cir. 2011) ……… 36
Alloc, Inc. v. Int’l Trade Comm’n, 343 F.3d 1361 (Fed. Cir. 2003) …………… 33
Aristocrat Techs. Australia Pty Ltd. v. Int’l Game Tech., 521 F.3d 1328 (Fed. Cir.
2008) ……………………………………………………………………… 53
Biosig Instruments, Inc. v. Nautilus, Inc., 783 F.3d 1374 (Fed. Cir. 2015)
……………………………………………………………… 23, 28, 30, 53
In re Bond, 910 F.2d 831 (Fed. Cir. 1990) ……………………………………… 40
CCS Fitness, Inc. v. Brunswick Corp., 288 F.3d 1359 (Fed. Cir. 2002)
……………………………………………………………… 30, 37, 43, 44
Computer Docking Station Corp. v. Dell, Inc., 519 F.3d 1366 (Fed. Cir. 2008)
…………………………………………………………………………… 42
Continental Circuits LLC v. Intel Corp., 915 F.3d 788 (Fed. Cir. 2019)
……………………………………………………………… 1, 29, 30, 44, 49
Cordis Corp. v. Boston Scientific Corp., 658 F.3d 1347 (Fed. Cir. 2011)
………………………………………………………………………… 41, 43
Core Wireless Licensing S.a.r.l. v. Appele Inc., 853 F.3d 1360 (Fed. Cir. 2017)
…………………………………………………………………………… 47
Edwards Lifesciences LLC v. Cook Inc., 582 F.3d 1322 (Fed. Cir. 2009) ……… 42
In re Giannelli, 739 F.3d 1375 (Fed. Cir. 2014) …………………………… 13, 14
Halliburton Oil Well Cementing Co. v. Walker, 329 U.S. 1 (1946) …………… 24
Howmedica Osteonics Corp. v. Wright Medical Technology, Inc., 540 F.3d 1337
(Fed. Cir. 2008) ………………………………………………………… 46
Irdeto Access, Inc. v. Echostar Satellite Corp., 383 F.3d 1295 (Fed. Cir. 2004)
…………………………………………………………………………… 36

67a

Case: 20-1646

Document: 26

Page: 5

Filed: 09/21/2020

In re Katz Interactive Call Processing Patent Litigation, 639 F.3d 1303 (Fed. Cir
2011) ……………………………………………………………… 41, 43, 56
Liberty Ammunition, Inc. v. United States, 835 F.3d 1388 (Fed. Cir. 2016) …… 39
Media Rights Technologies, Inc. v. Capital One Financial Corp., 800 F.3d 1366
(Fed. Cir. 2015) …………………………………………………………… 57
Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S. 898, 134 S. Ct. 2120, 189
L.Ed.2d 37 (2014) …………………………………………………… passim
On Demand Machine Corp. v. Ingram Industries, Inc., 442 F.3d 1331 (Fed. Cir.
2006) ……………………………………………………………………… 5
Ex parte Pfeiffer, 135 U.S.P.Q. (BNA) 31 (Pat. & Tr. Office Bd. App. 1961) … 15
Phillips v. AWH Corp., 415 F.3d 1303 (Fed. Cir. 2005) (en banc) ……… 24, 30, 50
Power Integrations, Inc. v. Fairchild Semiconductor Int’l, Inc., 904 F.3d 965 (Fed.
Cir. 2018) ………………………………………………………………… 36
Praxair, Inc. v. ATMI, Inc., 543 F.3d 1306 (Fed. Cir. 2008) …………………… 33
Research Plastics, Inc. v. Federal Packaging Corp., 421 F.3d 1290 (Fed. Cir.
2005) ……………………………………………………………………… 41
Ruckus Wireless, Inc. v. Innovative Wireless Solutions, LLC, 824 F.3d 999 (Fed.
Cir. 2016) ………………………………………………………………… 36
SimpleAir, Inc. v. Google LLC, 884 F.3d 1160 (Fed. Cir. 2018) ……………… 51
In re Suitco Surface, Inc., 603 F.3d 1255 (Fed. Cir. 2010) ……………………

39

VirtnetX, Inc. v. Cisco Sys., Inc., 767 F.3d 1308 (Fed. Cir. 2014) ……………… 32
Williamson v. Citrix Online, LLC, 792 F.3d 1339 (Fed. Cir. 2015) ………… 24, 25
STATUTES
35 U.S.C. § 112, ¶ 6 ………………………………………………………

68a

passim

Case: 20-1646

I.

Document: 26

Page: 6

Filed: 09/21/2020

INTRODUCTION
Appellant Rain Computing, Inc. (“Rain” 1) maintains that the claims of its ‘349

patent are clearly and properly directed to delivery over a network – upon selection
by a user authenticated by a server that requests and receives “subscription
information” from a “user identification module,” which thereby “controls access
of” – a software application package to a client terminal for execution at the terminal
by an operating system. Blue Br. at 4-5:
1. Rain maintains its “Statement of the Issues” (Blue Br. at 1-2), but
specifically recasts Samsung’s statement under the proper standard –
whether the district court erred in re-writing of the “executing” step to
preclude local “installation” of the software where there was no “clear,
unmistakable and unambiguous” surrender of that scope under Continental
Circuits LLC v. Intel Corp., 915 F.3d 788 (Fed. Cir. 2019).
2. Whether the district court erred in denying invalidation of the ‘349 patent
claims for indefiniteness where it considered and found no clear and
convincing evidence that the challenged ‘349 patent claims “failed to
inform, with reasonable certainty, those skilled in the art about the scope

1

Rain adopts the abbreviation conventions used in its Corrected Opening Brief for
Plaintiff-Appellant, Doc. 22 (“Blue Br.”) and refers to Cross-Appellants’ Principal
and Response Brief, Doc. 25 as “Red Br.”

69a

Case: 20-1646

Document: 26

Page: 7

Filed: 09/21/2020

of the invention” under Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S.
898, 901 (2014).
Samsung argues that disclosed embodiments with “installation” of an
operating system and applications at the server and “execution” at the client
somehow preclude “installation” at the client (Red Br. at 4 2) However, the claimed
invention is execution at the client processor with an operating system (whether or
not downloaded or “installed” locally) an application transmitted from somewhere
(whether or not “installed” locally), and the specification discloses two counterexamples as options. Samsung would divide the world of software into “unlimited
license” and “on-demand license” and impose a “non-installation” limitation to
achieve that dichotomy. 3

It would ignore whether the claims “inform, with

2

The Abstract (Appx46) refers to an implementation in which an operating system
and application packages are “installed” on a server and in which an operating
system “resident” in the client terminal is used to execute an application at the client
terminal; there is no restriction of “installation” of either the operating system or the
application at the client terminal. Nor do the cited portions of the specification state
such restriction: Appx51, 1:36-41 (“normal” license may allow unlimited use, but
“may be very costly” resulting in “many other types of licenses”), 1:62-2:3 (same as
Abstract), 2:4-14 (same as Abstract), Appx52, 3:3-6 (“may subscribe” to license to
use applications installed on server – nothing about not installing downloaded
applications), 3:57-60 (license to operating system and application installed on
server – nothing about installation of either on client device, Appx52, 5:36-38 (list
of applications sent – nothing about installation on client device).
3

From a single mention of “unlimited”, Samsung would have had the specification
explain “other way[s] of preventing the user from using the software on an unlimited
basis” (Red Br. at 5), the “many other types of licenses” that had arisen in part to
meet that objective (Appx51, 1:36-41) was stated to include the prevalent, browser-

70a

Case: 20-1646

Document: 26

Page: 8

Filed: 09/21/2020

reasonable certainty . . . the scope of the invention.” Rain maintains that the claims
should be read as a whole with the ordinary meanings of their text, subject to the
district court’s construction except for its rewriting of the “executing” step, which
should be reversed.
II.

REPLY TO APPELLANTS’ COUNTER-STATEMENT OF THE CASE
Rain incorporates here its detailed review of the ‘349 patent specification and

claims (Blue Br. at 2-30) and addresses misstatements and new material in
Samsung’s counter-statement.
A. What the Background and Description Actually Say
Samsung incorrectly asserts that “the patent contrasts its ‘on-demand’ model
with prior ‘unlimited’ software licenses” and that it distinguishes “prior art ondemand licenses . . . limited to remotely executed web applications.” Red Br. at 7.
The actual patent text, reviewed in detail at Blue Br. at 6-10, recites general
background and mentions “unlimited” only once (Appx51, 1:39), with the frequent
situation in which “an operating system (OS) and some application packages [are]

based approach (id., 1:49-55), which allows metering of “use” through reliance on
connection with the server (Blue Br. at 7-9). Samsung continues to conflate the ‘349
patent invention with the art from which it was distinguished in the specification
(Appx51, 1:51-55) by arguing that what it calls “on-demand execution”
(distinguished from “on-demand delivery”) requires “verification” each time (Red
Br. at 5).

71a

Case: 20-1646

Document: 26

Page: 9

Filed: 09/21/2020

pre-installed” on the same computing devices assumed in the patent (id, 1:19-21,
Appx48-49 (Figs. 1 and 2)), and the user can later “obtain a license for the OS and/or
the application packages with or without additional fees” (Appx51, 1:29-30). If
“none of the pre-installed application packages can perform [a desired special] task,”
then a “special application package” may be purchased and installed. Id., 1:33-35.
“Normally, the purchase of an application package means purchase of a license
[which] may be very costly.” Id., 1:36-40 (emphasis added). Nothing in the
specification disclaims or distinguishes the above so as to preclude installation of
applications at the client terminal.
The specific technology distinguished was not, as Samsung states,
“unlimited” licenses or “remotely executed ‘web applications’,” 4 but, in the actual
quotation, “running a web application, i.e., under a web browser” (Appx51, 1:5051), that is, at the client device, but not under the web browser. The ‘349 patent
distinguishes that mode of operation – to which “the on-demand license type is
applicable mostly” – by “running the application directly under an OS” (id., 1:52).
This alternative mode is the basis for the limitation in the “executing” step of “using
resources of an operating system resident in a memory of the client terminal device”

4

Red Br. at 7, quoting Appx51, 1:49-55. The specification never refers to an
“unlimited license.”

72a

Case: 20-1646

Document: 26

Page: 10

Filed: 09/21/2020

(Blue Br. at 8-9, 16-17, quoting Appx53, 6:59-7:3), which the district court
improperly rewrote (e.g., Blue Br. at 33).
Samsung’s counter-statement ignores Rain’s detailed explanation of the
specification (Blue Br. at 6-17), drawing conclusions from the specification (Red Br.
at 7-9), no text of which precludes local “installation”. See note 2 supra. The only
assertion (Red Br. at 8) even partly supported is the option in an illustrative
embodiment not to store locally, that might have an advantage of saving space, but
assumes the default option of storing locally (Blue Br. at 14, quoting Appx53, 5:4450). However, another option was to “hibernate” at device shut-down the “dynamic
data” of the RAM in non-transient storage to reload into RAM at re-start to avoid
re-downloading (Blue Br. at 13, quoting Appx43, 5:15-29 and citing Appx54, 9:3645 (claims 12 and 13)). Both options disclose local storage.
Samsung’s repeated resorts to a supposed “key” objective of avoiding “very
costly unlimited time licenses” (Red Br. at 9) ignore the specification’s application
to open source software (Blue Br. at 9, citing Appx51, 2:54-55), record examples of
which include “web-based” applications, of better ways to meter “use” (Blue Br. at
9, citing Appx943-944, Appx946 and Appx958). Samsung argues at Red Br. at 9
that the ‘349 patent invention requires “verifying the user’s subscription each time
the user’s device is powered on” and releasing the application. This is contradicted
by the two storage options reviewed in the last paragraph. Samsung mixes and

73a

Case: 20-1646

Document: 26

Page: 11

Filed: 09/21/2020

matches “unlimited”, “license”, “time” and “use” throughout its arguments from a
single specification mention of “unlimited time period” (Appx51, 1:39-40), and
three mentions of “on-demand license” in two adjacent paragraphs (id., 1:43-49).
The Court may take notice that no software (and thus its license) is forever – software
becomes obsolete or corrupted; frequent update is a way to avoid “unlimited use”.
It may also take notice that over time more client devices are “always on,” such that
software may reside in ever-larger RAM and be used without reloading or redownloading. The ‘349 patent invention is “deliver-on-demand” with “use” possible
later, even much later.
Samsung did not include in its review of the specification the disclosed
structure of the “user identification module.” For reference:
After the user subscribes the services, the service provider may
then issue a user identification device, such as a SIM card, an IC card,
a flash memory drive, a memory card, a CD-ROM, and the like, which
may record subscription information of the user. The user identification
device may be connected with client terminal 200 via EP 250. The
subscription information may include user information, pass code,
account information, subscription details, and/or system configurations
of client terminal 200. In one embodiment, the user identification
device may be integrated with ROM 230 of client terminal 200. For
example, the subscription information may be recorded in ROM 230 of
client terminal 200, if client terminal 200 is provided to the user by the
service provider.

74a

Case: 20-1646

Document: 26

Page: 12

Filed: 09/21/2020

Appx52, 4:27-40. 5
B. The Parent Application on OS Streaming
Rain reviewed in detail the proceedings on the parent ’456 application, which
focused on OS streaming. Blue Br. at 17-20. Samsung’s selective reading of the
Examiner’s interview summary misquotes it as suggesting client RAM for
applications. Red. Br. at 11. Actually, it specifically referred to OS streaming.
At the time of the interview,

the original claim 1 of the parent ‘456

application, filed November 22, 2007, was:
1. A method, comprising:
subscribing services of a service provider operating a server, the server
including an operating system and a plurality of application packages
installed therein;
initiating a client terminal by performing a network booting process
using the operating system installed in the server; and
executing in the client terminal a subscribed application package
installed in the server using resources of the operating system resident
in the client terminal.
Appx1667 (emphasis added). The original ‘456 application also included a system
(apparatus) claim 18, including express “means-plus-function” claim elements.
Appx1669-1670.

5

The specification also provides for alternatives that the user identification device
include “a predetermined network address” of the server (Appx52, 4:55-58) or
“server address” (id., 4:62-64)

75a

Case: 20-1646

Document: 26

Page: 13

Filed: 09/21/2020

Samsung argues that Dr. Chang’s early efforts to attract investment in
proposed implementations should limit the claims actually issued years later.
Samsung offers an undated “to do list” apparently prior to the application.
Red Br. at 13, citing Appx381. A note for discussion was a proposal to have a small
hard disk to optimize operation, but not install software locally. Clearly there was a
possibility that the software could be installed locally.
Samsung offers a February 19, 2010 email requesting discussion of a business
idea of a “software retailer” selectively quoting delivering an operating system and
applications without installation at the client but when in use . . . executed locally on
the client computer.” Red Br. at 14, citing Appx391. Left out was “without using a
web browser” (Appx391 (emphasis in original).) Again, this does not say that client
installation could not be made for either the operating system or the application.
Samsung offers February 2011 emails requesting discussions of a similar
OS/application streaming system. Red Br. at 14, citing Appx362, Appx365. 6
In none of these proposals was it stated that client installation was precluded,
but that it would save user time for installation. This Court may take notice that

6

Samsung also offers a 2011 National Science Foundation proposal for an
OS/application streaming system with storage at the server (Red Br. at 14, citing
Appx371).

76a

Case: 20-1646

Document: 26

Page: 14

Filed: 09/21/2020

while operating systems typically take substantial time for installation, most
applications today do not.
Samsung relies on the ‘456 application Examiner’s interview of a May 27,
2011, interview discussing a “first action” non-final rejection:
Mr. Chang indicated that the inventive entity is the use of a downloaded
OS, with the use of server-based applications, while accessing and
utilizing the permanent storage unit of the server.
Examiners suggested explicit recitation of the use of RAM in the client
terminal, since the OS is downloaded and executed in the client
terminal, and the permanent "storage unit" of the sever is utilized, vs.
any permanent storage unit in the client terminal.
Appx289 (emphasis added). It is clear from the actual quotation that the
suggestion was for RAM for the downloaded OS.
Dr. Chang corrected the summary on June 17, 2011, rejecting the suggested
limitation:
Applicant respectfully notes that, during the interview, Applicant
mentioned several terms, such as "server-based applications," "Live
CD," and "Desktop Virtualization,'' etc., merely for the purposes of
illustration and explanation. Applicant submits that Applicant's claims
may cover other examples or embodiments, such as "client-based
applications." Accordingly, Applicant declines to subscribe to any
limitations not recited in the claims.
Appx1503 (emphasis added). Dr. Chang amended claim 1 explicitly reciting “using
the resources of the operating system resident in the random access memory of the
client terminal” drawn directly from the specification (Appx53, 6:65-66) among
many adjustments to the text – none of which limited any other storage of operating

77a

Case: 20-1646

Document: 26

Page: 15

Filed: 09/21/2020

systems or applications in the client terminal or of user data sent to, retrieved from
or modified in the “storage unit” at the server. Appx1495-96. Dr. Chang canceled
the “means-plus-function” apparatus claim. Appx1499.
After a final rejection on different art (Appx1446), Dr. Chang requested
continued examination on November 28, 2011, with claim 1 further amended to
include the recitation of a “user identification device” for the first time, adding the
following:
receiving a user identification device from the service provider after
completion of the subscription step the user identification device
containing user information for identifying and authenticating a
subscribed user;
connecting the user identification device to an extension port of a client
terminal and powering on the client terminal;
Appx1408 (emphasis added).

It was clear from this claim language and the

description in the specification that the user identification device was a storage
device configured to be connected to the extension port (EP) 250 (for example, a
universal serial bus (USB) port, or a card reader)” (Appx52, 3:29-31).
C. The Application Leading to the ’349 Patent
The OS streaming ‘456 application was ultimately abandoned, and Dr. Chang
filed the ‘217 application in 2013, for methods of “providing software applications
over a communication network based on user demands” (Blue Br. at 20) – not “payper-use” – leading to the patent in suit, as explained in detail at Blue Br. at 20-24.

78a

Case: 20-1646

Document: 26

Page: 16

Filed: 09/21/2020

Regarding Samsung’s cross-appeal, claim 20 in the application (that resulted in
claim 1 of the ‘349 patent) recited the following actions on a “user identification
module”:
sending a user identification module to the user, the user identification
module being coupled to a client terminal device of the user;
authenticating the user by requesting subscription information of the
user through the user identification module;
Appx889 (emphasis added). “User identification module,” with a connotation of
including software, was substituted for the ‘456 application “user identification
device” and contrasted with “client terminal device” in the same phrase, which
clearly was hardware. 7 As in the ‘456 application, a structural constraint included
the “coupling.”
The “user identification module” was further limited on September 8, 2013,
in response to a restriction requirement, not prior art:
sending, to the user, a user identification module to the user for
accessing said one or more application packages, the user identification
module being coupled to a client terminal device of the user;
Appx804 (showing amendment).

7

In addition to the contrast, there is the connotation of “modularity.” Figs. 1 and 2
show the use of “module” in the ‘349 patent in “billing module 140” and “backup
module 160” as software modules integrated in server 100, a “device.” Appx48-49.

79a

Case: 20-1646

Document: 26

Page: 17

Filed: 09/21/2020

In a January 22, 2014 office action, the Examiner challenged the “for
accessing” language as an “intended use,” and “MPEP § 2103 I C states that
language that suggests or makes optional but does not require steps to be performed
or does not limit a claim to a particular structure does not limit the scope of a claim
or claim limitation.” Appx753. Dr. Chang responded on February 14, 2014, by
further amending claim 20, including: 8
sending, to the user, a user identification module configured to control
access of for accessing said one or more software application packages,
and coupling the user identification module being coupled to a client
terminal device of the user;
Appx711 (showing amendment).

With the removal of arguably means-plus-

function (“module for accessing”) language, this made clear the non-optional
“configuration” of the “user identification module” as an object or a subject of the
actions in performing the controlling steps, including the clearly stated “coupling”
step. To meet the Examiner’s challenge, “claim 20 has been amended to recite ‘a

8

Dr. Chang also added language that the application packages were “installed in a
server device,” but on June 18, 2014, deleted the reference there to “server device”
and moved it to be the subject of the “authentication” step doing the requesting of
the subscriber information from the user identification module, of the “providing”
step of providing the application list, of the “receiving” step of a user selection, and
of the “transmitting” step of the application to the client terminal. Appx194. Also
Appx195-197. This resulted in the issued claims which do not require nor preclude
“installation” of applications on any particular device, only that the server causes
transmission to the client of selected subscribed applications.

80a

Case: 20-1646

Document: 26

Page: 18

Filed: 09/21/2020

user identification module configured to control access of said one or more software
application packages,’ (emphasis added).” Appx725.
[T]o meet a claimed method step concerning the claimed user
identification module, the cited references must teach or suggest
something that is configured to control access of one or more software
application packages, as required by amended claim 20. Anything in
the cited references that is merely capable of controlling access of one
or more software application packages cannot meet the recited claim
limitations. See, In re Giannelli, No. 2013-1167, Slip. Op. at 8 (Fed.
Cir. Jan. 13, 2014).
Appx727-728 (emphasis in original). This actual amendment was central to the Dr.
Chang’s arguments against the Examiner’s combination of Cover and Kirkland – not
that the ‘349 patent was distinguished from Kirkland by precluding local
“installation” of applications, as argued by Samsung citing Dr. Chang’s introduction
of his amendments (Red Br. at 12, citing Appx727).
Samsung’s only prosecution history argument for rewriting the “executing”
step to preclude local “installation” is its selective quotation (Red Br. at 12-13, 3132) of Dr. Chang’s arguments in five sections of his sixteen pages of remarks
(Appx724-740) against combining Cover and Kirkland (Appx728-736) reviewed in
greater detail in Rain’s review (Blue Br. at 21-22). Samsung mischaracterizes Dr.
Chang’s argument as “Kirkland’s disclosures of software packages like a streaming
media player and web browser were inapposite because they ‘are included in the
client device . . . not in [the] server’” (Red Br. at 12, citing Appx731). The quoted
language, out of seven paragraphs of that one of five sections (Appx730-732), not

81a

Case: 20-1646

Document: 26

Page: 19

Filed: 09/21/2020

only ignores descriptions of Kirkland’s system, and the fact that it was the
authentication, not software packages that were inapposite, but edits out the
emphasis in the original: “not in the streaming server” (Appx 731 (emphasis in
original). It is because none of the applications used by the Kirkland client are “in”
the media-streaming server and thus no access is required for such non-existent
applications that “Kirkland’s authentication device cannot be configured to control
access of one or more [non-existent] software application packages installed in a
server device” and Kirkland also fails to teach “sending to the user, a user
identification module configured to control access of said one or more software
application packages” (Appx731). This distinguishing of Kirkland, among other
arguments, as not needing downloading of application (and thus authentication by
the server) is no disclaimer of local installation of downloaded applications.
Dr. Chang argued to the Patent Trial and Appeal Board (“PTAB”), among
other things, that the Examiner erred in applying Kirkland’s “authentication device”
that merely was “capable of” being used to control access of software applications
and that that device was distinguished from claim 20’s “user identification module
configured to control access of software application packages” where the module
was also part of “sending” and “authenticating” steps. Appx552-553, citing In re
Raymond Giannelli, 739 F.3d 1375, 1379 (Fed. Cir. 2014) (“adapted to” ruled to be
more limiting than “capable of”).

82a

Case: 20-1646

Document: 26

Page: 20

Filed: 09/21/2020

The Examiner and conferees (Primary and Supervisory Examiners) further
defended Examiner’s original resort to the MPEP § 2103(I)(C) rule about “optional”
language, determining in its context of a method claim, the limitation ‘user
identification module configured to control access of said one or more software
application packages,’ does not invoke 112, 6th paragraph, or 112(f).” Appx531
(emphasis added). 9
Dr. Chang replied that the language of claim 20 “do[es] not suggest or make
anything optional. Rather, it requires that the claimed method steps be performed to
a particular user identification module specifically configured to control access of
one or more software application packages. Accordingly, the Examiner's citation to
MPEP § 2103(I)(C) is irrelevant.” Appx487 (emphasis in original).
In 2017, a PTAB panel of three administrative patent judges reversed the
Examiner’s rejection of the ‘349 patent claims for improperly combined references,
but without addressing Dr. Chang’s other arguments. Ex parte Chang, Appeal No.
2015-003805, Decision on Appeal (PTAB Aug. 23, 2017), Appx471-477.

9

The three Examiners agreed that 35 U.S.C. § 112 para. 6 (now 35 U.S.C. § 112(f),
referred to here as Section 112 ¶ 6) would not be invoked to apply a specification
description of structure for the “user identification module” to differentiate the
authentication device of Kirkland. Appx531. The Examiner had opined that the
relevant structure for a method claim “must affect the method in a manipulative
sense and not amount to the mere claiming of a use of a particular structure.”
Appx642, citing Ex parte Pfeiffer, 135 U.S.P.Q. (BNA) 31 (Pat. & Tr. Office Bd.
App. 1961).

83a

Case: 20-1646

Document: 26

Page: 21

Filed: 09/21/2020

D. The Proceedings in the District Court
Rain described in detail the proceedings in the district court relevant to its
appeal of the district court’s rewriting of the “executing” step. Blue Br. at 24-30. In
particular, Rain demonstrated that the district court was improperly swayed by at
least Samsung’s (1) repeated mischaracterization of all “on-demand licensing” as
releasing a downloaded application upon powering off – a representation belied by
the example of hibernation in the specification; and (2) mischaracterization of Dr.
Chang’s distinguishing of Kirkland. The district court heard but did not cite any
extrinsic evidence.
Rain responds hereto Samsung’s characterization of the proceedings,
including its characterization of the district court’s determination of nonindefiniteness of the term offered by Samsung for construction, that on its crossappeal, it characterizes as a free-standing “user identification module” requiring
further specification of structure, rather than as the object of several steps.
1. Samsung’s Comments About the Complaint
It is unclear what is the point of Samsung’s comments about the complaint
(Red Br. at 15). The text it cites (Appx61, ¶16) states:
Samsung allows users of the electronic devices to select certain
software applications for delivery through the app stores. Samsung
controls access to the apps stores by requiring the users to register,
subscribe, and/or agree to certain terms before that user can receive
apps offered through the app stores. Users of the electronic devices who
desire to use the apps available through the app stores must download

84a

Case: 20-1646

Document: 26

Page: 22

Filed: 09/21/2020

and install those apps on the electronic devices. Samsung further
establishes the manner in which the users perform such download and
installation by requiring the users to access the app stores to do so.
Samsung does not contest that it controls access to applications based on
subscription which are delivered by download upon user selection (demand).
Whether or not this is “unlimited” after it is delivered may depend on the “life” of
the application, which Samsung may determine.
Samsung would infringe under the district court’s understanding that loading
an application from non-volatile memory into RAM means that it is not “installed in
non-volatile memory during execution” – the premise on which the district court
distinguished the ‘349 patent counter-example to Samsung’s argument of required
“re-downloading” (Appx20 n. 8). This understanding may be attributed to Samsung
counsel’s representation at the Markman hearing:
And we can see here the graphic. You download it, install it in the mass
storage device. And when you want to use that software, what you do,
you turn your machine on, it's right there ready to go. And it goes into
temporary memory, called "RAM," and it's running through the RAM.
And when you shut your computer off, it goes right back to mass
storage.
Appx1772, 19:5-11 (emphasis added). This representation that the application could
not be in mass storage at the same time that it was loaded from there into RAM was
baseless and incorrect and just one of multiple incorrect depictions by Samsung
counsel about “on-demand licensing” not allowing local installation.
Appx1749-54, Appx1774, Blue Br. at 25-28.

85a

Also

Case: 20-1646

Document: 26

Page: 23

Filed: 09/21/2020

2. District Court Proceedings on the “Executing” Step
Samsung states (Red Br. at 16) that it argued that “the executing step cannot
be extended to cover local installation,” while it admits that Rain argued that the
executing step need not be construed – extended or restricted. 10 In fact, except the
attorney-framed testimony of its expert (properly not relied on by the district court),
Samsung’s recited evidence shows that its argument was addressed to the
proposition that the subject applications are “server-based,” even though the term
does not appear in the claims. Thus, its cited Appx92 (Red Br. at 16) was part of its
argument Appx91 that “[t]he ‘software applications are ‘server-based’,” and it
describes “the prosecution history [as] addressing server-based installation” (Red
Br. at 16). Whether or not applications are “based” at a server for delivery to
multiple users (“not” for Kirkland) or are merely “transmitted” (as claimed) by the
server upon authenticated selection (demand) does not preclude some storage of the
delivered application at least until execution at the client device, and maybe multiple
executions (as in Samsung devices).

10

Contrary to Samsung’s allegation of non-“elaboration,” Rain argued for the plain
and ordinary meaning, without construction, arguing against Samsung’s proposed
rewriting as improperly based on selective misquoting of the prosecution history and
noting that claims 12 (Appx52, 9:36-41) and 13 (Appx52, 9:42-45) called for storage
of “dynamic data” (including application instances) in persistent memory between
“power ons.” Appx1692-1693. Rain made the same argument earlier, referring to
how “installation” was used in the specification. Appx430-431.

86a

Case: 20-1646

Document: 26

Page: 24

Filed: 09/21/2020

Samsung at the Markman hearing repeatedly – and incorrectly – maintained
that a constant server connection was required by the ‘349 patent invention for
execution of the application. Blue Br. at 25-27.
When I wanted to use these applications, I would go communicate with
the server, use them locally through the browser, and that's great
because I got my on-demand license. When I shut the computer off, that
connection is gone. These applications are no longer sitting on the
computer. They're gone. All right? That's how the on-demand concept
comes into play.
Appx1751, 18:11-17 (emphasis added).
And this slide is really important, your Honor, and we're going to talk
about it later. This is where we terminate the application. So I've
terminated that connection. And the arrows go both ways, which means
that termination happens over the network. The application is gone. It's
not on my machine after that termination.
Appx1754, 21: 18-23 (emphasis added). Fig. 3 (Appx50) does show two arrow
heads, but not a common line between them as shown for some other processes. The
actual description is that they are independent: “client terminal 200 may inform
server . . . Client terminal 200 may then release the running application.” Appx53,
6:11-14 (emphasis added).
Remember we talked about in the tutorial when you want to write a
Word document, your Honor, you turn your commuter on, it's there.
You're not going to a server or downloading the application. The very
method that's claimed contemplates that I'm -- in order to go execute,
which is the last step in the claim, execute, in order to do that, I have to
go through all these steps.
Now, if this invention was about just turning a machine on and there's
an application, why would I go through all these steps every time I had

87a

Case: 20-1646

Document: 26

Page: 25

Filed: 09/21/2020

to do the execution? So even the claim structure, admittedly not
specifically saying "don't install," the whole formulation of the claim is
about going through these steps to get to my execution point.
Appx1772, 39:4-16 (emphasis added). An answer is that one might go through the
steps to get an updated or an uncorrupted copy of the subscribed software.
Moreover, if the user doesn’t choose to “terminate,” the application may be executed
repeatedly.
And you see here from the figure [Samsung’s slide] it's terminating.
I've got that arrow in both directions. We're terminating it from the
RAM 220. That means we're running this application in that RAM 220,
and then when you terminate it, it is gonzo. That's what they're saying
here.
Appx1774, 41:13-17 (emphasis added). Again, each arrow is optional. Appx50
(Fig. 3), Appx53, 6:10-15.
Samsung misrepresented Dr. Chang’s argument about Kirkland not
authenticating at the server as the ‘349 patent not storing applications locally:
Again, the same point. They're making this specific point that the prior
art's no good because it's storing it locally.
Appx1777, 44:17-19. Rain refuted this point. Blue Br. at 21-23, also pages 12 to
14 supra.
Rain reviewed the independent claims as explained by the total process,
without further construction (Appx1739-1742), that they were “fully explained
within the claim itself with perhaps a little help from the specification, but not much”
(Appx1741, 8:11-13).

88a

Case: 20-1646

Document: 26

Page: 26

Filed: 09/21/2020

there is no special thing about "installed" other than it is in what is
called "non-volatile memory," something is a little bit more long term
than random access memory.
Appx1743, 10:18-20.
In rebuttal to Samsung’s presentation, a reference in the slide to Ubuntu,
argued to be the OS analog of the patent (Appx1753, 20:11-14), dispute, referring to
Tuzi, “there is background for downloading and actually storing at the client
computer.” Appx1753-1754.
Rain criticized in detail the district court’s decision to adopt Samsung’s “payper-use” characterization of the ‘349 patent that was founded on Samsung’s
incorrect characterizations of the specification and Dr. Chang’s arguments about the
inapplicability of Kirkland. Blue Br. at 25-29.
3. District Court Proceedings on Indefiniteness of the “User
Identification Module.”
The district court found the “hardware” structure that Samsung proposed, but
declined to modify the structure of the object of several steps of the challenged claim,
“a user identification module configured to control access of said one or more
software application packages” with Samsung’s proposed “function,” “to control
access to one or more server-based 11 software application packages to which the user
11

Even in its Opening Claim Construction Brief proposing the same hardware
structure and functional limitation (Appx103), rewriting the claims to be limited to
its views of “on-demand” operation and “server-based” applications were
Samsung’s priority (Appx90-96). Rain opposed this rewriting. Appx425-426,

89a

Case: 20-1646

Document: 26

Page: 27

Filed: 09/21/2020

has a subscription” (Appx10, Appx1728). That is, Samsung sought to put functional
limitations on “a user identification module,” as though the user identification
module was itself the means for control, rather than being “configured to control” as
the appropriately configured object (with appropriate subscription information
stored, adapted to the actions) of the “sending” and “coupling” steps (e.g., Appx54,
7:26-29) and the “requesting” sub-step of the “authenticating” step (e.g., id., 7:3032) of the challenged claims, which with the other steps control user selection or
access of the subject software application packages.
Rain made this argument of looking to the steps of the claims acting with the
configured user identification module for any requisite structure both in arguing
against the application of Section 112 ¶ 6, and in applying it. 12 Appx423-425,
Appx1684-1688, Appx1738-1739, Appx1742-1743. Rain argued that the module
would store the appropriate subscription information, be configured to be coupled to
the client device and respond to requests for the information (using common
software algorithms). Appx423-424, Appx1766-1767. It explained, with a detailed

Appx1688, Appx1689-1670. The district court rejected the terms, finding that “the
claimed methods are concerned with providing software applications based on a
user’s subscription, not the ‘on demand use’ of the application.” Appx30.
12

Rain argued that “module” had a meaning imparted from its amendment from
“device” to connote software as well as hardware implementations. Appx421-422,
Appx1679-1680, Appx1684-1686. Rain supports the district court’s decision that
“user identification module” is adequately claimed in its hardware implementation.

90a

Case: 20-1646

Document: 26

Page: 28

Filed: 09/21/2020

review of the context, that “specifically configured” did not suggest a “specially
programmed” algorithm, but merely distinguished Kirkland’s non-control of access
to software application packages as opposed to media files, as clear from the very
page on which the language appears (Appx487). Appx1680-1683, Appx1687-1688.
Rain further argued that the three Examiners defending the USPTO on Dr.
Chang’s appeal – who were familiar with what the claims claimed and were proxies
for a POSA – had determined that in the context of a method claim, rather than an
apparatus claim, the limitation ‘user identification module configured to control
access of said one or more software application packages,’ does not invoke 112, 6th
paragraph, or 112(f).” Appx1682-1684 quoting Appx531. Rain argued that this, as
well as the three Administrative Patent Judges on the PTAB who voiced no issue
over the definiteness of the claim, corroborated Rain’s reading of the intrinsic record
of the steps of the claims invoking the user identification module (and the supporting
specification) to reasonably delineate the scope of the claims under Nautilus, Inc. v.
Biosig Instruments, Inc., 134 S. Ct. 2120 (2014), and that Samsung’s proffered
evidence was not the kind of clear and convincing evidence that this Court requires
for invalidation of a claim for indefiniteness under Biosig Instruments, Inc. v.
Nautilus, Inc., 783 F.3d 1374 (Fed. Cir. 2015). Appx1686-1688, Appx1768.
The district court did not address Rain’s arguments of the inapplicability of
Section 112 ¶ 6 (Appx423-424, Appx1684-1686), but only referred to “Rain’s

91a

Case: 20-1646

Document: 26

Page: 29

Filed: 09/21/2020

suggestion” in a footnote stating that Rain argued that Section 112 ¶ 6 did not apply
only because “‘user identification module’ appears in a method rather than in an
apparatus claim” (Appx13, n. 4).

Rain distinguished at the hearing the

overwhelming number of Samsung’s authorities as addressed to apparatus claims, 13
but distinguished the two method claim cases characterized by Samsung as “nested
means-plus-function” as involving an actual recitation of “means-plus-function” and
a “very generic situation.” Appx1765-1766. Rain reviewed the intrinsic disclosure
of the structure of the user identification, noted the three Examiner’s determination
that Section 112 ¶ 6 did not apply, and closed that Samsung failed to present clear
and convincing evidence on the issue. Appx1766-1769.
Despite Rain’s presentation of the intrinsic evidence on the role and action of
the user identification module – in support of “control of access” – in the
specification and claims, the district court seized upon the notion that “module” was
necessarily a “nonce word” devoid of structure, based on citations to the word in
apparatus claim cases (Appx11-12) and misunderstanding Rain’s explanations

13

The text of Section 112 ¶ 6 was enacted in 1952 to provide patent applicants the
privilege of electing to claim functionally, overruling the earlier invalidation in
Halliburton Oil Well Cementing Co. v. Walker, 329 U.S. 1 (1946), of an apparatus
claim setting forth structure only in two means-plus-function elements. See
Williamson v. Citrix Online, LLC, 792 F.3d 1339, 1358, 1356 (Fed. Cir. 2015)
(Newman, J. dissenting). “Means-plus-function claiming applies only to purely
functional limitations that do not provide the structure that performs the recited
function.” Phillips, 415 F.3d at 1311.

92a

Case: 20-1646

Document: 26

Page: 30

Filed: 09/21/2020

otherwise. 14 “Having [thus] determined that the phrase ‘user identification module’
triggers Section 112, para. 6,” without further analysis, the district court proceeded
to apply the means-plus-function formality of Williamson.

Appx13, quoting

Williamson, 792 F.3d at 1350 (“This passage, as lengthy as it is, is nonetheless in a
format consistent with traditional means-plus-function claim limitations.”)
Contrary to Samsung’s characterization (Red Br. at 20) that the district court
“jettison[ed]” the “function” for which it sought structure under Williamson, the
district court reviewed the intrinsic evidence of how the “function” of “control[ing]
access of . . . software application packages” is performed as claimed (and disclosed)
and the central role of the user identification module in the steps recited for
performing that function (Appx14-15). The district court’s description was a subset
of the description of the claims and specification argued by Rain to make Section

14

The district court cited (Appx12-13) to the part of Rain’s argument which opposed
Samsung’s argument for limiting “user identification module” to a hardware
implementation, where Rain argued that the free-standing word “module” had “a
plain meaning of a component unit that serves a function” that included in the
context of the specification a “logical unit” (Appx421-422). This was hardly the
“black box” means-plus-function scenario the district court assigned to Rain’s words
(Appx12). Far from even suggesting that “user identification module” was a Section
112 ¶ 6 election to substitute a claimed function for claiming structure, Rain set forth
in detail the description in the specification and prosecution history the structure,
function (storage), and service role of the user identification module. Appx422 nn.
3 & 4. In the part of that opening brief actually addressing the applicability of
Section 112 ¶ 6, Rain recited the structure confirmed in the claims and understood
by the POSA. Appx423-424; also A1684-1686,

93a

Case: 20-1646

Document: 26

Page: 31

Filed: 09/21/2020

112 ¶ 6 inapplicable (Appx423-424, Appx1684-1686, Appx1738-1739, Appx17421743) and to meet Section 112 ¶ 6 if applied (Appx424-425, A1686, Appx17381739, Appx1742-1743). 15
On the district court’s analysis of the “control access function” that it read
under Section 112 ¶ 6 into “user identification module,” 16 as receiving and
responding to requests for subscription information thereby controlling access to the
subject application (see also notes 14 and 15 supra), it found adequate structure in

15

The district court is not entirely correct that the steps it recited – and no other
algorithm (steps) – “perform[] the access control function” and that “the sole access
control mechanism is the request and retrieval of a user’s subscription information
from a ‘user identification device’” (Appx15 (emphasis added)). The claims require
the server to authenticate by the request “though the computer network” (Appx54,
8:30-3) and to provide to the client device a listing of access-allowed applications
(id., 8:33-37), which, as argued by Rain, include structural implications for the
configuration of the user identification module to “control access.” However, the
district court is correct that he user identification module is “configured to” and
necessary (versus optional) for the “control access” aspect of the claims performed.
The module was not characterized to perform the entire “control access” process as
the kind of short-cut functional claiming allowed by Section 112 ¶ 6 for applicants
to elect. Samsung’s argument otherwise ignores the plain meaning of the claims and
the specification.
16

It rejected Samsung’s proposed function of controlling access to “server-based”
applications as possibly (but not specifically) implicated in the server transmission
limitation, but not was not implicated in the proposed limitation of “user
identification module.” Appx14 n. 5.

94a

Case: 20-1646

Document: 26

Page: 32

Filed: 09/21/2020

the disclosure of the “user identification module” as “a hardware device capable of
recording a user’s subscription information.” Appx15-16. 17
Samsung complains about an alleged failure of the district court to consider
its alleged undisputed evidence, 18 but fails to acknowledge that the district court had

17

The district court did not address Rain’s argument that the user identification
module should include software implementations, which was a reason for the
amendment from “device” to “module,” a term used in the specification for standard
software modules (Appx421-422, Appx1679-1680, Appx1684-1686). However, its
finding of disclosure of appropriate structure is firmly supported by the hardware
example in the specification (Appx15, quoting Appx52, 4:27-40; see Appx424,
Appx1685)
18

Samsung cites opinions of its expert, Dr. Chatterjee, which are narrowly directed
to Samsung’s legal theory and were not “unopposed” but addressed by Rain and the
district court. For example, Dr. Chatterjee opined (Appx133, ¶ 67) that the only
thing he deemed relevant to the supposed means-plus-function phrase was the
specification’s recitation of hardware storage devices and that such devices needed
“special programming or software” to be “configured to control access.” Rain
provided extensive intrinsic evidence on the operation of controlling access and the
role of the user identification module, including the use of open source routines for
straightforward operations. Appx423-425, Appx1684-1688, Appx1767 (referring to
Appx298-299, cited in Red Br. at 21). In view of this, including its express reference
to that very paragraph of Dr. Chatterjee’s opinion, the district court found:
the structure of “a user identification module” is not a general computer
performing a specialized function requiring a disclosure of the
function’s algorithm. Recording and retrieving a user’s subscription is
precisely the intended and ordinary function of “a hardware device
capable of recording a user’s subscription information.”
Appx16 & n. 6 (citation omitted). Samsung also cites the supposed concession at
Appx178-179 by Dr. Chang the module must be “specifically configured” instead
of merely “capable of” (Red Br. at 6, 21, 57), but Rain previously explained that the
language simply meant the claimed identification module had to be specifically
structured to operate to control access to applications rather than media files

95a

Case: 20-1646

Document: 26

Page: 33

Filed: 09/21/2020

considered Samsung’s contention about “configured to control access” and rejected
it under the applicable clear and convincing evidence standard that Samsung
nowhere mentions in its brief. Compare Red Br. at 20-21 with Appx16 n. 6.
The district court correctly concluded under that standard of Biosig
Instruments, Inc. v. Nautilus, Inc., 783 F.3d 1374, 1377 (Fed. Cir. 2015), that
Samsung failed to carry its burden of showing “[A] patent is invalid for
indefiniteness if its claims, read in light of the specification delineating the patent,
and the prosecution history, fail to inform, with reasonable certainty, those skilled
in the art about the scope of the invention.” Appx16 n. 6, quoting Nautilus, Inc. v.
Biosig Instruments, Inc., 572 U.S. 898, 901 (2014).
4. Samsung Did Not Request Reconsideration of the District
Court’s Determination of Non-Indefiniteness.
Having prevailed on its proposal to limit the user identification module to the
hardware storage structure exemplified in the ‘349 patent specification, Samsung did
not seek reconsideration of the district court’s determination that any software

(Appx1687) – it said nothing about special-versus-ordinary programming, and the
district court correctly decided that no special programming was required (Appx16
n. 6). Finally, Samsung cites (Red Br. at 6, 21, 57) to its deposition testing of Dr.
Chang’s memory of decade-earlier open source software (Appx297-299), which
Rain argued to be the kind of extrinsic evidence to be disfavored (Appx1687), but
in any case showed that common open source software could have been used
(Appx1767); again, the district court correctly decided that no special programming
was required (Appx16 n. 6).

96a

Case: 20-1646

Document: 26

Page: 34

Filed: 09/21/2020

needed for the user identification module “configured to control access” by its
receiving inquiry for and returning subscription information was ordinary and did
not require additional disclosure.
III.

STANDARD OF REVIEW
The parties agree that claim construction is ultimately a question of law that

this Court reviews de novo as reviewed in Continental Circuits LLC v. Intel Corp.,
915 F.3d 788, 795 (Fed. Cir. 2019). Blue Br. at 30-31, Red. Br. at 23. However,
Samsung may not circumvent the Continental Circuits standard that “[t]o disavow
claim scope, the specification must contain ‘expressions of manifest exclusion or
restriction, representing a clear disavowal of claim scope’,” 915 F.3d at 797.
Samsung’s cross-appeal to reverse the district court’s non-indefiniteness
determination is subject to the “clear and convincing evidence” standard for all
invalidity claims in district court as expressly applied by this Court in Biosig
Instruments, Inc. v. Nautilus, Inc., 783 F.3d 1374, 1377 (Fed. Cir. 2015). Samsung
must show that the district court erred as a matter of law or was not supported by
substantial evidence.
IV.

SUMMARY OF ARGUMENT
Rain incorporates its opening brief showing that the district court erred as a

matter of law in rewriting the “executing” step and replies here to Samsung’s

97a

Case: 20-1646

Document: 26

Page: 35

Filed: 09/21/2020

responses that repeat its unsupported “unlimited license” versus “on-demand
license” argument.
The district court did not err in rejecting under Nautilus, Inc. v. Biosig
Instruments, Inc., 572 U.S. 898 (2014), Samsung’s invalidity argument.
V.

ARGUMENT
A. The District Court Erred as a Matter of Law in Rewriting the
“Executing” Step.
Rain has shown that the district court erred as a matter of law in rewriting the

“executing” step by (1) impermissibly departing from the plain claim language
which set forth the actual distinction from the prior art of executing a downloaded
application under a web browser in mis-“alignment” with description of the
invention under Phillips v. AWH Corp., 415 F.3d 1303, 1316 (Fed. Cir. 2005) (en
banc) (Blue Br. at 32-36) and (2) failing to find Continental Circuits clear and
unmistakable disavowal under its own adopted analysis under CCS Fitness, Inc. v.
Brunswick Corp., 288 F.3d 1359, 1366 (Fed. Cir. 2002). Blue Br. at 37-49.
Samsung did not address these arguments directly, but continued to press –
contrary to the true description in the claims and supporting specification – its false
dichotomy of “unlimited license” and “on-demand license” and mis-placing the
technology claimed by the ‘349 patent in the latter.

98a

Case: 20-1646

Document: 26

Page: 36

Filed: 09/21/2020

1. The Specification Makes Clear that Downloaded Applications
Are Executed Under an OS Locally, But Although They May Be
“Installed” in the Server for Such Download, Are Not Precluded
from Local Storage in Non-Volatile Memory.
Despite Rain’s detailed review of the specification showing that the
distinction from the prior art was the execution of downloaded applications under an
OS locally (Blue Br. at 6-17, supplemented here at Section II(E)(2) supra), Samsung
passes off open-ended examples as unambiguous, cites authorities which Samsung’s
own descriptions distinguish from the present facts, and ignores specification
counter-examples to its false dichotomy:
1. Blue Br. at 24-25: The Abstract summarized an example of where the
OS and subscribed applications may be found for downloading or
“streaming”. The issued claims are agnostic as to the location of the
subscribed applications for downloading (only requiring that the server
authenticates subscription and causes transmission upon user
selection).

The Abstract does not preclude local “installation” of

subscribed applications along with previously installed applications.
2. Blue Br. at 25: The disclosed illustrative embodiment (with internal
variations) was for OS-and-application “streaming” from the server,
and thus is “consistent” with the OS and subscribed applications being
sourced from the server. As detailed at Blue Br. at 10-17, there is no
preclusion of local installation of an application, where non-transient

99a

Case: 20-1646

Document: 26

Page: 37

Filed: 09/21/2020

storage of a downloaded application was optional (id. at 14), as was
“release” from memory (id. at 15), and one variant allowed nontransient storage of both OS and applications being run with it for reloading upon start-up (id. at 16).
3. Blue Br. at 25: The above is hardly “‘compelling’ intrinsic evidence’”
that “establishes that in the claimed invention, the applications are
installed on the server, not on the client terminal,” and the district court
was clearly erroneous in so determining from this evidence. Dr. Chang
declined to add the “server-based” limitation to the OS streaming
claims and reserved the possibility of “client-based applications.” Blue
Br. at 16, quoting Appx1503.

On non-local “installation,” the

specification only provides in one variant of the OS-subscribedapplication streaming that the downloaded application is not stored
locally. Blue Br. at 14, quoting Appx53, 5:44-50.
4. Red Br. at 25-26. Samsung’s “supporting” authorities are actually
distinguished by Samsung’s own explanations.
o “Non-local installation” was not “repeatedly and consistently
used to characterize the invention” under VirtnetX, Inc. v. Cisco
Sys., Inc., 767 F.3d 1308, 1318-19 (Fed. Cir. 2014), just as an
option (Blue Br. at 14, quoting Appx53, 5:44-50) and least “a

100a

Case: 20-1646

Document: 26

Page: 38

Filed: 09/21/2020

single embodiment” were disclosed which included storage in
non-transient memory (Blue Br. at 13, quoting Appx53, 5:1529).
o There was no “consistent emphasis on [a] fundamental feature of
the invention” as “non-local installation” under Praxair, Inc. v.
ATMI, Inc., 543 F.3d 1306, 1323-24 (Fed. Cir. 2008). Nonstorage in local mass storage was an option in the illustrative
embodiment – not a fundamental feature – of the invention. Blue
Br. at 14, quoting Appx53, 5:44-50.
o Again, “non-local installation,” disclosed as an option (Blue Br.
at 13, quoting Appx53, 5:15-29), is not an implied “feature”
under Alloc, Inc. v. Int’l Trade Comm’n, 343 F.3d 1361, 1370
(Fed. Cir. 2003). Certainly the “specification read as a whole”
does not lead to “the inescapable conclusion that the claimed
invention must include [the feature] in every embodiment”
(emphasis added).
5. Red Br. at 26-27: Samsung continues its “unlimited license” versus
“on-demand license” dichotomy based on one mention in the
background licenses for “unlimited time period” and three of class of
“on-demand license” (Appx51, 1:39-40, 1:43-49) where some licenses

101a

Case: 20-1646

Document: 26

Page: 39

Filed: 09/21/2020

for unlimited-time licenses may be “very costly” and “on-demand
licenses” arose as a solution. Blue Br. at 6-9, page 6 supra. Samsung
ignores the counter-examples to non-local installation of downloaded
applications (Blue Br. at 6-17, page 4 supra), including as a default
alternative to the disclosed option (Blue Br. at 14, quoting Appx53,
5:44-50) and as non-transient storage (Blue Br. at 13, quoting Appx53,
5:15-29).
6. Red Br. at 27-28: Samsung manufactures an inoperability argument
based on its positing of an “on-demand model” – changed from its
purported “essential feature” of avoiding payment for “unlimited use”
to avoiding “unsubscribed” use. 19 There was no such model. 20 The
claims recite delivery by transmission upon selection from an
authorized list and later execution by the OS at the client terminal.

19

Samsung changed its avoidance of payment for “unlimited license” argument in
face of the open-source (“free”) applicability by citing the issued claims. Red Br. at
27 n. 4. Samsung thus concedes that the claims are not directed to preventing
avoidance of “very costly” payment for “unlimited license.” Again, other than
distinguishing in the background prior art systems that implemented “on-demand
licenses,” the specification only disclosed an option not to consume limited mass
storage, not to avoid “unlimited license”.
20

Samsung’ two incomplete and out-of-context questions and corresponding
answers, Appx294-295 (“better control your software” by verifying subscription),
do not hardly establish such a model.

102a

Case: 20-1646

Document: 26

Page: 40

Filed: 09/21/2020

They nowhere require “re-download” upon each “power on” or “bootup” as posited by Samsung. Even in the illustrative example, there is
an option for avoiding “re-downloading” by storing the OS and
application in non-transient memory and reloading from there. Blue
Br. at 13, quoting Appx53, 5:15-29. The district court erroneously
distinguished this process as not executing the application while it was
also stored in non-transient memory (Appx20 n. 8); the only basis for
this was Samsung’s suggestion that the application could be in both
places at the same time. Page 17 supra, quoting Appx1752.
The prevention of “unlimited use” – however that is defined – is
not a stated objective of the patent, much less a “feature,” much less an
“essential feature.” The download of subscribed application is limited
by the subscription, not its use. See Appx30. This is the same for
Samsung’s accused app store delivery. Only if the application becomes
obsolete or corrupted might “re-download” be required.
Samsung further revised its purported purpose as distribution,
changed from “use”, on an ‘on-demand’ – not unlimited – basis,” then
alleges that local installation somehow makes that purpose
“inoperable.” Red Br. at 27-28. But local installation is irrelevant to
distribution as claimed, and Samsung’s cases, Power Integrations, Inc.

103a

Case: 20-1646

Document: 26

Page: 41

Filed: 09/21/2020

v. Fairchild Semiconductor Int’l, Inc., 904 F.3d 965, 972 (Fed. Cir.
2018) and AIA Eng’g Ltd. v. Magotteaux Int’l S/A, 657 F.3d 1264, 1278
(Fed. Cir. 2011) are irrelevant. 21
7. Red Br. at 28-29: Samsung misquotes Rain’s argument at Blue Br. at
45 as conceding a “preference” for non-installation locally, and then
argues that the “preference” is bolstered by alleged “emphasis” of
“server-based” as the source of downloaded applications in the OSapplication downloading illustrative embodiment. However, “severbased” does not appear anywhere in the specification or claims, and the
specification discloses non-installation only as an alternative option to
the default understanding (Blue Br. at 14, quoting Appx53, 5:44-50,
page 4 supra). Non-mass storage at the client of a downloaded
application was disclosed only as an option of an illustrative
embodiment, unlike the repeated and consistently limiting “group” of
Irdeto Access, Inc. v. Echostar Satellite Corp., 383 F.3d 1295 (Fed. Cir.
2004).

21

Samsung asserts a new argument of “written description,” Ruckus Wireless, Inc.
v. Innovative Wireless Solutions, LLC, 824 F.3d 999 (Fed. Cir. 2016), where a
proposed inclusion of “wireless communication” was proposed to be added to the
scope of “communication.” Here, mass storage is the default “normal” (page 4
supra) and “non-installation” of downloaded applications the optional alternative
(Blue Br. at 14, quoting Appx53, 5:44-50).

104a

Case: 20-1646

Document: 26

Page: 42

Filed: 09/21/2020

2. The Claims Are Clear in Distinguishing Web-Based Execution
by Requiring Execution by the OS in the Client and Do Not
Require Applications To Be Installed or Not Installed at the
Server or the Client.
Rain reviewed in depth the wording of the issued claims. Blue Br. at 4-5.
Samsung simply reproduced claim 1 and argues that it is “consistent” with its
reading of the specification, which is dismantled in the section preceding this one.
However, even if the claims as issued are “consistent” with non-installation
of downloaded applications at the client, they are also “consistent” with the
installation, 22 and the additional limitation proposed by Samsung and accepted by
the district court are disfavored for the reasons reviewed at Blue Br. at 32-49,
particularly the district court’s own standard, CCS Fitness, Inc. v. Brunswick Corp.,
288 F.3d 1359, 1366 (Fed. Cir. 2002) (“we indulge a ‘heavy presumption’ that a
claim term carries its ordinary and customary meaning”).
Samsung argues that the steps of claim 1 of authentication “would make little
sense if the user only needed to authenticate a ‘subscription’ once and then could
download, install and use the software on an unlimited basis.” Red Br. at 30. As

22

Samsung raises and claims that Rain waived the argument that transmission and
receipt of the subscribed application necessarily involves some storage (Red Br. at
31 n. 6). That the downloaded application does not go directly to RAM is clear from
the standard structure of a client device to include a network interface 270 separate
from RAM 220 (Appx48-49). Storage in mass storage 260 or some other nontransient memory does not interfere with the operation of the claimed invention and
is thus consistent.

105a

Case: 20-1646

Document: 26

Page: 43

Filed: 09/21/2020

discussed in section V(A)(1)(6) supra, even with Samsung’s shifting alleged “ondemand” model apparently stabilized for the moment on “unlimited use,” there are
alternatives for preventing “unlimited use” other than by precluding non-transient
storage. Samsung authenticates subscribers for downloads from its app store that
are stored in the client and, like everyone else in the business, offer downloads of
updates or replacements, all of which are limited in use by obsolescence or
corruption. Indeed, the “unlimited use” fully paid-up special applications recited in
the ‘349 patent background (Appx51, 1:19-21) are not forever.

Samsung’s

“‘unlimited time period’ prior art” (Appx51, 1:36-42 23), supposedly including these
steps, are not so described, and, as clear from the specification, it was the running of
the application under the web browser that the ‘349 patent specifically distinguished.
As reviewed at Blue Br. at 32-36, Samsung’s proposed and the district court’s
rewriting of the “executing” step compromised that distinction
Samsung further premises its argument for rewriting the “executing” step on
the supposed inconsistency of the claims as issued with the specification. As
demonstrated in the Blue Br. at 5-17, the claims are consistent with the specification,
perhaps most importantly in specifically distinguishing of execution under the web

23

Samsung also cites to descriptions by Dr. Chatterjee of downloading systems
(Appx60, Appx120) that seem to correspond to Samsung’s “on-demand license”
versus “unlimited license” dichotomy that Samsung baselessly continues to push,
although in mutated form.

106a

Case: 20-1646

Document: 26

Page: 44

Filed: 09/21/2020

browser (Blue Br. at 8-9, quoting Appx51,1:51-55, Blue Br. at 16-17, quoting
Appx53, 6:59-7:3), which the district court’s construction dilutes. 24 Without such
inconsistency, In re Suitco Surface, Inc., 603 F.3d 1255 (Fed. Cir. 2010) and In re
Bond, 910 F.2d 831 (Fed. Cir. 1990), are by Samsung’s own description inapposite,
as is Liberty Ammunition, Inc. v. United States, 835 F.3d 1388, 1399-400 (Fed. Cir.
2016) where the ‘349 patent “unequivocally distinguishes” execution on top of a
web browser, not whether or not an application was stored locally for some limited
period of time.
3. Dr. Chang’s Argument that Kirkland’s “Authentication
Device” Could Not Be Added to Cover Is No Disavowal of
“Installation” of a Downloaded Application at the Client Device.
As reviewed in the Blue Br. at 22-24 and 38-40 and at pages 12 to 14 supra,
Dr. Chang’s February 14, 2014 Response to Non-Final Office Action was directed
to opposing the “authentication device” disclosed in Kirkland’s media player device
with Cover, where Dr. Chang amended the claims to make clear that the user
identification module was “configured to” act in the steps of “control[ing] access”
of subscribed software application packages.
24

Samsung argues that addition of an installation step would “undo the very
improvement alleged over the prior art” (Red Br. at 31), when in the immediately
prior paragraph it cited to Dr. Chatterjee’s prior art of downloading that the ‘349
patent supposedly critically distinguished. The reality is that Rain does not seek to
add a step, just to reverse the rewriting of the “executing” step to limit its plain
meaning consistent with the specification and file history.

107a

Case: 20-1646

Document: 26

Page: 45

Filed: 09/21/2020

Rain criticized the district court’s critical reliance on language it claimed
distinguished the ‘349 patent invention from Kirkland “on the basis that the software
applications of the on-demand media streaming system were resident on the client
device and not ‘streamed’ from the server.” Blue Br. at 38-40, quoting Appx21,
citing Appx619. Those criticisms applied the requirements of CSS Fitness, page 37
supra, to show that Dr. Chang made no disclaimer of “installation” at the client
device of downloaded applications.
Samsung excerpts six lines (Red Br. at 31-32, quoting Appx731) from sixteen
pages of remarks (Appx724-740). It misleadingly states that its excerpt had only the
underscored highlight from the original. The full paragraph is as follows:
Kirkland does not disclose that the authentication device could
be configured to control access of one or more software application
packages (such as Kirkland's web browser 460 and streaming media
player 470). Moreover, Kirkland clearly discloses that web browser
460, streaming media player 470, and other software application
packages are included in client device 108, 410, or 700, not in streaming
server 104, 400, or 600. Accordingly, Kirkland's authentication device
cannot be configured to control access of one or more software
application packages installed in a server device. Therefore, Kirkland
also fails to teach or suggest a combination comprising, "sending, to the
user, a user identification module configured to control access of said
one or more software application packages," as recited in amended
claim 20.
Appx731 (emphasis in original). It is clear that the argument, particularly in the
larger context of the remarks reviewed at pages 12 to 14 supra, was over whether
the Kirkland authentication device could be “configured to” (as opposed to the

108a

Case: 20-1646

Document: 26

Page: 46

Filed: 09/21/2020

objected language that the Examiner considered “optional”) control access to
applications externally (at the server at that stage of the claims where they resided
for download) – not the scope of the “execute” step or whether the device to which
the claims applied had installed applications or could store downloaded applications.
The fact that Kirkland already had all the applications it needed to authenticate the
user to download media files meant that it was not, “could not be” configured to
download applications. Even Samsung’s rewriting of what Dr. Chang argued is not
an argument that applications downloaded under the ‘349 patent could not be stored
in local non-transient memory.
This was not “unmistakably a disavowal of local installation” – Samsung’s
incorrect premise for application of Cordis Corp. v. Boston Scientific Corp., 658
F.3d 1347, 1356-57 (Fed. Cir. 2011) (applicant specifically argued an “undulating
shape,” and the specification showed an “hour-glass shape”), In re Katz Interactive
Call Processing Patent Litigation, 639 F.3d 1303, 1324-25 (Fed. Cir 2011)
(applicant expressly excluded personally composed passwords from “personal
identification data”), and Research Plastics, Inc. v. Federal Packaging Corp., 421
F.3d 1290, 1297 (Fed. Cir. 2005) (claim amended to distinguish). Samsung’s
selective and elliptical quotation of Dr. Chang’s argument still cannot identify any
argument about the ‘349 patent precluding local “installation” as the Cordis

109a

Case: 20-1646

Document: 26

Page: 47

Filed: 09/21/2020

applicant expressly argued the “undulating shape,” corroborated by the
specification.
Samsung tries to rebut (at Red Br. at 35-38) Rain’s showing that the Dr.
Chang’s argument that Kirkland did not disclose a device “configured to control
access” to an externally stored applications was no disclaimer that an application
downloaded according to the ‘349 patent claims. Samsung simply recycles the same
snippet of Dr. Chang’s arguments that Kirkland’s authentication device could not be
combined with Cover:
• Blue Br. at 35-36: Citing seven words, two brackets and ellipses from the
same seven-line snippet from Appx731, that Kirkland’s software applications
are “included in [the] client device . . ., not in [the] server,” Samsung ignores
Rain’s reference of the district court’s own standard:
Although the construction of a claimed term is usually controlled
by its ordinary meaning, we will adopt an alternative meaning “if
the intrinsic evidence shows that the patentee [1] distinguished
that term from prior art on the basis of a particular embodiment,
[2] expressly disclaimed subject matter, or [3] described a
particular embodiment as important to the invention.”
Appx17, quoting Edwards Lifesciences LLC v. Cook Inc., 582 F.3d 1322,
1329 (Fed. Cir. 2009), quoting CCS Fitness, page 37 supra, 288 F.3d at 1366.
Rain addressed the absence of each of these exceptions. Blue Br. at 37-49.
Instead of arguing how a “particular embodiment” met exceptions [1] or [3],
Samsung apparently resorts to exception [2] in citing Computer Docking

110a

Case: 20-1646

Document: 26

Page: 48

Filed: 09/21/2020

Station Corp. v. Dell, Inc., 519 F.3d 1366, 1374 (Fed. Cir. 2008), which it
describes as requiring “clear and unmistakable disavowal.” The quoted
“disavowal” is no way “expressly disclaimed subject matter” or was a “clear
and unmistakable disavowal” of local installation of downloaded applications.
Recognizing this, Samsung baselessly continues its “alignment” argument as
a substitute for any evidence of disavowal of local installation.
• Red Br. at 36: Samsung again resorts to the same snippet of Dr. Chang’s
argument to argue that it is irrelevant that Kirkland did not have an
“executing” step to distinguish from the ‘349 patent “executing” step. Yet it
is the ‘349 patent step that Samsung succeeding in having the district court
erroneously rewrite.
• Red Br. at 37: Samsung again resorts to the same snippet and cites again to
Cordis and Katz, page 41 supra, which required express disclaimer of subject
matter not even close in the snippet.
• Red Br. at 37: Samsung cites a number of cases in which disavowals were
found without an amendment.

But Samsung fails to address Rain’s

elimination of each of the CCS Fitness, page 37 supra, exceptions.
• Red Br. at 38: Samsung claims that Rain “reframes” Dr. Chang’s argument
and “mischaracterizes the prosecution history.” Rain outlined the arguments
in the Blue Br. at 22-24 and 38-40 and at pages 12 to 14 supra, including the

111a

Case: 20-1646

Document: 26

Page: 49

Filed: 09/21/2020

change of the “user identification module” limitation for a “for [function]”
format to a “configured to” format. Samsung criticizes Rain’s argument
relative to Dr. Chang’s later (June 18, 2014), but similar arguments
(Appx607-626, described at Blue Br. at 22-23) cited by the district court (Blue
Br. at 38-40, quoting Appx21, citing Appx619). It is Samsung that continues
to try to “reframe” a seven-word snippet about Kirkland’s software being in
its client device and not in the server into some implied disavowal of local
installation in the ‘349 patent’s method claims, when those words were drawn
from a section arguing that Cover and Kirkland do not teach or suggest a
combination comprising the step of sending a “user identification module to
control access” (Appx730). The first sentence of the paragraph from which
Samsung draws the seven words, but omits, reads, “Kirkland does not disclose
the authentication device could be configured to control access of one or more
software application packages . . .” (Appx731 (emphasis in original), and
the last sentence, also omitted, concludes that that Kirkland therefore fails to
teach or suggest the “sending” step.
Samsung’s seven-word snippet fails to be a disavowal under either the CSS Fitness
or Continental Circuits formulations of exceptions from the plain meaning.

112a

Case: 20-1646

Document: 26

Page: 50

Filed: 09/21/2020

4. The Interview Regarding the Parent Application on OS
Streaming Resulted in the Recitation of RAM-Residence of the
OS that Did Not and Does Not Preclude “Client-Based
Applications.”
As reviewed in the Blue Br. at 17-18 and at section II(C) supra, the interview
summary by the Examiner in the parent application on OS streaming did not meet
Dr. Chang’s satisfaction, who expressly responded,
Applicant submits that Applicant's claims may cover other examples or
embodiments, such as "client-based applications." Accordingly,
Applicant declines to subscribe to any limitations not recited in the
claims.
Appx1503 (emphasis added).
At Red Br. at 33-34, Samsung again argues snippets in its selective quotation
from Appx289, without advising that the emphases were its own – and omitting the
fact that the Examiner was recommending recitation of RAM for the streamed OS,
and was silent about the applications, which Dr. Chang expressly stated could be
“client-based.”
Incorrectly implying that the Examiner made a recommendation to limit
applications to the client RAM, Samsung incorrectly draws from the amendment a
conclusion that downloaded software may not be installed in the client. None of the
exchanged text says this. The amendment called for execution of downloaded
software under an OS in RAM – distinguished from the web-based execution under
a web browser, the only express distinction in the specification. The Examiner’s

113a

Case: 20-1646

Document: 26

Page: 51

Filed: 09/21/2020

suggestion and the amendment are silent about software stored or not stored in “any
permanent storage unit in the client terminal.” Indeed, the amendment was entered
notwithstanding Dr. Chang’s express reservation of the possibility of “client-based
applications.” The amendment was an unambiguous disavowal of execution under
a web browser and not of local storage of downloaded software. Accordingly,
Samsung’s cases are inapposite.
The same “executing” step limitation to execution by OS in the client RAM
rather than by a web browser is part of each issued claim and has that effect and no
other “limitations not recited in the claims,” as stated by Dr. Chang reserving the
possibility of “client-based applications.”
5. Dr. Chang’s 2010-11 Business Proposals for OS Streaming Are
Irrelevant to the Scope of the ‘349 Patent.
The district court correctly did not consider extrinsic evidence of the 2010-11
business proposals for various OS streaming platforms, according to its
understanding of this Court’s view that “an inventor’s subjective understanding or
intent is ‘irrelevant to the issue of claim construction.’” Docket Entry No. 35
(Appx42), quoting Howmedica Osteonics Corp. v. Wright Medical Technology, Inc.,
540 F.3d 1337, 1347 (Fed. Cir. 2008).
Although the documents asserted by Samsung were broadly responsive to
Samsung’s request for documents “concerning” conception and reduction to

114a

Case: 20-1646

Document: 26

Page: 52

Filed: 09/21/2020

practice, they do not purport to explain or limit any disputed term of the ‘349 patent.
Page 8 supra. At most, they demonstrated an intent to attract investment as to an
OS streaming embodiment, in one case suggesting for discussion a choice of the
disclosed option (see Blue Br. at 14) not to store downloaded software in a hard
drive, even though it was possible.
Such originally confidential and subjective statements are not “part of the
patent” as the intrinsic evidence, serving a public notice function, even qualifying
arguments to the Examiner. In any case none of the statements is an unmistakable
disavowal of any scope of the ‘349 patent, just as none of the intrinsic evidence
shows any unmistakable disavowal of the other disclosed option of storing the
downloaded application locally and Dr. Chang’s record reservation of the possibility
of “client-based applications” (Appx1503).
In contrast, in Samsung’s case, Core Wireless Licensing S.a.r.l. v. Appele Inc.,
853 F.3d 1360, 1369-70 (Fed. Cir. 2017), required specific technological capability
was specified in the intrinsic evidence and corroborated by extrinsic evidence.
6. The Disclosed Local Non-Transient Storage of the RAM Data Is
an Intrinsic Counter-Example to Samsung’s Arguments.
Samsung attacks (Red Br. at 40-41) Rain’s assertion of the ‘349 patent
example of the optional transfer of the contents of the client RAM into non-transient
remedy, powering off and then reloading into the client RAM when the client device

115a

Case: 20-1646

Document: 26

Page: 53

Filed: 09/21/2020

is restarted (Blue Br. at 13, quoting Appx53, 5:15-29) as unbacked by evidence.
However, it is explained in that detail, unlike Samsung’s attorney repeated
arguments – without express intrinsic evidence except another ‘349 patent option of
not using mass storage (Blue Br. at 14, quoting Appx53, 5:44-50) – of a false
dichotomy of “unlimited license” and “on-demand license” restated in many ways,
without any intrinsic evidence of how those concepts are technologically achieved
or distinguished.
Samsung makes the same kind of unsupported argument in by stating that “the
transfer of dynamic data to non-volatile memory does not occur simultaneously with
the executing step” this supports its quotation of the district court’s finding on the
matter – with “citation omitted” (Red Br. at 41). A review of the entire finding with
citation shows its conclusion that “the patent does not disclose that a software
application may be installed in non-volatile memory during execution” is clearly
erroneous and unsupported by any evidence. The district court’s conclusion that the
hibernated contents do not coexist simultaneously, 25 installed in non-volatile
memory during reloaded execution is based on its assumption (“[a]ccordingly”) that

25

Samsung’s suggestion now that the district court was referring to the “transfer”
rather than the storage in non-volatile memory “installation” – if taken – would
eliminate the non-coexistence basis for the district court’s conclusion that the
optional hibernation is not a specification counter-example of storage in both RAM
and non-volatile memory during execution.

116a

Case: 20-1646

Document: 26

Page: 54

Filed: 09/21/2020

when the data is reloaded into RAM, it is no longer installed in non-volatile memory.
There is no evidence to support this inference, only Samsung’s continuous argument
of its “on-demand” model, particularly Samsung’ erroneous statement at the hearing
that in normal operation, an application is loaded from non-volatile memory and
then back into that memory after execution in RAM (see page 1717 supra). This is
the only “evidence” that a program loaded from non-volatile memory for execution
in RAM does not ordinarily remain installed in the non-volatile memory during
execution. As Samsung’s unsupported tutorial statement is not evidence, the district
court’s conclusion of non-installation during execution was unsupported by any
evidence, much less “substantial evidence.”
7. Samsung’s Argument that Continental Circuits Does Not Apply
Is Circular.
Samsung (Red Br. at 42-43), circularly argues that Continental Circuits, page
29 supra, doesn’t apply because it only applies to “permissive” language and
Samsung allegedly has shown that the “permissive” language of the ‘349 patent
specification – particularly the local storage options (Blue Br. at 14, quoting
Appx53, 5:44-50 and Blue Br. at 13, quoting Appx53, 5:15-29) – were proven not
to be permissive.

Thus, Samsung apparently hopes to avoid the “clear and

unmistakable” standard of Continental Circuits. In any case, Rain thoroughly
covered (Blue Br. at 36-49) the considerations of CSS Fitness, page 37 supra, the

117a

Case: 20-1646

Document: 26

Page: 55

Filed: 09/21/2020

district court’s basis for its decision. 26 Samsung’s rebuttal – its continued, but
mutating resort to its “unlimited license” versus “on-demand license” dichotomy, a
seven-word snippet from an argument on “authentication device” and an amendment
to make exactly the distinction of execution on top of the OS in the client device that
was the only distinction in the specification (and that the challenged construction rewrote).
8. The District Court’s Rewriting of the “Executing” Step Is
Wrong as a Matter of Law.
Samsung tries to avoid vacating of the rewriting of the “executing” step by
recasting Rain’s argument as a waived and inconsistent contention of overbreadth.
Red Br. at 43-45.

26

Regarding Samsung’s note 10 (Red Br. at 43), Phillips, page 30 supra, 415 F.3d
at 1313, stated:
In some cases, the ordinary meaning of claim language as understood
by a person of skill in the art may be readily apparent even to lay judges,
and claim construction in such cases involves little more than the
application of the widely accepted meaning of commonly understood
words.
Rain contended and still maintains that this is such a case and that the “plain and
ordinary” meanings of the words of the claims should apply, but accepts the district
court’s constructions except for its rewriting of the “execution” step, which it
challenges as a matter of law and as clearly erroneous based on clearly erroneous
inferences on as to whether the ‘349 patent allows local installation of downloaded
applications.

118a

Case: 20-1646

Document: 26

Page: 56

Filed: 09/21/2020

Rain continues its argument from below that the “executing” step needs no
construction, that Samsung’s proposed rewriting was not supported by the evidence,
and that the district court’s adoption of that rewriting was wrong as a matter of law
because its rewriting relaxed the actual distinguishing by the original, issued text of
prior art stated in the specification and added limitations unsupported by the
specification. 27 Rain has not waived this argument.
Samsung’s argument of claim differentiation also fails. Rain has used “webbased” as shorthand for the “execution under a web-browser” art that the
specification expressly distinguished by the claimed execution on top of an OS in
the processor of the client device (Blue Br. at 8-9, quoting Appx51, 1:51-55, Blue
Br. at 16-17, quoting Appx53, 6:59-7:3) – as so limited in all the claims. Claim 9
does not duplicate this limitation, but specifically precludes the executing processor
from “using a web browser application” for any reason. All the claims require use
of the OS to execute the application; claim 9 specifically precludes any use of a
“web-browser application” simultaneously.

Accordingly, Samsung’s claim

differentiation argument and authorities are inapposite.
Finally, Samsung’s argument (and supporting authorities, Red Br. at 45) that
construction of overbreadth is harmless error is inapposite here where the district

27

Samsung’s proposed authority, SimpleAir, Inc. v. Google LLC, 884 F.3d 1160,
1170 (Fed. Cir. 2018), related to issue preclusion by judgment in a different case.

119a

Case: 20-1646

Document: 26

Page: 57

Filed: 09/21/2020

court’s adoption of the entire text of Samsung’s rewriting of the “executing” step is
wrong as a matter of law. It was wrong both for relaxing the step’s distinction,
mirroring the distinction expressly made in the specification, of an OS executing the
downloaded application in a processor of the client device, and for imposing a
preclusion of non-transient local storage based on Samsung’s false “unlimited
license”

versus

“on-demand

license”

dichotomy

based

on

background

characterizations of other technologies and business models when the specification
actually offers options of non-transient local storage. The district court also drew
erroneous conclusions about those options based not on substantial evidence, but on
Samsung’s unsupported dichotomy, and, crucially for the district court’s rejection
of the “hibernation” counterexample, Samsung’s suggestion that normally an
application loaded from non-transient memory into RAM does not coexist in the
non-transient memory, but needs to be returned there after execution (page 17
supra).
B. The District Court Correctly Determined that the ‘349 Patent Claims
Are Not Indefinite Under Nautilus.
1. Samsung Ignores the Controlling Law.
It is telling that Samsung’s cross-appeal of the district court’s sound rejection
of Samsung’s indefiniteness argument (for which Samsung did not request
reconsideration) fails to cite, much less discuss, the Supreme Court’s establishment
of the law in indefiniteness in Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S.

120a

Case: 20-1646

Document: 26

Page: 58

Filed: 09/21/2020

898 (2014), on which the district court expressly relied in rejecting Samsung’s claim
of invalidity, repeated here, because the patent allegedly does not explain how a
“user identification module” is “configured to control access (Appx16 n. 14).
Samsung also fails to recognize its burden of proof of “clear and convincing
evidence” as expressly applied by this Court in Biosig Instruments, Inc. v. Nautilus,
Inc., 783 F.3d 1374, 1377 (Fed. Cir. 2015) to the Supreme Court’s substantive
requirements for a showing of indefiniteness. Applying this standard, the district
court determined that “the structure of ‘a user identification module’ is not a general
computer performing a specialized function requiring a disclosure of the function’s
algorithm.” Appx16 n. 14, citing Aristocrat Techs. Australia Pty Ltd. v. Int’l Game
Tech., 521 F.3d 1328, 1333 (Fed. Cir. 2008).
Avoiding mention of the controlling standards, Samsung separately criticizes
the district court’s decision (Red Br. 18-21) and makes its lower court arguments
anew (Red Br. at 51-59). Rain addresses the district court proceedings in detail in
Section II(E)(3) supra and summarizes and incorporates those arguments below.
The controlling standard is that “a patent is invalid for indefiniteness it its
claims, read in light of the specification delineating the patent, and the prosecution
history, fail to inform, with reasonable certainty those skilled in the art about the
scope of the claim.” Nautilus, 572 U.S. at 901, quoted at Appx16 n. 4. Samsung
did not produce clear and convincing evidence showing this. The district court

121a

Case: 20-1646

Document: 26

Page: 59

Filed: 09/21/2020

correctly found that the ‘349 patent was not invalid for the alleged indefiniteness of
a “user identification module configured to control access.”
2. The Full Claims, Read in Light of the Specification, Do Not
Leave Uncertain the Scope of the Invention.
Claim 1 is exemplative of the claims of the ‘349 patent and sets forth how a
user identification module is “configured to control access of said one or more
software application packages” and how it acts or is acted upon in the steps of the
method claim:
[b] sending, to the user, a user identification module configured
to control access of said one or more software application packages,
and coupling the user identification module to a client terminal device
of the user;
[c] a server device authenticating the user by requesting
subscription information of the user from the user identification
module through the computer network;
[d] upon authentication of the user, the server device providing,
to the client terminal device of the user, a listing of one or more
software application packages subscribed through the web store in
accordance with the subscription information;
[e] the server device receiving, from the client terminal device
and through the computer network, a selection of a first software
application package from said listing of one or more software
application packages;
[f] the server device transmitting the first software application
package to the client terminal device through the computer network;
Appx54, 7:26-44 (emphasis added). Under step [b] the user identification module
is sent to and coupled to a client terminal device. Under step [c] the server requests

122a

Case: 20-1646

Document: 26

Page: 60

Filed: 09/21/2020

subscription information from the user identification module through the computer
network. Under step [d] the server authenticates the user as subscribed to certain
applications based on the subscription information from the user identification
module and provides to the user terminal device a list of applications to which the
user has access under its subscription. Under step [e] the user selects from the list,
thereby exercising the access allowed by the list. Under step [f] the selected
subscribed application is transmitted to the user. This role of the user identification
module in “control[ling] access” is corroborated by the specification in Fig. 3
(Appx50) and descriptions (Appx52-53, 4:4-6:50), supplemented by the description
(Appx52, 4:27-40) of the user identification device (later amended to “module”,
page 11 supra), plus the extension port (EP) 250 in Figs. 1 and 2 (Appx48-49)
allowing the recited communication over the network. See page 22 supra. The
district court concurred (pages 23 to 25 supra), thereby meeting the Nautilus test of
finding no uncertainty in how the user identification module was configured to
control access to the subscribed applications (Appx16 n. 4).
Samsung’s complaint that the district court ignored its evidence – while not
recognizing its burden of proof – is disposed of at page 27 supra. Again, the district
court did not find clear and convincing evidence – despite the intrinsic and extrinsic
offered by both parties – to support invalidation by alleged indefiniteness of the “user
identification module configured to control access” term (Appx16 n. 4).

123a

Case: 20-1646

Document: 26

Page: 61

Filed: 09/21/2020

3. Samsung’s Insistence on an Algorithm Was Met.
The district court met Samsung’s demand below for an “algorithm” with its
express finding that under Aristocrat, page 53 supra, no special algorithm needed to
be specified for the straightforward role of the user identification module as
reviewed above. Appx16 n. 6. Samsung recognizes (Red Br. at 56) the exception
in In re Katz Interactive Call Processing Patent Litigation, 639 F.3d 1303, 1316-17
(Fed. Cir 2011), which cites Aristocrat, but repeatedly argues, as it did below, that
Dr. Chang argued for “special programming” – when in Samsung’s citations actually
lead to Dr. Chang’s argument for “specific configuration.”
Samsung reargues its case below by alleging that the district court “jettisoned”
the actual functional requirement of “user identification module configured to
control access” (Red Br. at 20). See page 25 supra. Samsung wants a “link” of the
“user identification module” to the “function” of “control[ling] access” of subscribed
applications, but the district court found such link in the claims as required by
Nautilus, as reviewed in the previous section.
Samsung would have all of the “function” found in a single user identification
module, as is appropriate for a means-plus-function component of an apparatus
where the applicant partook of the privilege of claiming structure functionally in
return for being limited to the structure disclosed in the specification. Note 13 supra.
Dr. Chang canceled an early apparatus claim with means-plus-function elements

124a

Case: 20-1646

Document: 26

Page: 62

Filed: 09/21/2020

(Appx1499). Section 112 ¶ 6 also provides for “steps”-plus-function claiming, of
which Dr. Chang also did not avail. Instead, Dr. Chang modified a “for” clause to
“configured to” similar to “adapted for” to make it clear, in response to an
Examiner’s objection that the prior language might read something merely
“capable”, that the user identification module was “specifically configured” to
control access. Page 12 supra, quoting Appx711. The three Examiners, POSA
proxies considering claim scope, determined that section 112 ¶ 6 would not apply to
the “user identification module.” Page 15 supra, see note 9 supra. Samsung counsel
argued “nested means-plus-function” term cases, repeated at Red Br. at 48 n. 11.
However, Media Rights Technologies, Inc. v. Capital One Financial Corp., 800 F.3d
1366, 1370 (Fed. Cir. 2015), involved terms like “compliance mechanism” and
“custom media device,” which are clearly indefinite on their face without additional
disclosed structure. Similarly, the other case, On Demand Machine Corp. v. Ingram
Industries, Inc., 442 F.3d 1331, 1340 (Fed. Cir. 2006) expressly used the “meansplus” form, “providing means for a customer to visually review said sales
information.” In contrast, the ‘349 patent claims provided a defined object and
subject of the various action of the claim to “control access.” See page 23 supra.
The district court was persuaded to apply Section 112 ¶ 6 to require structure
and found it in the specification description of the user identification device
(Appx52, 4:27-40). See pages 23 to 25 supra. Neither party challenges this.

125a

Case: 20-1646

Document: 26

Page: 63

Filed: 09/21/2020

In view of the facts that Dr. Chang did not partake of the Section 112 ¶ 6
privilege to “functionally claim,” and the structure of the user identification module
is straightforward, including its configuration as a subject and object of the steps
(algorithm) of the claim to control access, it cannot be said that the specification did
not provide adequate links to “control[ling] access to meet the Nautilus standard of
certainty of the scope of the claims. Certainly, there is no clear and convincing
evidence otherwise.
VI.

CONCLUSION
For the reasons set forth above and in the Blue Brief, (1) the district court’s

construction (Appx22) to impose on the “executing” step the negative limitation of
“without installing it on the client terminal device” should be reversed and the Order
amended to leave the “executing” step to its plain and ordinary meaning, the
judgment of non-infringement reversed, (2) the district court’s finding of nonindefiniteness should be affirmed, and the case remanded to the district court for
further proceedings.
Dated: September 21, 2020

Respectfully submitted,
/s/ Stephen Y. Chow
Stephen Y. Chow
Hsuanyeh Chang, PhD
HSUANYEH LAW GROUP
11 Beacon Street, Suite 900
Boston, MA 02108
(617) 886-9088
stephen.y.chow@hsuanyeh.com
Attorneys for Appellant

126a

Case: 20-1646

FORM 30. Certificate of Service

Document: 26

Page: 64

Filed: 09/21/2020

Form 30
Rev. 03/16

UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE
I certify that I served a copy on counsel of record on September 21, 2020
by:
U.S. Mail
Fax
Hand
Electronic Means (by E-mail or CM/ECF)

Stephen Y. Chow

/s/ Stephen Y. Chow

Signature of Counsel

Name of Counsel

Law Firm

HSUANYEH LAW GROUP, PC

Address

11 Beacon Street, Suite 900

City, State, Zip

Boston, MA, 02108

Telephone Number

(617) 886-9088

Fax Number
E-Mail Address

stephen.y.chow@hsuanyeh.com

NOTE: For attorneys filing documents electronically, the name of the filer under whose log-in and
password a document is submitted must be preceded by an "/s/" and typed in the space where the
signature would otherwise appear. Graphic and other electronic signatures are discouraged.

Reset Fields

127a

Case: 20-1646

Document: 26

FORM 19. Certificate of Compliance With Rule 32(a)

Page: 65

Filed: 09/21/2020

Form 19
Rev. 12/16

UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
CERTIFICATE OF COMPLIANCE WITH TYPE-VOLUME LIMITATION,
TYPEFACE REQUIREMENTS, AND TYPE STYLE REQUIREMENTS
1. This brief complies with the type-volume limitation of Federal Rule of
Federal Circuit Rule 32(a) or Federal Rule of Federal Circuit Rule 28.1.
This brief contains

words, excluding the parts of

[state the number of ] 13,842

the brief exempted by Federal Rule of Appellate Procedure 32(f), or
This brief uses a monospaced typeface and contains

[state the number of ]

lines of text, excluding the parts of the brief exempted by Federal Rule of Appellate Procedure
32(f).
2. This brief complies with the typeface requirements of Federal Rule of Appellate Procedure
32(a)(5) or Federal Rule of Federal Circuit Rule 28.1 and the type style requirements of Federal
Rule of Appellate Procedure 32(a)(6).
This brief has been prepared in a proportionally spaced typeface using
[state name and version of word processing program ] Microsoft WORD
[state font size and name of type style ] 14 Point Times New Roman Font

in
, or

This brief has been prepared in a monospaced typeface using
[state name and version of word processing program ]

with

[state number of characters per inch and name of type style]

.

/s/ Stephen Y. Chow

(Signature of Attorney)
Stephen Y. Chow

(Name of Attorney)
Attorney for Plaintiff-Appellant

(State whether representing appellant, appellee, etc.)

09/21/2020

(Date)
Reset Fields

128a

Case: 20-1646

Document: 46

Page: 1

Filed: 03/02/2021

United States Court of Appeals
for the Federal Circuit
______________________

RAIN COMPUTING, INC.,
Plaintiff-Appellant
v.
SAMSUNG ELECTRONICS AMERICA, INC.,
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
RESEARCH AMERICA, INC.,
Defendants-Cross-Appellants
______________________
2020-1646, 2020-1656
______________________
Appeals from the United States District Court for the
District of Massachusetts in No. 1:18-cv-12639-RGS, Judge
Richard G. Stearns.
______________________
JUDGMENT
______________________
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
REVERSED-IN-PART, DISMISSED-IN-PART
ENTERED BY ORDER OF THE COURT
March 2, 2021

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

129a

Case: 20-1646

Document: 47

Page: 1

Filed: 04/08/2021

United States Court of Appeals
for the Federal Circuit
______________________

RAIN COMPUTING, INC.,
Plaintiff-Appellant
v.
SAMSUNG ELECTRONICS AMERICA, INC.,
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
RESEARCH AMERICA, INC.,
Defendants-Cross-Appellants
______________________
2020-1646, 2020-1656
______________________
Appeals from the United States District Court for the
District of Massachusetts in No. 1:18-cv-12639-RGS, Judge
Richard G. Stearns.
______________________
MANDATE
______________________
In accordance with the judgment of this Court, entered
March 2, 2021, and pursuant to Rule 41 of the Federal
Rules of Appellate Procedure, the formal mandate is
hereby issued.
FOR THE COURT
April 8, 2021

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

130a

1002

989 FEDERAL REPORTER, 3d SERIES

the form of Dr. Arunachalam’s misconduct,
we conclude that a lesser sanction is appropriate.16 Accordingly, the scandalous
and irrelevant statements in Dr. Arunachalam’s briefs alleging, inter alia, ‘‘obstruction of justice,’’ ‘‘a corrupt criminal
enterprise,’’ ‘‘libel,’’ ‘‘willful misrepresentations,’’ and ‘‘fraud’’ by the District Court,
Judges Stark and Andrews, and Appellees’
counsel, Appellant’s Br. 2–17, as well as
‘‘treason,’’ collusion in a ‘‘collateral estoppel farce,’’ and ‘‘fraud’’ by the PTAB, this
Court and its Judges, and ‘‘the Courts’’
generally, id. at 13–17, are stricken.

RAIN COMPUTING, INC.,
Plaintiff-Appellant
v.
SAMSUNG ELECTRONICS AMERICA,
INC., Samsung Electronics Co., Ltd.,
Samsung Research America, Inc., Defendants-Cross-Appellants
2020-1646
2020-1656
United States Court of Appeals,
Federal Circuit.
Decided: March 2, 2021

CONCLUSION
[16] We have considered Dr. Arunachalam’s remaining arguments and find
them unpersuasive.17 Accordingly, the
Judgment of the U.S. District Court for
the District of Delaware is
AFFIRMED
COSTS
Costs to IBM, SAP, and JPMorgan.

Background: Patent owner sued competitor for infringement of patent for method
of delivering on-demand software packages. United States District Court for the
District of Massachusetts, Richard G.
Stearns, J., 2020 WL 708125, entered stipulated judgment in competitor’s favor,
stating that asserted claims were neither
infringed nor invalid for indefiniteness.
Owner appealed, and competitor cross-appealed.
Holdings: The Court of Appeals, Moore,
Circuit Judge, held that:
(1) term ‘‘user identification module’’ was a
means-plus-function claim term, and

,

(2)

term ‘‘user identification module’’
lacked sufficient structure and rendered the claims indefinite.

Reversed in part, and dismissed in part.
16. In addition to the assessments of costs,
further submissions of a similar character
would raise the possibility of monetary sanctions from this Court. See Chambers, 501 U.S.
at 44–45, 111 S.Ct. 2123.
17. In her Notice of Appeal, Dr. Arunachalam
stated that, in addition to the District Court’s
grant of monetary sanctions, she was also
appealing the denials of her Motion to Enforce the Mandated Prohibition and Motion
for the Court to Vacate Its Unconstitutional
Orders. Notice of Appeal 1–2, ECF No. 1. Yet,

Dr. Arunachalam’s briefs did not address the
reasons for the District Court’s denial of these
motions—namely, that she had filed the first
motion ‘‘in eight different cases,’’ without explaining its relevance or untimeliness, and
that the second motion was an attempt to rechallenge the dismissal of her Amended Complaint, which we had already affirmed. C.A. 2;
see Arunachalam III, 759 F. App’x at 934; see
generally Appellant’s Br. 1–58; Reply Br. 1–
27. Accordingly, these issues are waived. See
SmithKline Beecham Corp. 439 F.3d at 1320.

131a

RAIN COMPUTING v. SAMSUNG ELECTRONICS AMERICA
Cite as 989 F.3d 1002 (Fed. Cir. 2021)

1. Patents O1970(13)
Whether claim language invokes patent statute governing means-plus-function
claim limitations, is a question of law that
is reviewed de novo. 35 U.S.C.A. § 112.
2. Patents O1969
In patent cases, Court of Appeals reviews any of district court’s underlying
findings of fact for clear error.
3. Patents O915
Means-plus-function patent claims are
construed to cover only the structure, materials, or acts described in the specification as corresponding to the claimed function and equivalents thereof. 35 U.S.C.A.
§ 112.
4. Patents O915
To determine whether patent statute
governing means-plus-function claim limitations applies to a claim limitation, court
must inquire whether the words of the
claim are understood by persons of ordinary skill in the art to have a sufficiently
definite meaning as the name for structure; if those lack a sufficiently definite
meaning, the statute applies. 35 U.S.C.A.
§ 112.
5. Patents O915
If patent claim limitation uses word
‘‘means,’’ there is rebuttable presumption
that means-plus-function statute applies; if
not, there is rebuttable presumption that
provision does not apply, but that presumption can be overcome and statute will
apply if challenger demonstrates that
claim term fails to recite sufficiently definite structure or else recites function without reciting sufficient structure for performing that function. 35 U.S.C.A. § 112.
6. Patents O915
Term ‘‘user identification module,’’ in
patent for method of delivering on-demand
software packages, was a means-plus-func-

1003

tion claim term; ‘‘module’’ was a substitute
for ‘‘means,’’ and patent owner failed to
point to any claim language providing any
structure for performing the module’s
claimed function of being configured to
control access, nor did prefix ‘‘user identification’’ impart structure, as it merely described the function of the module, to
identify a user, and further, term ‘‘user
identification module’’ had no commonly
understood meaning and was not generally
viewed by one skilled in the art to connote
a particular structure. 35 U.S.C.A. § 112.
7. Patents O915
The word ‘‘module’’ in patent claim is
a well-known nonce word that can operate
as a substitute for ‘‘means,’’ so as to invoke
rebuttable presumption that means-plusfunction statute applies. 35 U.S.C.A.
§ 112.
8. Patents O915
First step in construing a means-plus
function claim is to identify the claimed
function. 35 U.S.C.A. § 112.
9. Patents O915
After identifying claimed function of
means-plus-function claim, the court determines what structure, if any, disclosed in
the specification corresponds to that function; under this second step, structure disclosed in the specification is corresponding
structure only if the specification or prosecution history clearly links or associates
that structure to the function recited in the
claim. 35 U.S.C.A. § 112.
10. Patents O915
Under means-plus-function form of
claiming, if the function is performed by a
general purpose computer or microprocessor, then the specification must also disclose the algorithm that the computer
performs to accomplish that function;
however, in rare circumstances where any
general-purpose computer without any

132a

1004

989 FEDERAL REPORTER, 3d SERIES

special programming can perform the
function, an algorithm need not be disclosed. 35 U.S.C.A. § 112.
11. Patents O816
If the patentee fails to disclose adequate structure corresponding to the
claimed function, in a means-plus-function
claim, then the claim is indefinite. 35
U.S.C.A. § 112.
12. Patents O1970(3)
In patent cases, the Court of Appeals
reviews the district court’s indefiniteness
determination de novo.
13. Patents O822
Patent for method of delivering ondemand software packages lacked sufficient structure, and thus was indefinite, in
absence of an algorithm to achieve the
claimed function of a ‘‘user identification
module,’’ which controlled access to one or
more software application packages to
which the user had a subscription; function
required specialized programming, but
nothing in the claim language or written
description provided it. 35 U.S.C.A. § 112.
Patents O2091
9,805,349. Invalid.
Appeals from the United States District
Court for the District of Massachusetts in
No. 1:18-cv-12639-RGS, Judge Richard G.
Stearns.

Moore, Circuit Judge.
Rain Computing, Inc. appeals a final
judgment of noninfringement of the asserted claims of U.S. Patent No. 9,805,349 and
Samsung Electronics America, Inc.; Samsung Electronics Co., Ltd.; and Samsung
Research America, Inc. (collectively Samsung) cross-appeal the final judgment that
the asserted claims of the ’349 patent are
not invalid as indefinite. For the reasons
below, we reverse the district court’s judgment on indefiniteness and dismiss Rain’s
appeal.
BACKGROUND
Rain sued Samsung for infringement of
claims of the ’349 patent. The ’349 patent
is directed to delivering software application packages to a client terminal in a
network based on user demands. See ’349
patent at Abstract, 1:59–2:14. The claimed
invention purports to deliver these packages more efficiently by using an operating
system in a client terminal rather than a
web browser. ’349 patent at 1:49–55, 1:59–
2:14. Claim 1 is representative:
1. A method for providing software applications through a computer network
based on user demands, the method
comprising:

Stephen Yee Chow, Hsuanyeh Law
Group, PC, Boston, MA, argued for plaintiff-appellant. Also represented by Hsuanyeh Chang.
Michael J. Mckeon, Fish & Richardson
PC, Washington, DC, argued for defendants-cross-appellants. Also represented
by Christopher Dryer.
Before Lourie, Dyk, and Moore, Circuit
Judges.

133a

accepting, through a web store, a subscription of one or more software application packages from a user;
sending, to the user, a user identification module configured to control access of said one or more software
application packages, and coupling the
user identification module to a client
terminal device of the user;
a server device authenticating the
user by requesting subscription information of the user from the user identification module through the computer network;

RAIN COMPUTING v. SAMSUNG ELECTRONICS AMERICA
Cite as 989 F.3d 1002 (Fed. Cir. 2021)

upon authentication of the user, the
server device providing, to the client
terminal device of the user, a listing of
one or more software application
packages subscribed through the web
store in accordance with the subscription information;
the server device receiving, from the
client terminal device and through the
computer network, a selection of a
first software application package
from said listing of one or more software application packages;
the server device transmitting the
first software application package to
the client terminal device through the
computer network; and
executing the first software application package by a processor of the
client terminal device using resources
of an operating system resident in a
memory of the client terminal device.
In a February 12, 2020 order, the district court construed various claim terms.
Relevant here, it construed ‘‘executing the
[first/second] software application package
TTT in a memory of the client terminal
device’’ and ‘‘user identification module
configured to control access of TTT software application packages.’’ Rain Computing, Inc. v. Samsung Elecs. Co., No. 1812639-RGS, 2020 WL 708125, at *3–7 (D.
Mass. Feb. 12, 2020). The district court
determined ‘‘user identification module’’
was a means-plus-function term subject to
35 U.S.C. § 112 ¶ 6 and was not indefinite.
Id. at *3–5. Following that order, the district court entered judgment, based on the
parties’ joint stipulation, that the asserted
claims were neither infringed nor invalid
for indefiniteness. Rain appeals and Samsung cross-appeals. We have jurisdiction
under 28 U.S.C. § 1295(a)(1).
DISCUSSION
Rain challenges the district court’s construction of the ‘‘executing’’ term. Sam-

1005

sung challenges the court’s determination
that ‘‘user identification module’’ does not
render the claims indefinite. Because we
agree with Samsung that ‘‘user identification module’’ renders the claims indefinite,
we do not reach the merits of Rain’s appeal.
I
[1–3] Whether claim language invokes
35 U.S.C. § 112 ¶ 6 is a question of law we
review de novo. Williamson v. Citrix Online, LLC, 792 F.3d 1339, 1346 (Fed. Cir.
2015). We review any underlying findings
of fact for clear error. Id. Under § 112 ¶ 6,
a patentee may draft claims ‘‘as a means
or step for performing a specified function
without the recital of structure, material,
or acts in support thereof.’’ But such
claims are construed to cover only ‘‘the
structure, materials, or acts described in
the specification as corresponding to the
claimed function and equivalents thereof.’’
Williamson, 792 F.3d at 1347.
[4, 5] To determine whether § 112 ¶ 6
applies to a claim limitation, we must inquire ‘‘whether the words of the claim are
understood by persons of ordinary skill in
the art to have a sufficiently definite meaning as the name for structure.’’ Id. at 1349.
If those words lack a sufficiently definite
meaning, § 112 ¶ 6 applies. If the limitation
uses the word ‘‘means,’’ there is a rebuttable presumption that § 112 ¶ 6 applies. Id.
at 1348–49. If not, there is a rebuttable
presumption that the provision does not
apply. Id. But that ‘‘presumption can be
overcome and § 112 para. 6 will apply if
the challenger demonstrates that the claim
term fails to recite sufficiently definite
structure or else recites function without
reciting sufficient structure for performing
that function.’’ Id. at 1348 (quotations and
brackets omitted).

134a

1006

989 FEDERAL REPORTER, 3d SERIES

[6, 7] We first determine whether
‘‘user identification module’’ is a meansplus-function term. Because the term does
not include the word ‘‘means,’’ there is a
rebuttable presumption that § 112 ¶ 6 does
not apply. ‘‘ ‘Module’ is a well-known nonce
word that can operate as a substitute for
‘means.’ ’’ Id. at 1350. In Williamson, we
held that the word ‘‘module’’ in the claim
term ‘‘distributed learning control module’’
‘‘does not provide any indication of structure because it sets forth the same black
box recitation of structure TTT as if the
term ‘means’ had been used.’’ Id. Likewise,
‘‘module’’ here does not provide any indication of structure, and Rain fails to point to
any claim language providing any structure for performing the claimed function of
being configured to control access. Nor
does the prefix ‘‘user identification’’ impart
structure because it merely describes the
function of the module: to identify a user.
See id. at 1351 (‘‘The prefix ‘distributed
learning control’ does not impart structure
into the term ‘module.’ ’’). Thus, the claim
language fails to provide any structure for
performing the claimed functions.
The parties do not dispute that ‘‘user
identification module’’ has no commonly
understood meaning and is not generally
viewed by one skilled in the art to connote
a particular structure. In Media Rights
Technologies, Inc. v. Capital One Financial Corp., we held that the written description of a ‘‘copyright compliance mechanism,’’ including how it was connected to
various parts of the system, how it functioned, and its potential functional components, was not enough to provide sufficient
structure to the claimed ‘‘compliance
mechanism.’’ 800 F.3d 1366, 1372–73 (Fed.
Cir. 2015). Here, the specification does not
impart any structural significance to the
term; in fact, it does not even mention a
‘‘user identification module.’’ ‘‘Without
more, we cannot find that the claims, when
read in light of the specification, provide

sufficient structure for the [ ] term.’’ Id. at
1373. Accordingly, we hold ‘‘user identification module’’ is a means-plus-function term
subject to § 112 ¶ 6.
Rain argues an amendment made during
prosecution of ‘‘a user identification module for accessing TTT’’ to ‘‘a user identification module configured to control access
of TTT’’ prevents ‘‘user identification module’’ from being a means-plus-function
term. Appellant Resp. & Reply Br. at 12–
13, 56–57 (emphases added). According to
Rain, replacing ‘‘for’’ with ‘‘configured to’’
removed the means-plus-function language. Id. But the purely functional claim
language reciting what the ‘‘user identification module’’ is configured to do provides
no structure. See MTD Prods. Inc. v. Iancu, 933 F.3d 1336, 1343 (Fed. Cir. 2019)
(construing ‘‘a mechanical control assembly TTT configured to actuate TTT’’ as a
means-plus-function limitation).
Rain also argues that an appellate brief
filed by Patent Office examiners defending
a final rejection of the applicant’s claims
supports its position that the term is not a
means-plus-function term. The examiners’
brief states, in relevant part:
Additionally, as claim 20 is directed to a
method rather than an apparatus, the
limitation ‘‘user identification module
configured to control access of said one
or more software application packages,’’
does not invoke 112, 6th paragraph, or
112(f).
J.A. 531. To the extent the examiners or
the Patent and Trademark Office understood that a means-plus-function term cannot be nested in a method claim, they were
incorrect. Applicants are free to invoke
§ 112 ¶ 6 for a claim term nested in a
method claim. We have never held otherwise. See, e.g., Media Rights, 800 F.3d at
1374 (holding ‘‘compliance mechanism’’
nested in a method claim was a means-plus

135a

RAIN COMPUTING v. SAMSUNG ELECTRONICS AMERICA
Cite as 989 F.3d 1002 (Fed. Cir. 2021)

function term); On Demand Machine
Corp. v. Ingram Indus., Inc., 442 F.3d
1331, 1340 (Fed. Cir. 2006) (holding ‘‘providing means for a customer to visually
review’’ nested in a method claim was a
means-plus-function term).
II
[8, 9] Having concluded ‘‘user identification module’’ is a means-plus-function
term, we must consider the term’s construction, which occurs in two steps. The
first step in construing a means-plus function claim is to ‘‘identify the claimed function.’’ Williamson, 792 F.3d at 1351. After
identifying the function, we then ‘‘determine what structure, if any, disclosed in
the specification corresponds to the
claimed function.’’ Id. ‘‘Under this second
step, structure disclosed in the specification is corresponding structure only if the
specification or prosecution history clearly
links or associates that structure to the
function recited in the claim.’’ Sony Corp.
v. Iancu, 924 F.3d 1235, 1239 (Fed. Cir.
2019) (citation omitted).
[10] If the function is performed by a
general-purpose computer or microprocessor, then the second step generally further
requires that the specification disclose the
algorithm that the computer performs to
accomplish that function. Aristocrat Techs.
Austl. Pty Ltd. v. Int’l Game Tech., 521
F.3d 1328, 1333 (Fed. Cir. 2008). However,
‘‘in the rare circumstances where any general-purpose computer without any special
programming can perform the function TTT
an algorithm need not be disclosed.’’ Ergo
Licensing, LLC v. CareFusion 303, Inc.,
673 F.3d 1361, 1365 (Fed. Cir. 2012). For
means-plus-function claims ‘‘in which the
disclosed structure is a computer, or microprocessor, programmed to carry out an
algorithm,’’ we have held that ‘‘the disclosed structure is not the general purpose
computer, but rather the special purpose

1007

computer programmed to perform the disclosed algorithm.’’ WMS Gaming, Inc. v.
Int’l Game Tech., 184 F.3d 1339, 1349
(Fed. Cir. 1999).
[11, 12] And finally, if the patentee
fails to disclose adequate corresponding
structure, the claim is indefinite. Williamson, 792 F.3d at 1352. We review the district court’s indefiniteness determination
de novo and any underlying factual questions for clear error. Media Rights, 800
F.3d at 1371.
The parties do not dispute that the function of ‘‘user identification module’’ is ‘‘to
control access to one or more software
application packages to which the user has
a subscription,’’ as determined by the district court. We agree.
Next, we must identify the structure in
the specification that is clearly linked with
this function, controlling access. The district court found that the structural examples linked to the function of the ‘‘user
identification module’’ are all ‘‘computerreadable media or storage device[s].’’ Rain
Computing, 2020 WL 708125, at *5; see
e.g., ’349 patent at 4:28–31 (‘‘a SIM card,
an IC card, a flash memory drive, a memory card, a CD-ROM, and the like’’). The
district court erred, however, in concluding
that the disclosure of computer-readable
media or storage devices provided sufficient structure for the ‘‘control access’’
function. Id. These computer-readable media or storage devices amount to nothing
more than a general-purpose computer.
See, e.g., HTC Corp. v. IPCom GmbH &
Co., KG, 667 F.3d 1270, 1280 (Fed. Cir.
2012) (the disclosed ‘‘processor and transceiver amount[ed] to nothing more than a
general-purpose computer’’). And ‘‘control[ling] access to one or more software
application packages to which the user has
a subscription’’ requires more ‘‘than merely plugging in a general purpose computer.’’ Ergo Licensing, 673 F.3d at 1365.

136a

1008

989 FEDERAL REPORTER, 3d SERIES

Rather, some special programming, i.e., an
algorithm, would be required to control
access to the software application packages. Rain even agrees that the ‘‘user identification module’’ should include software
algorithms. See, e.g., Appellant’s Resp. &
Reply Br. at 22, (‘‘the module would TTT be
configured to TTT respond to requests for
information (using common software algorithms)’’), id. at 27 n.17 (‘‘the user identification module should include software implementations’’). And the inventor agreed
that ‘‘there are certain algorithms out
there’’ such as ‘‘open source software that
can implement’’ the user identification module. J.A. 297–99. Under these circumstances, where a general purposes computer is the corresponding structure and it is
not capable of performing the controlling
access function absent specialized software, an algorithm is required.

nite, we reverse the district court’s judgment that the asserted claims of the ’349
patent are not invalid as indefinite and
dismiss Rain’s appeal as moot.

[13] Nothing in the claim language or
the written description provides an algorithm to achieve the ‘‘control access’’ function of the ‘‘user identification module.’’
When asked at oral argument to identify
an algorithm in the written description,
Rain could not do so. Oral argument at
32:54–34:40,
available
at
http://
oralarguments.cafc.uscourts.gov/default.
aspx?fl=20-1646 02022021.mp3. Without
an algorithm to achieve the ‘‘control access’’ function, we hold the term ‘‘user
identification module’’ lacks sufficient
structure and renders the claims indefinite.1 As this term appears in all of the
claims relating to Rain’s appeal, our decision moots the noninfringement appeal.

UNITED STATES, Defendant-Appellee

CONCLUSION
Because we hold ‘‘user identification module’’ renders the asserted claims indefi1.

We recently held, in a separate proceeding
involving a different patent, that the failure to
provide an algorithm for the recited function
of a ‘‘user identification module’’ rendered

REVERSED-IN-PART, DISMISSEDIN-PART
COSTS
No costs.

,
AUTHENTIC APPAREL GROUP,
LLC, Ron Reuben, PlaintiffsAppellants
v.

2020-1412
United States Court of Appeals,
Federal Circuit.
Decided: March 4, 2021
Background:
Licensee sued United
States, claiming that Department of Army
breached trademark licensing agreement
by denying licensee right to fully exploit
Army trademarks including ‘‘U.S. Army’’
and ‘‘Army Strong,’’ failing to approve advertising featuring licensee’s celebrity
spokesperson, and refusing to permit licensee to truthfully advertise its relationship
with Army’s morale, welfare, and recreation (MWR) fund, and that Army breached duty of good faith and fair dealing by
preventing licensee from both obtaining
financing for footwear line and reselling
the challenged claims indefinite. See Synchronoss Techs., Inc. v. Dropbox, Inc., Nos. 20192196, 2019-2199, 987 F.3d 1358, 1367–68
(Fed. Cir. Feb. 12, 2021).

137a

